Audit Report




OIG-09-009
Audit of the Department of the Treasury’s Special-Purpose
Financial Statements for Fiscal Years 2008 and 2007
November 19, 2008




Office of
Inspector General
Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
Contents


Transmittal Memorandum


Section I – Independent Auditors’ Report on Special-Purpose
             Financial Statements


Section II – Department of the Treasury’s Special-Purpose Financial
             Statements for Fiscal Years 2008 and 2007
THIS PAGE INTENTIONALLY LEFT BLANK
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              November 19, 2008


            MEMORANDUM FOR KAREN HUNTER, DIRECTOR
                           FINANCIAL REPORTS DIVISION
                           FINANCIAL MANAGEMENT SERVICE

                                     LYNDA DOWNING, ASSISTANT DIRECTOR
                                     FINANCIAL MANAGEMENT AND ASSURANCE
                                     GOVERNMENT ACCOUNTABILITY OFFICE

                                     DANA JAMES, POLICY ANALYST
                                     OFFICE OF MANAGEMENT AND BUDGET

            FROM:                    Michael Fitzgerald /s/
                                     Director, Financial Audits

            SUBJECT:                 Audit of the Department of the Treasury’s Special-Purpose
                                     Financial Statements for Fiscal Years 2008 and 2007

            I am pleased to transmit the attached audited Department of the Treasury
            (Department) special-purpose financial statements for fiscal years 2008 and 2007.
            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the
            Department’s special-purpose financial statements as of September 30, 2008 and
            2007 and for the years then ended. The contract required that the audit be
            performed in accordance with generally accepted government auditing standards
            and Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements.

            KPMG LLP issued an Independent Auditors’ Report on Special-Purpose Financial
            Statements, which is incorporated in the attachment.

            In its audit, KPMG LLP found:

                    •   that the special-purpose financial statements were fairly presented, in all
                        material respects, in conformity with U.S. generally accepted accounting
                        principles and the presentation pursuant to the requirements of the
                        Treasury Financial Manual Volume 1, Part 2 – Chapter 4700
                        (Chapter 4700).
Page 2


      •   A significant deficiency related to controls over the preparation of the
          special-purpose financial statements that was not considered a material
          weakness, and

      •   No instances of reportable noncompliance with Chapter 4700.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the special-purpose financial statements or conclusions about the
effectiveness of internal control over financial reporting or compliance with
Chapter 4700. KPMG LLP is responsible for the attached auditors’ report dated
November 19, 2008 and the conclusions expressed in the report. However, our
review disclosed no instances where KPMG LLP did not comply, in all material
respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Ade Bankole, Manager, Financial Audits at
(202) 927-5329.

Attachment
             SECTION I

  INDEPENDENT AUDITORS’ REPORT ON
SPECIAL PURPOSE FINANCIAL STATEMENTS
THIS PAGE INTENTIONALLY LEFT BLANK
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




               Independent Auditors’ Report on Special-Purpose Financial Statements


Inspector General
U.S. Department of the Treasury

We have audited the accompanying Closing Package Financial Statement Reports – Balance Sheets of the
U.S. Department of the Treasury (Department) as of September 30, 2008 and 2007, the related Closing
Package Financial Statement Reports – Statements of Net Cost and Statements of Changes in Net Position,
and the accompanying Financial Report (FR) Notes Reports (except for FR Notes Report No.16 – Section
F, and the information in the FR Notes Reports entitled “threshold”) for the years then ended, the
accompanying Additional Note No. 27, the accompanying Trading Partner Summary Note Report –
Balance Sheet as of September 30, 2008 and 2007, and the related Trading Partner Summary Note Reports
– Statements of Net Cost and Statements of Changes in Net Position for the years then ended (hereinafter
collectively referred to as the special-purpose financial statements).

We did not audit the amounts and other information included in the special-purpose financial statements of
the Internal Revenue Service (IRS), a component entity of the Department. The financial statements of the
IRS were audited by another auditor whose report has been provided to us. Our opinion on the special-
purpose financial statements, insofar as it relates to the fiscal year 2008 and 2007 amounts and other
information included from the financial statements of the IRS, is based solely on the report of the other
auditor.    These special-purpose financial statements are the responsibility of the Department’s
management. Our responsibility is to express an opinion on these special-purpose financial statements
based on our audits, and the report of the other auditor.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about whether the
special-purpose financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Department’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the special-purpose
financial statements and assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall special-purpose financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

The accompanying special-purpose financial statements have been prepared for the purpose of complying
with the requirements of Volume 1, Part 2 - Chapter 4700 of the U.S. Department of the Treasury’s
Treasury Financial Manual (TFM), as described in Additional Note No. 27, solely for the purpose of
providing financial information to the U.S. Department of the Treasury and the U.S. Government
Accountability Office (GAO) to use in preparing and auditing the Financial Report of the U.S.
Government, and are not intended to be a complete presentation of the Department’s consolidated financial
statements.



                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
In accordance with TFM Volume 1, Part 2 - Chapter 4700, the Department prepared FR Notes Report Nos.
1 through 26, except for FR Notes Report No. 21, which is not applicable to the Department. The
Department included Additional Note No. 27, to disclose other data not contained in the special-purpose
financial statements, but which is necessary to make the special-purpose financial statements more
informative.

In our opinion, based on our audits and the report of the other auditor, the special-purpose financial
statements referred to above present fairly, in all material respects, the financial position of the Department
as of September 30, 2008 and 2007, and its net costs and changes in net position for the years then ended in
conformity with U.S. generally accepted accounting principles and the presentation pursuant to the
requirements of TFM Volume 1, Part 2 - Chapter 4700, as described in Additional Note No. 27.

The Department also prepared Other Data Report Nos. 1 to 17, except for Other Data Report Nos. 4 to 8,
11, and 14 which were not applicable to the Department. The information included in Other Data Report
Nos. 2 Other Data Info. – Section A, 10, 16, and 17, is presented for the purpose of additional analysis and
is not a required part of the special-purpose financial statements, but is supplementary information required
by U.S. generally accepted accounting principles and the TFM Volume 1, Part 2 - Chapter 4700. We, and
the other auditor, have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information, except for the
information in sections entitled “Threshold” discussed in the second paragraph below. However,
we and the other auditor, did not audit this supplementary information, and accordingly, we express no
opinion on it.

Our audits were conducted for the purpose of forming an opinion on the special-purpose financial
statements taken as a whole. The information included in FR Notes Report No. 16 - Section F, Other
Data Report Nos. 1, 2 Other Text Data – Sections A and B, 3, 9, 12, 13, and 15 is presented for the
purpose of additional analysis and is not a required part of the special-purpose financial statements.
This information has not been subjected to auditing procedures and, accordingly, we, and the other auditor,
express no opinion on it.

The information entitled “Threshold” in FR Notes Report Nos. 2, 3, 6, 7, 8, 9, 10A, 15, and 19, the
information in the Closing Package Line Reclassification Summary Report – Balance Sheet; the
information in the Closing Package Line Reclassification Summary Reports – Statement of Net Cost and
Statement of Changes in Net Position, and the Closing Package Line Reclassification Summary Report -
Custodial Activity, is presented for purposes of additional analysis and is not a required part of the special-
purpose financial statements. This information has not been subjected to the auditing procedures applied in
the audits of the special-purpose financial statements and, accordingly, we express no opinion on it.

The TFM Volume 1, Part 2 - Chapter 4700 requires agencies to use the Governmentwide Financial
Reporting System to input certain data as described in Additional Note No. 27. Except as discussed in this
report, we express no opinion on information maintained in that system.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, we have also issued a
combined Independent Auditors’ report dated November 17, 2008, which presents our opinion on the
Department’s consolidated financial statements; our, and the other auditor’s consideration of the
Department’s internal controls over financial reporting, and the results of our, and the other auditor’s tests
of its compliance with certain provisions of laws, regulations, contracts, and grant agreements, and other
matters that are required to be reported under Government Auditing Standards. That report is an integral
part of the audits of the consolidated balance sheets of the Department as of September 30, 2008 and 2007,

                                                      2
and the related consolidated statements of net cost, and changes in net position, the combined statements of
budgetary resources, and statements of custodial activity (hereinafter collectively referred to as
consolidated financial statements) for the years then ended, performed in accordance with Government
Auditing Standards and OMB Bulletin No. 07-04, and should be read in conjunction with this report in
considering the results of our audits of the special-purpose financial statements. Our audit, and the audits
of the other auditor, of the consolidated financial statements of the Department as of and for the year ended
September 30, 2008, disclosed the following material weakness, significant deficiencies, and compliance
and other matters.

Material Weakness

•   Financial Systems and Reporting at the IRS (Repeat Condition)

Other Significant Deficiencies

•   Financial Management Practices at the Departmental Level (Repeat Condition)
    Controls Over Foreign Currency Transactions

Compliance and Other Matters

•   Noncompliance with Internal Revenue Code Section 6325

•   Substantial Noncompliance with the Federal Financial Management Improvement Act of 1996

Other Matter

•   Potential Anti-deficiency Act Violation at the Financial Crimes Enforcement Network

Management is responsible for establishing and maintaining effective internal control. In planning and
performing our audit of the fiscal year 2008 special-purpose financial statements, we also considered the
Department’s internal control over financial reporting as a basis for designing our auditing procedures for
the purpose of expressing our opinion on the special-purpose financial statements, but not for the purpose
of expressing an opinion on the effectiveness of the Department’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the Department’s internal control over
financial reporting.

Our consideration of internal control over the financial reporting process for the special-purpose financial
statements was for the limited purpose described in the preceding paragraph and would not necessarily
identify all deficiencies in the internal control over financial reporting for the special-purpose financial
statements that might be significant deficiencies or material weaknesses. The other auditor’s
consideration of internal control over financial reporting was for the purpose of providing an
opinion on the effectiveness of the IRS’ internal controls. Our report, insofar as it relates to the
results of the other auditor, is based solely on the report of the other auditor.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects the Department’s ability to initiate, authorize, record, process, or report financial data
reliably in accordance with U.S. generally accepted accounting principles such that there is more than a
remote likelihood that a misstatement of the Department’s special-purpose financial statements that is more

                                                       3
than inconsequential will not be prevented or detected by the Department’s internal control. A material
weakness is a significant deficiency, or combination of significant deficiencies, that results in more than a
remote likelihood that a material misstatement of the special-purpose financial statements will not be
prevented or detected by the Department’s internal control.

In our fiscal year 2008 audit, we did not identify any deficiencies in internal control over financial
reporting for the special-purpose financial statements that we consider to be material weaknesses as defined
above. However, we noted one matter, described below involving internal control over financial reporting
for the special-purpose financial statement, and its operation that we consider to be a significant deficiency.
We believe that the significant deficiency is not a material weakness. The objective of our audit was not to
provide assurance on the Department’s internal control over financial reporting for the special-purpose
financial statements. Consequently, we do not provide an opinion.

    Condition:
    The Department did not establish sufficient controls to ensure that the amounts were properly
    presented in the special-purpose financial statements. Several instances of clerical errors were
    identified. In one such error, a liability for $7.6 billion was reported in the FR Notes Report as an asset
    for $7.6 billion.

    Recommendation:
    We recommend that the Department improve controls to ensure that the special-purpose financial
    statement and accompanying notes are accurately prepared in accordance with the instructions
    contained in TFM Volume 1, Part 2 - Chapter 4700. Internal control improvements should include
    appropriate supervisory review, by responsible officials of the closing package prior to lock down.

    Management Response:
    Management has agreed with our findings and recommendation to improve internal controls over the
    preparation and review of the closing package prior to submission.

Management is responsible for complying with laws, regulations (including TFM Volume 1, Part 2 -
Chapter 4700), contracts and grant agreements applicable to the Department. As part of obtaining
reasonable assurance about whether the Department’s fiscal year 2008 special-purpose financial statements
are free of material misstatement, we, and the other auditor, performed tests of its compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts. However, providing an
opinion on compliance with those provisions or on compliance with TFM Volume 1, Part 2 - Chapter 4700
requirements was not an objective of our fiscal year 2008 audit of the special-purpose financial statements
and, accordingly, we do not express such an opinion.

The results of our tests of compliance with TFM Volume 1, Part 2 - Chapter 4700 disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing Standards or
OMB Bulletin No. 07-04.




                                                      4
This report is intended solely for the information and use of the Department’s management, the
Department’s Office of Inspector General, U.S. Department of the Treasury, OMB, and GAO, in
connection with the preparation and audit of the Financial Report of the U.S. Government, and is not
intended to be and should not be used by anyone other than these specified parties.




November 19, 2008




                                                 5
THIS PAGE INTENTIONALLY LEFT BLANK
             SECTION II

    DEPARTMENT OF THE TREASURY’S
SPECIAL-PURPOSE FINANCIAL STATEMENTS
   FOR FISCAL YEARS 2008 AND 2007
THIS PAGE INTENTIONALLY LEFT BLANK
                                                               U.S Department of the Treasury                                           11-19-2008 08:03:35
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                                      GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                    Fiscal Year:     2008                                   Period:   SEPTEMBER

Entity:       2000-Department of the Treasury               Reported In:     MILLIONS                     Decimal Point:      ZERO

          Amounts presented as debits and credits()
          I = Inactive Line


Closing Line item                         Status        2008-SEPTEMBER                      2007-SEPTEMBER                       Previously Reported
Assets:
Non-Federal
Cash and Other Monetary Assets                                     403,010                                107,757                            107,757
Accounts and Taxes Receivable                                       30,950                                 27,658                             27,658
Loans Receivable                                                     3,557                                    175                                175
Inventory and Related Property                                         698                                    638                                638
Property, Plant and Equipment                                        2,077                                  2,086                              2,086
Securities and Investments                                          17,608                                 10,074                             10,074
Other Assets                                                         7,260                                  5,540                              5,540
Total Non-Federal Assets                                           465,160                                153,928                            153,928

Federal
Fund Balance with Treasury                                         275,368                                 74,767                             74,767
Federal Investments                                                      0                                      0                                  0
Accounts Receivable                                                    396                                    466                                466
Interest Receivable                                                  1,033                                  1,516                              1,516
Loans Receivable                                                   274,305                                245,474                            245,474
Transfers Receivable                                                     0                                      0                                  0
Benefit Program Contributions                                            0                                      0                                  0
Receivable
Advances to Others and Prepayments                                      13                                   32                                    32
Other Assets (without reciprocals)                              10,100,763                            9,052,624                             9,052,624
Total Federal Assets                                            10,651,878                            9,374,879                             9,374,879
Total Assets                                                    11,117,038                            9,528,807                             9,528,807

Liabilities
Non-Federal
Accounts Payable                                                    (3,694)                                (2,446)                             (2,446)




                                                                                    -1-
                                                               U.S Department of the Treasury                                           11-19-2008 08:03:35
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                                      GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                    Fiscal Year:       2008                                 Period:   SEPTEMBER

Entity:       2000-Department of the Treasury               Reported In:       MILLIONS                   Decimal Point:      ZERO

          Amounts presented as debits and credits()
          I = Inactive Line


Closing Line item                         Status        2008-SEPTEMBER                      2007-SEPTEMBER                       Previously Reported
Federal Debt Securities Held by the                             (5,812,694)                          (5,054,250)                           (5,054,250)
Public
Federal Employee and Veteran                                          (630)                                 (611)                               (611)
Benefits Payable
Environmental and Disposal                                                 0                                    0                                      0
Liabilities
Benefits Due and Payable                                                 0                                    0                                     0
Loan Guarantee Liabilities                                               0                                    0                                     0
Insurance Programs                                                     (17)                                 (18)                                  (18)
Other Liabilities                                                  (46,257)                             (32,129)                              (32,129)
Total Non-Federal Liabilities                                   (5,863,292)                          (5,089,454)                           (5,089,454)

Federal
Accounts Payable                                                      (111)                                 (92)                                  (92)
Federal Debt                                                    (4,226,059)                          (3,940,220)                           (3,940,220)
Interest Payable                                                   (50,519)                             (48,760)                              (48,760)
Loans Payable                                                            0                                    0                                     0
Transfers Payable                                                        0                                    0                                     0
Benefit Program Contributions                                         (199)                                (183)                                 (183)
Payable
Advances from Others and Deferred                                      (40)                                   (35)                                (35)
Credits
Other Liabilities (without reciprocals)                           (667,107)                            (328,964)                             (328,964)
Total Federal Liabilities                                       (4,944,035)                          (4,318,254)                           (4,318,254)
Total Liabilities                                              (10,807,327)                          (9,407,708)                           (9,407,708)

Net Position
Net Position-Non-Earmarked Funds                                  (271,925)                               (85,514)                            (85,514)




                                                                                      -2-
                                                               U.S Department of the Treasury                                        11-19-2008 08:03:35
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                                      GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                    Fiscal Year:   2008                                 Period:    SEPTEMBER

Entity:       2000-Department of the Treasury               Reported In:   MILLIONS                       Decimal Point:   ZERO

          Amounts presented as debits and credits()
          I = Inactive Line


Closing Line item                         Status        2008-SEPTEMBER                      2007-SEPTEMBER                    Previously Reported
Net Position-Earmarked Funds                                       (37,786)                             (35,585)                           (35,585)
Total Net Position                                                (309,711)                            (121,099)                          (121,099)
Total Liabilities and Net Position                             (11,117,038)                          (9,528,807)                        (9,528,807)




                                                                                  -3-
                                                               U.S Department of the Treasury                                           11-19-2008 08:03:35
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                                      GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                            Fiscal Year:     2008                                   Period:   SEPTEMBER

Entity:       2000-Department of the Treasury               Reported In:     MILLIONS                     Decimal Point:      ZERO

          Amounts presented as debits and credits()
          I = Inactive Line


Closing Line item                         Status        2008-SEPTEMBER                      2007-SEPTEMBER                       Previously Reported
Gross Cost:
Non-Federal Gross Cost                                              32,995                                 20,337                             20,337
Interest on Debt Held by the Public                                241,578                                238,896                            238,896
Total Non-Federal Gross Cost                                       274,573                                259,233                            259,233

Federal Gross Cost
Benefit Program Costs                                                1,851                                  1,766                              1,766
Imputed Costs                                                          730                                    740                                740
Buy/Sell Costs                                                       1,743                                  1,550                              1,550
Federal Securities Interest Expense                                212,423                                193,909                            193,909
Borrowing and Other Interest                                         5,044                                  4,633                              4,633
Expense
Borrowing Losses                                                         0                                     10                                 10
Other Expenses (without reciprocals)                                     0                                      0                                  0
Total Federal Gross Cost                                           221,791                                202,608                            202,608
Department Total Gross Cost                                        496,364                                461,841                            461,841

Earned Revenue
Non-Federal Earned Revenue                                         (12,398)                                (6,334)                             (6,334)

Federal Earned Revenue
Benefit Program Revenue (exchange)                                       0                                     0                                   0
Buy/Sell Revenue                                                      (332)                                 (582)                               (582)
Federal Securities Interest Revenue                                      0                                     0                                   0
(exchange)
Borrowing and Other Interest                                       (14,239)                               (13,586)                            (13,586)
Revenue (Exchange)
Borrowings Gains                                                       (44)                                   (18)                                (18)




                                                                                    -4-
                                                               U.S Department of the Treasury                                           11-19-2008 08:03:35
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                                      GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                            Fiscal Year:     2008                                   Period:   SEPTEMBER

Entity:       2000-Department of the Treasury               Reported In:     MILLIONS                     Decimal Point:      ZERO

          Amounts presented as debits and credits()
          I = Inactive Line


Closing Line item                         Status        2008-SEPTEMBER                      2007-SEPTEMBER                       Previously Reported
Other Revenue (without reciprocals)                                      0                                      0                                   0
Total Federal Earned Revenue                                       (14,615)                               (14,186)                            (14,186)

Department Total Earned Revenue                                    (27,013)                               (20,520)                            (20,520)

Net Cost                                                           469,351                                441,321                            441,321




                                                                                    -5-
                                                               U.S Department of the Treasury                                            11-19-2008 08:03:35
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                                      GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                   2008                                  Period:   SEPTEMBER

Entity:       2000-Department of the Treasury               Reported In:       MILLIONS                    Decimal Point:      ZERO

          Amounts presented as debits and credits()
          I = Inactive Line


Closing Line item                         Status        2008-SEPTEMBER                      2007-SEPTEMBER                        Previously Reported
Beginning Net Position                                            (121,099)                               (114,914)                           (114,914)
Non-Federal Prior Period                                                 0                                       0                                   0
Adjustments (Not Restated)
Federal Prior Period Adjustments                                           0                                     0                                      0
(Not Restated)
Adjusted Beginning Net Position                                   (121,099)                               (114,914)                           (114,914)
Balance

Non-Federal Nonexchange Revenue
Individual Income Tax and Tax                                   (1,924,978)                          (1,940,409)                            (1,940,409)
Witholdings
Corporation Income Taxes                                          (299,723)                            (367,170)                              (367,170)
Unemployment Taxes                                                  (7,212)                              (7,289)                                (7,289)
Excise Taxes                                                       (64,644)                             (64,910)                               (64,910)
Estate and Gift Taxes                                              (28,802)                             (26,009)                               (26,009)
Custom Duties                                                            0                                    0                                      0
Other Taxes and Receipts                                           (40,824)                             (40,194)                               (40,194)
Miscellaneous Earned Revenue                                             0                                    0                                      0
Total Non-Federal Nonexchange                                   (2,366,183)                          (2,445,981)                            (2,445,981)
Revenue

Federal Nonexchange Revenue
Federal Securities Interest Revenue                                        0                                     0                                   0
Borrowing and other interest revenue                                       0                                    (1)                                 (1)
Benefit Program Revenue                                                    0                                     0                                   0
(nonexchange)
Other taxes and receipts                                                   0                                     0                                   0
Total Federal Nonexchange Revenue                                          0                                    (1)                                 (1)




                                                                                      -6-
                                                               U.S Department of the Treasury                                            11-19-2008 08:03:35
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                                      GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                    2008                                 Period:   SEPTEMBER

Entity:       2000-Department of the Treasury               Reported In:        MILLIONS                   Decimal Point:      ZERO

          Amounts presented as debits and credits()
          I = Inactive Line


Closing Line item                         Status        2008-SEPTEMBER                       2007-SEPTEMBER                       Previously Reported

Budgetary Financing Sources:
Appropriations received as adjusted                               (681,362)                               (451,077)                           (451,077)
(rescissions and other adjustments)
Appropriation of unavailable special                                        0                                    0                                      0
or trust fund receipts transfers-in
Appropriation of unavailable special                                        0                                    0                                      0
or trust fund receipts Transfers-out
Appropriation of unavailable special      I                                 0                                    0                                      0
or trust fund receipts transfers-out
Nonexpenditure transfers-in of                                         (24)                                    (27)                                (27)
unexpended appropriations and
financing sources
Nonexpenditure Transfers-out of                                            10                                    8                                      0
unexpended appropriations and
financing sources
Nonexpenditure transfers-out of           I                                 0                                    0                                      8
unexpended appropriations and
financing sources
Expenditure transfers-in of financing                                  (13)                                    (11)                                (11)
sources
Expenditure Transfers-out of                                               13                                   11                                      0
financing sources
Expenditure transfers-out of              I                                 0                                    0                                  11
financing sources
Other Financing Sources                   I                              0                                    0                              2,450,288
Other budgetary financing sources                                2,382,312                            2,450,288                                      0
Total Budgetary Financing Sources                                1,700,936                            1,999,192                              1,999,192




                                                                                       -7-
                                                               U.S Department of the Treasury                                            11-19-2008 08:03:35
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                                      GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                    2008                                 Period:   SEPTEMBER

Entity:       2000-Department of the Treasury               Reported In:        MILLIONS                   Decimal Point:      ZERO

          Amounts presented as debits and credits()
          I = Inactive Line


Closing Line item                         Status        2008-SEPTEMBER                       2007-SEPTEMBER                       Previously Reported

Other Financing Sources:
Transfers-in Without Reimbursement                                          0                                    0                                   0
Transfers-out Without                                                      21                                   24                                  24
Reimbursement
Imputed Financing Source                                              (729)                                  (740)                               (740)
Other non-budgetary financing                                        7,992                                      0                                   0
sources
Total Other Financing Sources                                        7,284                                   (716)                               (716)


Net Cost                                                           469,351                                441,321                             441,321

Ending Net Position Balance                                       (309,711)                               (121,099)                           (121,099)




                                                                                       -8-
                                                                                                                                                                                              11/18/2008 13:01:18

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 01            Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                 Fiscal Year: 2008                Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                   Agency Notes:       Note 1A, Note 21, Note 26

  Status: Complete                                                                                 I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Federal Reserve Earnings                                                               Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                            Decimal: Zero
Line Status Line Description         NB      2008 - SEPTEMBER              2007 - SEPTEMBER                Previously Rptd        Line Item Changes
 1              Treasury securities Credit                   476,627                     774,531                       774,531                        0
                including those
                held by the Federal
                Reserve Bank
                (FRB)
 2              FRB earnings on     Credit                    33,598                      32,043                        32,043                        0
                Treasury securities
                that exceed the
                statutory amount.




                                                                                                        -1-
                                                                                                                                                                                                       11/18/2008 13:01:18

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

    Note: 01          Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                           Fiscal Year: 2008                  Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                            Agency Notes:       Note 1A, Note 21, Note 26

 Status: Complete                                                                                      I = Inactive Line

Tab: Text Data
Line               Question                                                                                                Answer
1                  Describe any significant events that occured after the date of the balance sheet but prior to
                   the agency's audited financial statements being issued.                                                 The Department's disclosure exceeds the text capacity for GFRS to accept the
                                                                                                                           information in this block. Please refer to Department Note 26
2                  Describe any departures from U.S. Generally Accepted Accounting Procedures (GAAP).                      N/A
3                  Describe any change in accounting if a collecting entity adopts accounting standards that               N/A
                   embody a fuller application of accrual accounting concepts that differs from that prescribed
                   by the standard-SFFAS no. 7, par.64.
4                  List all of the agency's components whose balances and activities are not combined into the             The Treasury Department¿s financial statements reflect the reporting of its own entity
                   agency's financial statements and therefore, are not represented in the GFRS data.                      activities, which include appropriations it receives to conduct its operations and revenue
                                                                                                                           generated from those operations. They also reflect the reporting of certain non-entity
                                                                                                                           (custodial) functions it performs on behalf of the U.S. Government and others. Non-
                                                                                                                           entity activities include the collection of federal revenue, servicing the federal debt,
                                                                                                                           disbursing certain federal funds, and maintaining certain assets and liabilities for the
                                                                                                                           U.S. Government as well as for others. The Treasury Department¿s reporting entity
                                                                                                                           does not include the ¿General Fund¿ of the U.S. Government, which maintains receipt,
                                                                                                                           disbursement, and appropriation accounts for all federal agencies.
5                  List all of the agency's components whose balances and activities are combined into the                 The Treasury Department includes the Departmental Offices (DO) and nine operating
                   agency's financial statements, and, therefore, are represented in the GFRS data.                        bureaus. For financial reporting purposes, DO is comprised of: International Assistance
                                                                                                                           Programs (IAP), Office of Inspector General (OIG), Treasury Forfeiture Fund (TFF),
                                                                                                                           Exchange Stabilization Fund (ESF), Community Development Financial Institutions
                                                                                                                           Fund (CDFI), Office of D.C. Pensions (DCP), Treasury Inspector General for Tax
                                                                                                                           Administration (TIGTA), Federal Financing Bank (FFB), and the DO policy offices. In
                                                                                                                           addition, the Air Transportation Stabilization Board (ATSB) was also part of the DO
                                                                                                                           reporting entity for the year ended September 30, 2007. The ATSB was set up to
                                                                                                                           administer the temporary emergency program to assist air carriers that were in need of
                                                                                                                           funds as a result of the terrorist attacks on the United States that occurred on
                                                                                                                           September 11, 2001. The ATSB program was terminated at September 30, 2007. To
                                                                                                                           close out its remaining budgetary resources during FY 2008, ATSB returned $3.5M of
                                                                                                                           unexpended appropriations to the General Fund of the United States. In fiscal year
                                                                                                                           2008 the management of the Treasury Franchise Fund (BPF) was transferred from the
                                                                                                                           Departmental Offices (DO) to the Bureau of Public Debt (BPD).

                                                                                                                           The Treasury Department¿s nine operating bureaus are: Office of the Comptroller of
                                                                                                                           the Currency (OCC); Bureau of Engraving and Printing (BEP); Financial Crimes
                                                                                                                           Enforcement Network (FinCEN); Financial Management Service (FMS); Internal
                                                                                                                           Revenue Service (IRS); U.S. Mint (Mint); Bureau of the Public Debt (BPD); Office of
                                                                                                                           Thrift Supervision (OTS); and the Alcohol and Tobacco Tax and Trade Bureau (TTB).

6                  Provide any other relevant information pertaining to this note.




                                                                                                            -2-
                                                                                                                                                                                              11/18/2008 13:01:18

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 02           Cash and Other Monetary Assets                                                                                Fiscal Year: 2008                Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                   Agency Notes:      Notes 5,6, and 8.

  Status: Complete                                                                              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account    2008 - SEPTEMBER           2007 - SEPTEMBER
                                                                                Type
Cash and Other Monetary Assets                                           D        A                   403,010                  107,757
                                                                             Variance:                      0                        0            Rounding Method: Millions              Decimal: Zero
Line Status Line Description             2008 - SEPTEMBER          2007 - SEPTEMBER               Previously Rptd             Line Item Changes
 1           Operating Cash                              364,273                     69,701                         69,701                           0
 2           Other cash - not                                406                        732                            732                           0
             restricted
 3           Other cash - restricted                         339                        362                            362                           0
 4           International monetary                       14,167                     13,764                         13,764                           0
             assets
 5           Gold                                         11,041                     11,041                         11,041                           0
 6           Domestic monetary                                21                         21                             21                           0
             assets
 7           Foreign currency                             12,763                     12,136                          12,136                          0
             Total                                       403,010                    107,757                         107,757                          0
Threshold

 Line Description                                             Question                                                             Answer
 Line Item Notes - Other cash - not restricted (2008 -        Please provide explanations for any amounts that have                Variance is related to operating cash held by FMS. Daily fluctuation is not
 SEPTEMBER)                                                   changed by 10% or more and or greater than 500,000 between           unusal.
                                                              the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                     -3-
                                                                                                                                                                                       11/18/2008 13:01:18

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 02             Cash and Other Monetary Assets                                                                            Fiscal Year: 2008                 Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                Agency Notes:       Notes 5,6, and 8.

  Status: Complete                                                                              I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                                           Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                       Decimal: Zero
Line Status Line Description           NB     2008 - SEPTEMBER            2007 - SEPTEMBER              Previously Rptd         Line Item Changes
 1              IMF Letter of Credit Debit                      53,012                53,212                          53,212                        0
                - available balance
 2              Reserve Position in Debit                        4,750                 4,464                           4,464                        0
                the IMF
 3              SDR Holdings-        Debit                       9,464                 9,363                           9,363                        0
                Exchange
                Stabilization Fund
 4              SDR Certificates     Debit                       2,200                 2,200                           2,200                        0
                outstanding with
                the FRB
 5              Interest bearing     Credit                      7,630                -7,627                          -7,627                        0
                liability to the IMF
                for SDR Allocations
 6              Gold certificates    Credit                    -11,308               -11,037                         -11,037                        0
       Section: B              Section Name: Gold                                                                                Line Attributes: Units


Line Status Line Description           NB     2008 - SEPTEMBER            2007 - SEPTEMBER              Previously Rptd         Line Item Changes
 1              Number of fine troy    N/A             261,498,900.0000      261,498,900.0000            261,498,900.0000                      .0000
                ounces of gold
 2              Statutory price of 1   N/A                     42.2222               42.2222                         42.2222                   .0000
                fine troy ounce of
                gold
 3              Market value of 1      N/A                    884.5000              743.0000                        743.0000                   .0000
                fine troy ounce of
                gold




                                                                                                     -4-
                                                                                                                                                                                                        11/18/2008 13:01:18

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

    Note: 02           Cash and Other Monetary Assets                                                                                           Fiscal Year: 2008                Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                               Agency Notes:      Notes 5,6, and 8.

 Status: Complete                                                                                         I = Inactive Line

Tab: Text Data
Line               Question                                                                                                   Answer
1                  Describe the nature of the amount in the line item "other cash - not restricted."                          This is mainly comprised of reported by the FMS as Other listed in Note 5 of the
                                                                                                                              Department's PAR. It is mainly cash expected to be included in Operating Cash in the
                                                                                                                              near future. It fluctuates daily.
2                  Describe the restrictions on the cash reported in the line item "Other cash - restricted" and              It is mainly non-entity tax related deposits in U.S. Territories held by the Internal
                   any statutory authority (law, regulation, or agreement).                                                   Revenue Service that cannot be used in its operations. It also includes seized cash
                                                                                                                              reported by the Treasury Forfeiture Fund.
3                  If the cash is restricted because it is non-entity, state the entity for which the cash is being           Internal Revenue Service - held for taxpayers. Treasury Forfeiture Fund - individuals
                   held.                                                                                                      or entities who own the seized cash.
4                  Is the reported restricted cash being held in a financial institution? If yes, is it a Treasury            The Office of International Affairs maintains funds at the Federal Reserve Bank in New
                   designated bank?                                                                                           York that are restricted for use by the IMF. The articles of agreement with the IMF
                                                                                                                              provide for return of these funds should the U.S. withdraw from the IMF. Other
                                                                                                                              restricted assets are held at Treasury designated financial institutions.
5                  If you have restricted cash, is the restricted cash invested? If yes, is it invested in the Bureau         Invested cash is displayed on the balance sheet as investments rather than cash.
                   of the Public Debt security, agency security, and/or non-Federal security?                                 Accordingly, it is not displayed on the balance sheet as cash. Investments in BPD
                                                                                                                              securities are eliminated from the Department's balance sheet.
6                  Describe the nature of the amount in the line item "Foreign currency."                                     Foreign cash is held by the Exchange Stabilization Fund. All operations of the ESF
                                                                                                                              require the explicit authority of the Secretary of the Treasury. FMS Operating Cash
                                                                                                                              also holds foreign currecny in a custodial capacity for the use of the entire U.S.
                                                                                                                              Government. See PAR Note 5.
7                  Disclose any restrictions on the use (for example, by law, regulation, or agreement) of the
                   amount in the line item "Foreign Currency."
8                  Disclose the method of exchange rate used on the financial statement date (Treasury
                   exchange rate or prevailing market rate).
9                  Provide any other relevant information pertaining to this note.




                                                                                                                -5-
                                                                                                                                                                                            11/18/2008 13:01:18

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                               Fiscal Year: 2008                 Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                  Agency Notes:       Note 3

  Status: Complete                                                                             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2008 - SEPTEMBER          2007 - SEPTEMBER
                                                                               Type
Accounts and Taxes Receivable                                           D        A                    30,950                   27,658
                                                                            Variance:                      0                        0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description           2008 - SEPTEMBER           2007 - SEPTEMBER               Previously Rptd            Line Item Changes
 1           Accounts receivable,                           395                         168                          168                           0
             gross
 2           Related interest                             1,556                      1,490                          1,490                          0
             receivable - accounts
             receivable
 3           Penalties, fines, and                            8                           5                            5                           0
             administrative fees
             receivable
 4           Less: allowance for                             -2                          -2                           -2                           0
             loss on accounts
             receivable
 5           Less: allowance for                            -10                          -2                           -2                           0
             loss on interest
             receivable
 6           Less: allowance for                             -8                          -4                           -4                           0
             loss on penalties,
             fines, and admin. fees
             rec.
 7           Taxes receivable,                          112,057                     98,010                         98,010                          0
             gross
 8           Less: allowance for                        -83,046                    -72,007                     -72,007                             0
             loss on taxes
             receivable
             Total                                       30,950                     27,658                         27,658                           0
Threshold

 Line Description                                            Question                                                            Answer
 Line Item Notes - Accounts receivable, gross (2008 -        Please provide explanations for any amounts that have               Receivables are mainly related to the Exchange Stabilization Fund. The
 SEPTEMBER)                                                  changed by 10% or more and or greater than 500,000 between          variance is not significant to the ESF or the Department of the Treasury.
                                                             the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Taxes receivable, gross (2008 -           Please provide explanations for any amounts that have               IRS uses a model that recalculates taxes receivable at the end of each fiscal
 SEPTEMBER)                                                  changed by 10% or more and or greater than 500,000 between          year
                                                             the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                    -6-
                                                                                                                                                                                                    11/18/2008 13:01:18

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                        Fiscal Year: 2008                Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                           Agency Notes:       Note 3

  Status: Complete                                                                                     I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Taxes (To be completed by the Depts. of Treasury,                                            Line Attributes: Dollars
                                           Labor and Homeland Security)                                                               Rounding Method: Millions                           Decimal: Zero
Line Status Line Description         NB      2008 - SEPTEMBER               2007 - SEPTEMBER                   Previously Rptd          Line Item Changes
 1              Interest on         Debit                          10                              2                              2                          0
                uncollectible
                accounts (SFFAS
                No. 1, par. 55)




Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Describe the method(s) used to calculate the allowances on accounts receivable.                       Allowances are calculated differently by each Treasury bureau depending on the nature
                                                                                                                           of the balances. Aging and analysis of historical information is used for estimates.
 2                   Describe the method(s) used to calculate the allowance on taxes receivable.                           IRS - Uses a sophisticated model to estimate both taxes receivable and the allowance.
                                                                                                                           TTB - Uses - aging, analysis of individual accounts, analysis of offers in compromise,
                                                                                                                           etc.
 3                   Explain any material difference between the balance of accounts receivable and the                    No know material differences
                     amounts reported on the Treasury Report on Receivables.
 4                   Provide any other relevant information pertaining to this note.                                       None




                                                                                                            -7-
                                                                                                                                                                                   11/18/2008 13:01:18

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                  GF006 - FR Notes Report

      Note: 04A         Direct Loans Receivable                                                                                   Fiscal Year: 2008              Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                Agency Notes:     Note 3

  Status: Complete                                                                          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                     NB    Account     2008 - SEPTEMBER         2007 - SEPTEMBER
                                                                             Type
Loans Receivable                                                     D         A                    3,557                       175
                                                                          Variance:                     0                         0        Rounding Method: Millions           Decimal: Zero
Line Status Line Description           CY: Face Value of Loans   CY: Long-Term Cost of          CY Net Loans             PY: Face Value of Loans      PY: Long-Term Cost of         PY Net Loans
                                              Oustanding                    Loans                                               Oustanding                       Loans
 13          Loans to Non-Feds -                           190                      18                            172                         194                         19                       175
             Including Foreign
 14          Mortgage Backed                             3,311                        -74                       3,385
             Securities Purchase
             Program
 15
 16
 17
 18          All other loans
             receivable
             Total                                       3,501                        -56                        3,557                        194                         19                       175




                                                                                                 -8-
                                                                                                                                                                                                11/18/2008 13:01:18

                                                                                           U.S. Department of the Treasury
                                                                                            Financial Management Service
                                                                                       Governmentwide Financial Report System
                                                                                               GF006 - FR Notes Report

     Note: 04A           Direct Loans Receivable                                                                                           Fiscal Year: 2008               Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                        Agency Notes:       Note 3

  Status: Complete                                                                                    I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Subsidy Expense                                                                         Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                        Decimal: Zero
Line Status Line Description            NB     2008 - SEPTEMBER                2007 - SEPTEMBER               Previously Rptd          Line Item Changes
13             Loans to Non-Feds       Debit                          20                         22                          22                            0
               - Including Foreign
14             Mortgage backed         Debit                         -74
               Securities
               Purchase Program
15                                     Debit
16                                     Debit
17                                     Debit
18             All other loans         Debit
               receivable
19             Total                   N/A                           -54                         22                          22                            0
       Section: B                Section Name: Foreclosed Assets - Balances (SFFAS No. 3, par.         No Data Flag: YES               Line Attributes: Dollars
                                               91)                                                                                   Rounding Method: Millions                        Decimal: Zero
Line Status Line Description            NB     2008 - SEPTEMBER                2007 - SEPTEMBER               Previously Rptd          Line Item Changes
 1             Balances for            Debit
               property held Pre-
               1992
 2             Balances for            Debit
               property held Post-
               1991




Tab: Text Data
 Line                Question                                                                                             Answer
 1                   Provide a broad description of foreclosed property.                                                  None
 2                   Provide any other relevant information pertaining to this note.                                      The Department is reporting mortgage backed securites, acquired from Fannie Mae
                                                                                                                          and Freddie Mac as direct loans.




                                                                                                           -9-
                                                                                                                                                                        11/18/2008 13:01:18

                                                                       U.S. Department of the Treasury
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System
                                                                           GF006 - FR Notes Report

      Note: 04B         Loan Guarantees                                                                                 Fiscal Year: 2008               Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                      Agency Notes:      Note

  Status: Complete                                                                  I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                              NB    Account    2008 - SEPTEMBER         2007 - SEPTEMBER
                                                                      Type
Loan Guarantee Liabilities                                    C         L                        0                     0
                                                                   Variance:                     0                     0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2008 - SEPTEMBER   2007 - SEPTEMBER             Previously Rptd           Line Item Changes
 9           Air Transportation
             Stabilization Board
 13
 14
 15
 16
 17
 18          All other loan
             guarantee liabilities
             Total




                                                                                        - 10 -
                                                                                                                                                                                     11/18/2008 13:01:18

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                              GF006 - FR Notes Report

     Note: 04B          Loan Guarantees                                                                                               Fiscal Year: 2008           Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:    Note

  Status: Complete                                                                                 I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Other Related Information                               No Data Flag: YES              Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                  Decimal: Zero
Line Status Line Description         NB          CY Face Value of           CY Amount Guaranteed     CY Subsidy Expense D       PY Face Value of Loans PY Amount Guaranteed by   PY Subsidy Expense D
                                             Loans Outstanding D             by the Government D                                       Outstanding D        the Government D
 9             Air Transportation    N/A
               Stabilization Board
13                                   N/A
14                                   N/A
15                                   N/A
16                                   N/A
17                                   N/A
18          All other loans          N/A
            guarantee liabilities
19          Total:                   N/A
Tab: Text Data                         No Data Flag: YES
 Line               Question                                                                                           Answer
 1                  Provide any other relevant information pertaining to this note.




                                                                                                       - 11 -
                                                                                                                                                                                        11/18/2008 13:01:18

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

     Note: 05          Inventories and Related Property                                                                          Fiscal Year: 2008                 Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                Agency Notes:       Note 11, Forfeiture Standalone Report

  Status: Complete                                                                           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                      NB    Account     2008 - SEPTEMBER         2007 - SEPTEMBER
                                                                              Type
Inventory and Related Property                                        D         A                         698                 638
                                                                           Variance:                        0                   0            Rounding Method: Millions             Decimal: Zero
Line Status Line Description          2008 - SEPTEMBER           2007 - SEPTEMBER              Previously Rptd           Line Item Changes
 1          Gross Inventory -                              644                         395                         395                          0
            balance beginning of
            year
 2          Prior-period
            adjustment (not
            restated)
 3          Capitalized                                    815                      1,129                        1,129                          0
            acquisitions from the
            public
 4          Capitalized
            acquisitions from
            Government agencies
 5          Inventory sold or used                        -755                      -875                          -875                          0
 6          Total allowance for                             -6                       -11                           -11                          0
            inventories and related
            property
            Total                                          698                         638                         638                           0




                                                                                                 - 12 -
                                                                                                                                                                                        11/18/2008 13:01:18

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 05             Inventories and Related Property                                                                       Fiscal Year: 2008                 Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                             Agency Notes:       Note 11, Forfeiture Standalone Report

  Status: Complete                                                                                I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Inventory Yearend Balances by Category Type                                     Line Attributes: Dollars
                                                                                                                            Rounding Method: Millions                         Decimal: Zero
Line Status Line Description             NB      2008 - SEPTEMBER         2007 - SEPTEMBER                Previously Rptd    Line Item Changes
 1              Inventory               Debit
                purchased for sale
 2              Inventory held in       Debit
                reserve for future
                sale to the public
 3              Inventory and           Debit
                operating material
                and supplies held
                for repair
 4              Inventory - excess,     Debit
                obsolete, and
                unserviceable
 5              Operating materials     Debit                        16                      15                        15                        0
                and supplies held
                for use
 6              Operating materials     Debit                        24                      23                        23                        0
                and supplies held
                in reserve for future
                use
 7              Operating materials     Debit
                and supplies
                excess, obsolete,
                and unserviceable
 8              Stockpile materials     Debit
 9              Stockpile materials     Debit
                held for sale
10              Forfeited property      Debit                       100                      85                        85                        0
11              Other related           Debit                       576                     526                       526                        0
                property
12              Total allowance for     Credit                       18                      11                        11                        0
                inventories and
                related property
13              Total inventories        N/A                        698                     638                       638                        0
                and related
                property, net




                                                                                                      - 13 -
                                                                                                                                                                                       11/18/2008 13:01:18

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                       Fiscal Year: 2008                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                             Agency Notes:       Note 11, Forfeiture Standalone Report

  Status: Complete                                                                              I = Inactive Line


       Section: B              Section Name: Capitalized Acquitions From Government Agencies     No Data Flag: YES           Line Attributes: Dollars
                                             by Trading Patrner                                                            Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB     2008 - SEPTEMBER              2007 - SEPTEMBER             Previously Rptd     Line Item Changes
 1              General Services     Debit
                Administration
 2              Department of        Debit
                Defense
 3        I     Department of        Debit
                Interior
 4              Department of        Debit
                Justice
 5              National             Debit
                Aeronautics and
                Space
                Administration
 6              All other            Debit
                departments
 7              Total Capitalized     N/A
                Assets from
                Federal Agencies
       Section: C              Section Name: Other Information - Dollar Value                                                Line Attributes: Dollars
                                                                                                                           Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB     2008 - SEPTEMBER              2007 - SEPTEMBER             Previously Rptd     Line Item Changes
 1              Seized property      Debit                        661                     694                        694                        0
 2              Forfeited property   Debit                         86                      85                         85                        0
 3              Goods held under     Debit
                price support and
                stabilization
                programs




                                                                                                    - 14 -
                                                                                                                                                                                                        11/18/2008 13:01:18

                                                                                            U.S. Department of the Treasury
                                                                                             Financial Management Service
                                                                                        Governmentwide Financial Report System
                                                                                                GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                                      Fiscal Year: 2008                 Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                           Agency Notes:       Note 11, Forfeiture Standalone Report

  Status: Complete                                                                                       I = Inactive Line


       Section: D              Section Name: Other Information - Number of Items/Volume                                                    Line Attributes: Units


Line Status Line Description           NB      2008 - SEPTEMBER                 2007 - SEPTEMBER                 Previously Rptd           Line Item Changes
 1              Seized property       N/A                   26,506.0000                    26,515.0000                 26,515.0000                         .0000
 2              Forfeited property    N/A                   11,171.0000                    14,798.0000                 14,798.0000                         .0000
 3              Goods held under      N/A
                price support and
                stabilization
                programs



Tab: Text Data
 Line                Question                                                                                                Answer
 1                   Method used to calculate allowance for each category of inventory.                                      The Department had nominal balances in allowances at FYE 2007 and 2008. Inventory
                                                                                                                             is reported by the Bureau of Engraving and Printing, the U.S Mint, the Treasury
                                                                                                                             Forfeiture Fund and a small amount by the Internal Revenue Serivce U.S. Mint - All
                                                                                                                             inventory that is not for sale has an allowance of 100% of the original value.
 2                    Significant accounting principles and methods of applying those principles.                            Inventoray and related property includes inventory, operating materials and supplies
                                                                                                                             and forfeited property held by Treasury. The Treasury Department's operating
                                                                                                                             materials and supplies are maintained for the production of bureau products. The
                                                                                                                             Treasury Department maintains inventory accounts or balances (e.g., metals, paper,
                                                                                                                             etc.) for use in manufacturing currency and coins. The cost of these items is included in
                                                                                                                             inventory costs, and is recorded as cost of goods sold upon delivery to customers.
                                                                                                                             Inventory for check processing activities is also maintained.
 3                    Provide any other relevant information pertaining to this note.                                        None.




                                                                                                             - 15 -
                                                                                                                                                                                      11/18/2008 13:01:18

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                  GF006 - FR Notes Report

     Note: 06          Property, Plant, and Equipment                                                                            Fiscal Year: 2008                Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                Agency Notes:        Note 12

  Status: Complete                                                                           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                     NB    Account     2008 - SEPTEMBER          2007 - SEPTEMBER
                                                                             Type
Property, Plant and Equipment                                         D        A                     2,077                   2,086
                                                                          Variance:                      0                       0            Rounding Method: Millions           Decimal: Zero
Line Status Line Description                     CY PP&E           CY Accum. Depr.               CY Net PP& E                       PY PP&E             PY Accum. Depr.                PY Net PP&E
 1          PP&E - balance                              5,781                     3,695                          2,086                    5,478                           3,296                   2,182
            beginning of year
 2          Prior-period                                      1                                                      1
            adjustments (not
            restated)
 3          Capitalized                                     433                                                    433                         413                                                   413
            acquisitions from the
            public
 4          Capitalized                                      50                                                     50                          17                                                    17
            acquisitions from
            Government agencies
 5          Deletions from the                             -207                      -167                          -40                        -113                         -97                       -16
            Balance Sheet
 6          Revaluations                                                                                                                       -12                                                   -12
 7          Stewardship
            reclassifications
 8          Depreciation/amortizati                                                   453                         -453                                                     498                     -498
            on
            Total                                          6,058                     3,981                        2,077                       5,783                       3,697                    2,086




                                                                                                 - 16 -
                                                                                                                                                                                                  11/18/2008 13:01:18

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 06              Property, Plant, and Equipment                                                                              Fiscal Year: 2008                   Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                  Agency Notes:         Note 12

  Status: Complete                                                                                   I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Gross cost for PP&E for each category                                                Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                            Decimal: Zero
Line Status Line Description             NB     2008 - SEPTEMBER            2007 - SEPTEMBER                  Previously Rptd      Line Item Changes
 1              Buildings,              Debit                      669                         658                         658                           0
                structures, and
                facilities (including
                improvement to
                land)
 2              Furniture, fixtures,    Debit                    3,377                       3,271                        3,271                          0
                and equipment
 3              Construction in         Debit                       35                          27                          27                           0
                progress
 4              Land and Land           Debit                       12                          12                          12                           0
                Rights
 5              Internal use            Debit                    1,356                       1,264                        1,264                          0
                software
 6              Assets under            Debit                       29                          25                          25                           0
                capital lease
 7              Leasehold               Debit                      580                         526                         526                           0
                improvements
 8              Other property,         Debit                        0
                plant and
                equipment
 9              Total property,         N/A                      6,058                       5,783                        5,783                          0
                plant and
                equipment
Threshold
 Line Description                                                Question                                                            Answer
 Other Notes Info - Construction in progress (2008 -             Please provide explanations for any amounts that have               This is not significant to the Department and is not covered in the flux
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000                  analysis for our statements.
                                                                 between the current fiscal year and prior fiscal year.
                                                                 (Unaudited)
 Other Notes Info - Assets under capital lease (2008 -           Please provide explanations for any amounts that have               The Department has an insignificant amount of capital leases. Most relate
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000                  to the Internal Revenue Service and a fluctuation of this amount is not
                                                                 between the current fiscal year and prior fiscal year.              significant.
                                                                 (Unaudited)




                                                                                                          - 17 -
                                                                                                                                                                                        11/18/2008 13:01:18

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 06             Property, Plant, and Equipment                                                                                 Fiscal Year: 2008             Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                     Agency Notes:       Note 12

  Status: Complete                                                                                     I = Inactive Line


       Section: B               Section Name: Accumulated Depreciation/Amortization                                                   Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                   Decimal: Zero
Line Status Line Description             NB      2008 - SEPTEMBER           2007 - SEPTEMBER                   Previously Rptd       Line Item Changes
 1              Buildings,              Credit                      297                      276                             276                         0
                structures, and
                facilities (including
                improvements to
                land)
 2              Furniture, fixtures,    Credit                   2,608                      2,503                           2,503                        0
                and equipment
 3              Internal use            Credit                      664                      564                             564                         0
                software
 4              Assets under            Credit                       20                           12                           12                        0
                capital lease
 5              Leasehold               Credit                      392                      342                             342                         0
                improvements
 6              Other property,         Credit
                plant, and
                equipment
 7              Total accumulated        N/A                   -3,981                     -3,697                           -3,697                        0
                depreciation/amorti
                zation
       Section: C               Section Name: Intragovernmental Capitalized acquisition amounts                                       Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                   Decimal: Zero
Line Status Line Description             NB      2008 - SEPTEMBER           2007 - SEPTEMBER                   Previously Rptd       Line Item Changes
 1              General Services        Debit                        47                           14                           14                        0
                Administration
 2              Department of           Debit                         1                            3                            3                        0
                Defense
 3              Department of the       Debit
                Interior
 4              Department of           Debit
                Justice
 5              National                Debit
                Aeronautics and
                Space
                Administration
 6              All other               Debit                         2
                departments
 7              Total capitalized        N/A                         50                           17                           17                        0
                assets from


                                                                                                           - 18 -
                                                                                                                                                                                                11/18/2008 13:01:18

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 06            Property, Plant, and Equipment                                                                                    Fiscal Year: 2008               Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                        Agency Notes:       Note 12

  Status: Complete                                                                                     I = Inactive Line


       Section: C              Section Name: Intragovernmental Capitalized acquisition amounts                                         Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                        Decimal: Zero
Line Status Line Description           NB      2008 - SEPTEMBER              2007 - SEPTEMBER                  Previously Rptd         Line Item Changes
                Federal agencies




       Section: D              Section Name: Gain/Loss on Sale/Disposition                                                             Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                        Decimal: Zero
Line Status Line Description           NB      2008 - SEPTEMBER              2007 - SEPTEMBER                  Previously Rptd         Line Item Changes
 1              Gain/loss on          Credit                        -2                            -2                          -2                            0
                sale/disposition of
                property, plant and
                equipment




Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Provide the physical quantity information by category for multiuse heritage assets that are           One - The Department of the Treasury Complex (Main Treasury and Annex).
                     included in the "Line Item Notes" tab of this note (SFFAS No. 16, par 9).
 2                   Disclose any transfer of land where the book value is not known by the receiving entity, if           None
                     material (SFFAS No. 6, par.72).
 3                   Provide any other relevant information pertaining to this note and any material changes from          None
                     the prior years' depreciation methods and capitalization thresholds.




                                                                                                           - 19 -
                                                                                                                                                                                    11/18/2008 13:01:18

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 07          Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                    Fiscal Year: 2008               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                   Agency Notes:      Note 7

  Status: Complete                                                                              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2008 - SEPTEMBER          2007 - SEPTEMBER
                                                                                Type
Securities and Investments                                               D        A                     17,608                 10,074
                                                                             Variance:                       0                      0           Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2008 - SEPTEMBER            2007 - SEPTEMBER            Previously Reported           Line Item Changes
 1          Fixed/Debt Securities                        17,575                      10,040                                                 10,040
            (FASB 115 par 6 and
            19): Non-U.S.
            Government Securities
 2          Fixed/Debt Securities
            (FASB 115 par 6 and
            19): Commercial
            Securities
 3          Fixed/Debt Securities
            (FASB 115 par 6 and
            19): Mortgage/asset
            backed Securities
 4          Fixed/Debt Securities
            (FASB 115 par 6 and
            19):Corporate and
            other bonds
 5          Fixed/Debt Securities                             7                           7                                                        7
            (FASB 115 par 6 and
            19):Other fixed/debt
            securities
 6          Equity Securities                                23                          25                                                       25
            (FASB 115 par 6 and
            19): Common Stocks
 7          Equity Securities
            (FASB 115 par 6 and
            19): Unit Trusts
 8          Equity Securities                                 3                           2                                                        2
            (FASB 115 par 6 and
            19): Other Equity
            Securities
 9          Other
            Total                                        17,608                      10,074                                                 10,074
Threshold

 Line Description                                            Question                                                             Answer




                                                                                                     - 20 -
                                                                                                                                                                                11/18/2008 13:01:18

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

   Note: 07           Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)               Fiscal Year: 2008                 Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                             Agency Notes:       Note 7

 Status: Complete                                                                                I = Inactive Line



Threshold

Line Description                                               Question                                                     Answer
Line Item Notes - Equity Securities (FASB 115 par 6 and 19):   Please provide explanations for any amounts that have        Not significant to the Department of the Treasury
Other Equity Securities (2008 - SEPTEMBER)                     changed by 10% or more and or greater than 500,000 between
                                                               the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                     - 21 -
                                                                                                                                                                                        11/18/2008 13:01:18

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 07             Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                     Fiscal Year: 2008              Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                    Agency Notes:       Note 7

  Status: Complete                                                                                    I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Investment Category - Held-to-Maturity Securities                                       Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                    Decimal: Zero
Line Status Line Description            NB     CY Basis (Costs) D               CY Unamortized              CY Net Investment         PY Basis (Cost) D             PY Unamortized     PY Net Investment
                                                                            Premium/Discount D                                                                  Premium/Discount D
 1              Fixed/Debt              N/A                    17,543                            32                       17,575                   9,979                       61                   10,040
                Securities: Non-
                U.S. Government
                securities
 2              Fixed/Debt              N/A
                Securities: Non-
                U.S. Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A                         7                                                         7                         8                      -1                          7
                Securities: Other
                fixed/debt securities
 6              Equity Securities:      N/A                        29                            -5                          24                       29                       -4                       25
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                Other equity
                securities
 9              Other                   N/A                         3                            -1                           2                         3                      -1                          2
10              Total Held-to-          N/A                    17,582                            26                       17,608                  10,019                       55                   10,074
                Maturity Securities




                                                                                                          - 22 -
                                                                                                                                                                                    11/18/2008 13:01:18

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 07             Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                Fiscal Year: 2008             Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                               Agency Notes:     Note 7

  Status: Complete                                                                                 I = Inactive Line


       Section: B              Section Name: Investment Category - Available-for-Sale Securities     No Data Flag: YES          Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                     Decimal: Zero
Line Status Line Description            NB       CY Basis (Cost) D       CY Unrealized Gain/Loss            CY Market Value      PY Basis (Cost) D     PY Unrealized Gain/Loss       PY Market Value
                                                                                              D                                                                             D
 1              Fixed/Debt              N/A
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: Other
                fixed/debt securities
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Common stocks
 8              Equity Securities:      N/A
                Other equity
                securities
 9              Other                   N/A
10              Total Available-        N/A
                for-Sale Securities




                                                                                                        - 23 -
                                                                                                                                                                                    11/18/2008 13:01:18

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 07             Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                Fiscal Year: 2008             Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                               Agency Notes:     Note 7

  Status: Complete                                                                                 I = Inactive Line


       Section: C               Section Name: Investment Category - Trading Securities               No Data Flag: YES          Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                     Decimal: Zero
Line Status Line Description            NB       CY Basis (Cost) D       CY Unrealized Gain/Loss            CY Market Value      PY Basis (Cost) D     PY Unrealized Gain/Loss       PY Market Value
                                                                                              D                                                                             D
 1              Fixed/Debt              N/A
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: Other
                fixed/debt securities
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                Other equity
                securities
 9              Other                   N/A
10              Total Trading           N/A
                Securities




                                                                                                        - 24 -
                                                                                                                                                                               11/18/2008 13:01:18

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 07             Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                Fiscal Year: 2008          Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                               Agency Notes:     Note 7

  Status: Complete                                                                                 I = Inactive Line


       Section: D              Section Name: Other Information (FASB 115, pars. 21a, 21c, 21d,       No Data Flag: YES          Line Attributes: Dollars
                                             21e, and 22)                                                                     Rounding Method: Millions                Decimal: Zero
Line Status Line Description           NB      2008 - SEPTEMBER             2007 - SEPTEMBER                Previously Rptd      Line Item Change
 1              Proceeds from         Debit
                sales of available-
                for-sale securities
 2              Gross realized        Debit
                gains (included in
                earnings) from
                sales of available-
                for-sale securities
 3              Gross realized        Credit
                losses (included in
                earnings) from
                sales of available-
                for-sale securities
 4              Gross gains           Debit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 5              Gross losses          Credit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 6              Net unrealized        Debit
                holding gain on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income
 7              Net unrealized        Credit
                holding loss on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive


                                                                                                        - 25 -
                                                                                                                                                                                                        11/18/2008 13:01:18

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 07            Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                           Fiscal Year: 2008                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                           Agency Notes:     Note 7

  Status: Complete                                                                                      I = Inactive Line


       Section: D            Section Name: Other Information (FASB 115, pars. 21a, 21c, 21d,             No Data Flag: YES               Line Attributes: Dollars
                                           21e, and 22)                                                                                Rounding Method: Millions                           Decimal: Zero
Line Status Line Description         NB      2008 - SEPTEMBER                 2007 - SEPTEMBER                   Previously Rptd          Line Item Change
                income
 8          Amount of               Debit
            gains/losses
            reclassified out of
            accumulated other
            comprehensive
            income into
            earnings for the
            period
 9          Portion of trading      Debit
            gains/losses that
            relates to trading
            securities still held
            at the reporting
            date
10          Net carrying            Debit
            amount of
            sold/transferred
            held-to-maturity
            securities
11          Net gain/loss in        Debit
            accum. other
            comp. income for
            any derivative that
            hedged the
            forecasted
            acquisition of HTM
            security
Tab: Text Data
 Line               Question                                                                                                Answer
 1                  Provide a description of the amounts reported on the "Line Item Notes" tab for lines 5 and 8.           Insigniicant holdings - Community Development Financial Institutions Fund
 2                  Provide a description of the amounts reported on the "Other Notes Infor" tab for lines 5 and 8          See 1
                    in Sections A through C.
 3                  Provide the basis on which the cost of a security sold or the amount reclassified out of                See 1
                    accumulated other comprehensive income into earnings was determined (FASB 115 par
                    21b).
 4                  Provide the circumstances leading to the decision to sell or transfer the security for held-to-
                    maturity securities (FASB 115 par 22).
 5                  Provide any other relevant information pertaining to this note.                                         None




                                                                                                            - 26 -
                                                                                                                                                                                                      11/18/2008 13:01:18

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 08           Other Assets                                                                                                           Fiscal Year: 2008                Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                             Agency Notes:      Note 3, Note 9

  Status: Complete                                                                                      I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                              NB    Account      2008 - SEPTEMBER           2007 - SEPTEMBER
                                                                                      Type
Other Assets                                                                  D         A                        7,260                    5,540
                                                                                   Variance:                         0                        0          Rounding Method: Millions               Decimal: Zero
Line Status Line Description            2008 - SEPTEMBER               2007 - SEPTEMBER                   Previously Rptd            Line Item Changes
 1             Advances and                                   1,703                             10                             10                            0
               prepayments
 2             Other Assets                                   5,557                          5,530                          5,530                            0
               Total                                          7,260                          5,540                          5,540                            0
Threshold

 Line Description                                                 Question                                                                  Answer
 Line Item Notes - Advances and prepayments (2008 -               Please provide explanations for any amounts that have                     Advance for additional purchase of GSE MBS.
 SEPTEMBER)                                                       changed by 10% or more and or greater than 500,000 between
                                                                  the current fiscal year and prior fiscal year. (Unaudited)
Tab: Text Data
 Line               Question                                                                                                 Answer
 1                  Provide a description of advances and prepayments on the "Line Item Notes" tab for line 1.               $1.7B advance for purchase of additional GSE MBS.
 2                  Provide a description and related amounts for balances that exceed $1 billion in the line titled         $5.5B relates to Treasury participation in Multilateral Development Banks (MDB). See
                    "Other Assets" on the "Line Item Notes" tab.                                                             PAR Note 9
 3                  Provide any other relevant information pertaining to this note.                                          None




                                                                                                             - 27 -
                                                                                                                                                                                         11/18/2008 13:01:18

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

     Note: 09          Accounts Payable                                                                                          Fiscal Year: 2008                Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                Agency Notes:      No specifc Accounts Payable Note - See Note 17

  Status: Complete                                                                           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                      NB    Account    2008 - SEPTEMBER          2007 - SEPTEMBER
                                                                              Type
Accounts Payable                                                      C         L                    3,694                   2,446
                                                                           Variance:                     0                       0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description         2008 - SEPTEMBER            2007 - SEPTEMBER              Previously Rptd           Line Item Changes
 1          Accounts Payable                             3,694                      2,446                        2,446                          0
            Total                                        3,694                      2,446                        2,446                          0
Threshold

 Line Description                                          Question                                                           Answer
 Line Item Notes - Accounts Payable (2008 - SEPTEMBER)     Please provide explanations for any amounts that have              Variance is not significant to the Department of the Treasury and was not
                                                           changed by 10% or more and or greater than 500,000 between         analyzed as part of our fluctuation analysis
                                                           the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                 - 28 -
                                                                                                                                                                                                  11/18/2008 13:01:18

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

      Note: 10A         Federal Debt Securities Held by the Public                                                                        Fiscal Year: 2008                Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                        Agency Notes:       Note 14

  Status: Complete                                                                                   I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                             NB    Account    2008 - SEPTEMBER           2007 - SEPTEMBER
                                                                                     Type
Federal Debt Securities Held by the Public                                    C        L                 5,812,694                5,054,250
                                                                                  Variance:                      0                        0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description            2008 - SEPTEMBER                2007 - SEPTEMBER               Previously Rptd            Line Item Changes
 1            Marketable Securities                         1,484,332                    954,607                      954,607                            0
             - Treasury bills
 2            Marketable Securities                         2,623,364                  2,456,100                     2,456,100                           0
             - Treasury notes
 3            Marketable Securities                          578,504                     560,922                      560,922                            0
             - Treasury bonds
 4            Marketable Securities                          523,951                     456,776                      456,776                            0
             - Treasury inflation
             protected securities
 5            Non-marketable                                 598,540                     620,900                      620,900                            0
             securities
 6            Unamortized premium                              4,344                       4,146                          4,146                          0
             on Treasury securities
 7            Unamortized discount                           -40,468                     -43,587                      -43,587                            0
             on Treasury securities
 8           Accrued interest                                 40,127                      44,386                         44,386                          0
             payable on debt
             issued by Treasury
  9          Securities at par
 10           Unamortized premium
             on securities
 11           Unamortized discount
             on securities
 12      I    Accrued interest
             payable on agency
             securities
             Total                                          5,812,694                  5,054,250                     5,054,250                            0
Threshold

 Line Description                                                  Question                                                             Answer
 Line Item Notes - Marketable Securities - Treasury bills          Please provide explanations for any amounts that have               Increasing deficit and debt issued for economic stabilization programs
 (2008 - SEPTEMBER)                                                changed by 10% or more and or greater than 500,000 between
                                                                   the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Accrued interest payable on debt issued by      Please provide explanations for any amounts that have               Amount of accrued interest payable varies daily. $40B and 44B match the
 Treasury (2008 - SEPTEMBER)                                       changed by 10% or more and or greater than 500,000 between          Schedule of Federal Debt.
                                                                   the current fiscal year and prior fiscal year. (Unaudited)


                                                                                                         - 29 -
                                                                                                                                                                                      11/18/2008 13:01:18

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 10A           Federal Debt Securities Held by the Public                                                                    Fiscal Year: 2008             Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:       Note 14

  Status: Complete                                                                                I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Federal Debt Held By the Public: Other Related                                         Line Attributes: Dollars
                                             Information                                                                          Rounding Method: Millions                   Decimal: Zero
Line Status Line Description           NB      2008 - SEPTEMBER           2007 - SEPTEMBER                Previously Rptd          Line Item Changes
 1             Debt subject to        Credit                 9,959,850                8,921,343                       8,921,343                        0
               statutory limit
 2             Statutory debt limit   Credit                10,615,000                9,815,000                       9,815,000                        0




       Section: B              Section Name: Federal Debt Held By The Public: Average Interest                                      Line Attributes: Percent
                                             Rate
Line Status Line Description           NB      2008 - SEPTEMBER           2007 - SEPTEMBER                Previously Rptd          Line Item Changes
 1             Marketable              N/A                      1.6000                   4.6000                                                  4.6000
               securities -
               Treasury bills
 2             Marketable              N/A                      4.1000                   4.4000                                                  4.4000
               securities - Tresury
               notes
 3             Marketable              N/A                      7.1000                   7.4000                                                  7.4000
               securities -
               Treasury bonds
 4             Marketable              N/A                      2.0000                   2.3000                                                  2.3000
               securities -
               Treasury inflation
               protected securities
 5             Non-marketable          N/A                      4.1000                   4.9000                                                  4.9000
               securities




                                                                                                      - 30 -
                                                                                                                                                                                              11/18/2008 13:01:18

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 10B        Treasury securities held by the Government trust, revolving, and special funds                                  Fiscal Year: 2008                Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                                      Agency Notes:      None - Eliminated in Treasury's fin'l statements

  Status: Complete                                                                                     I = Inactive Line

Tab: Other Notes Info.

      Section: A            Section Name: Investments in Federal Debt securities                                                   Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                          Decimal: Zero
Line Status Line Description       NB        CY Par value of the                 CY Unamortized CY Unamortized premium             CY Net Investment                PY Par Value D PY Unamortized discount
                                                 investment D                       Discount C                       D                                                                                  C
19           Department of         N/A                       16,846                                                                             16,846                        16,436
             Treasury,
             Exchange
             Stabilization Fund
23                                 N/A
24                                 N/A
25                                 N/A
26           All other programs    N/A                         6,130                            8                          102                   6,224                         5,880                          19
             and funds
27           Total                 N/A                       22,976                            -8                          102                  23,070                        22,316                         -19

Line Status Line Description       NB            PY Unamortized             PY Net Investment
                                                    premium D
19           Department of         N/A                                                     16,436
             Treasury,
             Exchange
             Stabilization Fund
23                                 N/A
24                                 N/A
25                                 N/A
26           All other programs    N/A                            76                        5,937
             and funds
27           Total                 N/A                            76                       22,373




                                                                                                           - 31 -
                                                                                                                                                                                  11/18/2008 13:01:18

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                              Fiscal Year: 2008               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                 Agency Notes:       Note 17

  Status: Complete                                                                            I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2008 - SEPTEMBER         2007 - SEPTEMBER
                                                                               Type
Federal Employee and Veteran Benefits Payable                          C         L                         630                 611
                                                                            Variance:                        0                   0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description         2008 - SEPTEMBER            2007 - SEPTEMBER               Previously Rptd           Line Item Changes
 1          Pension and accrued
            benefits
 2          Post-retirement health
            and accrued benefits
 3          Veteran's
            compensation and
            burial benefits
 4          Life Insurance and
            accrued benefits
 5          FECA Benefits                                  594                          573                         573                          0
 6          Liability for other                             36                           38                          38                          0
            retirement and
            postemployment
            benefits
            Total                                          630                          611                         611                           0




                                                                                                  - 32 -
                                                                                                                                                                             11/18/2008 13:01:18

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                         Fiscal Year: 2008           Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                            Agency Notes:     Note 17

  Status: Complete                                                                               I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Pension and Accrued Benefits Liability-To be        No Data Flag: YES          Line Attributes: Dollars
                                              completed for the amount entered for pension and                             Rounding Method: Millions                 Decimal: Zero
                                              accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB      2008 - SEPTEMBER          2007 - SEPTEMBER              Previously Rptd    Line Item Changes
 1              Pension and             Credit
                accrued benefits
                liability- beginning
                of period
 2              Prior-period            Credit
                adjustments(not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of
                a new plan) during
                the period
 4              Assumption              Credit
                Change Liability
 5              Normal Costs            Credit
                (SFFAS No. 5, par.
                72)
 6              Interest on pension     Credit
                liability during the
                period
 7              Prior (and past)        Credit
                service cost (from
                the initiation of a
                new plan)
 8              Actuarial               Credit
                (gains)/losses
 9              Total pension            N/A
                expense (SFFAS
                No. 5, par.72)
10              Less Benefits Paid      Debit
11              Pension and              N/A
                Accrued Benefits
                Liability-end of
                period




                                                                                                     - 33 -
                                                                                                                                                                                 11/18/2008 13:01:18

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 11              Federal Employee and Veteran Benefits Payable                                                            Fiscal Year: 2008           Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                               Agency Notes:     Note 17

  Status: Complete                                                                                   I = Inactive Line


       Section: B                Section Name: Pension Liability Long-Term Significant Assumptions    No Data Flag: YES          Line Attributes: Percent
                                               Used in 2008 and 2007 Valuation (SFFAS No. 5,
                                               par.67)
Line Status Line Description             NB      2008 - SEPTEMBER            2007 - SEPTEMBER                Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
 2              Rate of inflation        N/A
 3              Projected salary         N/A
                increases




       Section: C                Section Name: Postretirement Health and Accrued Benefits             No Data Flag: YES          Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                 Decimal: Zero
Line Status Line Description             NB      2008 - SEPTEMBER            2007 - SEPTEMBER                Previously Rptd    Line Item Changes
 1              Postretirement          Credit
                health and accrued
                benefits liability-
                beginning of period
                (SFFAS No. 5,
                par.88)
 2              Prior-period            Credit
                adjustments (not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of
                a new plan) during
                the period
 4              Normal costs            Credit
 5              Interest on liability   Credit
 6              Change in medical       Credit
                inflation rate
                assumption
                (gains)/losses
 7              Other actuarial         Credit
                (gains)/losses
 8              Total                    N/A
                postretirement
                health benefits



                                                                                                         - 34 -
                                                                                                                                                                              11/18/2008 13:01:18

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                         Fiscal Year: 2008           Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                            Agency Notes:     Note 17

  Status: Complete                                                                               I = Inactive Line


       Section: C              Section Name: Postretirement Health and Accrued Benefits           No Data Flag: YES          Line Attributes: Dollars
                                                                                                                           Rounding Method: Millions                 Decimal: Zero
Line Status Line Description           NB     2008 - SEPTEMBER            2007 - SEPTEMBER               Previously Rptd    Line Item Changes
                expense
 9              Less claims paid      Debit
10              Postretirement        N/A
                health and accrued
                benefits liability-
                end of period




       Section: D              Section Name: Postretirement Health Liability Significant          No Data Flag: YES          Line Attributes: Percent
                                             Assumptions Used in Determining the 2008 and 2007
                                             Valuation
Line Status Line Description           NB     2008 - SEPTEMBER            2007 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest      N/A
 2              Rate of health care   N/A
                cost inflation
 3              Estimate of single    N/A
                equivalent rate of
                health care cost
                inflation


       Section: G              Section Name: Other                                                No Data Flag: YES          Line Attributes: Dollars
                                                                                                                           Rounding Method: User-Defined             Decimal: User-Defined
Line Status Line Description           NB     2008 - SEPTEMBER            2007 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Non-marketable        Debit
                Treasury securities
                held by Thrift
                Savings Plan (TSP)
                Fund
 2        I     Total assets of       Debit
                pension and other
                retirment and
                benefit plans
 3              Total assets of       Debit
                pension (SFFAS
                No.5, par. 68)
 4              Market value of       Debit


                                                                                                     - 35 -
                                                                                                                                                                          11/18/2008 13:01:18

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 11            Federal Employee and Veteran Benefits Payable                                                      Fiscal Year: 2008           Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                         Agency Notes:     Note 17

  Status: Complete                                                                           I = Inactive Line


       Section: G               Section Name: Other                                           No Data Flag: YES          Line Attributes: Dollars
                                                                                                                       Rounding Method: User-Defined             Decimal: User-Defined
Line Status Line Description           NB     2008 - SEPTEMBER            2007 - SEPTEMBER           Previously Rptd    Line Item Changes
                investments in
                market-based and
                marketable
                securities included
                in line 2
 5              Total assets of       Debit
                other retirement
                benefit plans
                (SFFAS No. 5, par.
                85)
 6              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 4 (SFFAS
                no. 5, par.85)
       Section: O               Section Name: Number of Pension Plans Administrated           No Data Flag: YES          Line Attributes: Units


Line Status Line Description           NB     2008 - SEPTEMBER            2007 - SEPTEMBER           Previously Rptd    Line Item Changes
 1              Pension plans         N/A
                administrated




                                                                                                 - 36 -
                                                                                                                                                                                11/18/2008 13:01:18

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                                  Fiscal Year: 2008         Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                     Agency Notes:   Note 17

 Status: Complete                                                                                        I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                                  Answer
1                  Provide the following information as it relates to the future policy benefits for noncancelable
                   and renewable life insurance (other than whole life) (SFFAS No. 5, par. 110, table 9): a
                   description of each component of the liability for future policy benefits, an explanation of its
                   projected use, and any other potential uses.
2                  For pension plans that differ from the Civil Service Retirement System (CSRS), the Federal
                   Employee Retirement System (FERS), and the Military Retirement System (MRS), describe
                   how and why the assumptions differ from one of those plans (SFFAS No. 5, par. 67).
3                  Provide the long-term projection of the significant assumptions used in determining pension
                   liability and the related expense.
4                  Provide the long-term projection of the significant assumptions used in determining the
                   postretirement health benefits liability and the related expense.
7                  Provide any other relevant information pertaining to this note.
8                  Provide the sources(s) of the information entered for "Line Item Notes" tab numbers 4, 5,
                   and 6.
9                  Provide the source(s) for the components of pension expense entered in Section A.
10                 Provide the source(s) for the interest rate entered in Section B.
11                 Provide the source(s) for the components of postretirement expense entered in Section C.
12                 Provide the source(s) for the interest rate entered in Section D.




                                                                                                             - 37 -
                                                                                                                                                                                11/18/2008 13:01:18

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

      Note: 12          Environmental and Disposal Liabilities                                                                  Fiscal Year: 2008               Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                              Agency Notes:      None

  Status: Complete                                                                          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                      NB    Account    2008 - SEPTEMBER         2007 - SEPTEMBER
                                                                              Type
Environmental and Disposal Liabilities                                C         L                        0                     0
                                                                           Variance:                     0                     0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description             2008 - SEPTEMBER        2007 - SEPTEMBER             Previously Rptd           Line Item Changes
  9
 10
 11
 12
 13
 14          Other Environmental
             and Disposal Liabilities
             Total




                                                                                                - 38 -
                                                                                                                                                                                             11/18/2008 13:01:18

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

     Note: 12            Environmental and Disposal Liabilities                                                                                 Fiscal Year: 2008          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                             Agency Notes:   None

  Status: Complete                                                                                            I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                         No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                           Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2008 - SEPTEMBER                 2007 - SEPTEMBER                      Previously Rptd       Line Item Changes
 1              Unrecognized         Debit
                portion of
                estimated total
                cleanup costs
                associated with
                general property,
                plant, and
                equipment


Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                                     Answer
 1                   List the applicable laws and regulations covering cleanup requirements
 2                   Provide a description of the type of environmental and disposal liabilties identified.
 3                   Provide any other relevant information pertaining to this note.




                                                                                                                  - 39 -
                                                                                                                                                                       11/18/2008 13:01:18

                                                                      U.S. Department of the Treasury
                                                                       Financial Management Service
                                                                  Governmentwide Financial Report System
                                                                          GF006 - FR Notes Report

     Note: 13          Benefits Due and Payable                                                                        Fiscal Year: 2008               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                      Agency Notes:      None

  Status: Complete                                                                 I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                             NB    Account    2008 - SEPTEMBER         2007 - SEPTEMBER
                                                                     Type
Benefits Due and Payable                                     C         L                        0                     0
                                                                  Variance:                     0                     0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description         2008 - SEPTEMBER   2007 - SEPTEMBER             Previously Rptd           Line Item Changes
 9          Other Entitlement
            BenefitsDue and
            Payable
            Total




                                                                                       - 40 -
                                                                                                                                                                                                          11/18/2008 13:01:18

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 14           Insurance Programs Other Than Veterans Affairs                                                                         Fiscal Year: 2008                  Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                             Agency Notes:       None

  Status: Complete                                                                                     I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                             NB    Account      2008 - SEPTEMBER           2007 - SEPTEMBER
                                                                                     Type
Insurance Programs                                                            C        L                             17                      18
                                                                                  Variance:                           0                       0           Rounding Method: Millions                 Decimal: Zero
Line Status Line Description            2008 - SEPTEMBER              2007 - SEPTEMBER                   Previously Rptd             Line Item Changes
 4            Other Insurance                                    17                            18                             18                              0
              Programs
              Total                                              17                             18                            18                               0

Tab: Text Data
 Line               Question                                                                                                Answer
 1                  Provide a description for the type of insurance programs identified in the "Line Item Notes"            The actuarial liability relates to an insurance program at the Office of the Comptroller of
                    tab.                                                                                                    the Currency.


 2                   Provide the name, description, and the related amounts of the insurance programs entered               The actuarial liability relates to an insurance program at the Office of the Comptroller ot
                     on the line titled, "Other insurance programs" in the "Line Item Notes" tab.                           the Currency.
 3                   Provide any other relevant information pertaining to this note.                                        None




                                                                                                            - 41 -
                                                                                                                                                                                             11/18/2008 13:01:18

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

      Note: 15              Other Liabilities                                                                                               Fiscal Year: 2008               Period: SEPTEMBER
   Entity: 2000             Department of the Treasury                                                                                      Agency Notes:      Note 4,5,6,15,17 and 21

  Status: Complete                                                                                     I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                                NB    Account     2008 - SEPTEMBER         2007 - SEPTEMBER
                                                                                        Type
Other Liabilities                                                               C         L                   46,257                   32,129
                                                                                     Variance:                     0                        0           Rounding Method: Millions        Decimal: Zero
Line Status Line Description                    2008 - SEPTEMBER           2007 - SEPTEMBER              Previously Rptd            Line Item Changes
 1               Deferred revenue                                   636                          306                         306                           0
 2               Accrued wages and                                  356                          341                         341                           0
                 benefits
 3               Gold certificates                             11,037                       11,037                         11,037                          0
 4               Other debt
 5               Exchange Stabilization                            7,630                      9,826                         9,826                          0
                 Fund
 6               Legal and other                                                                   2                                                       2
                 contingencies
 7               Grant payments due to
                 State and local
                 governments and
                 others
  8      I       Capital lease liabilities                                                                                     7
  9      I       Contingent liabilities                                                                                        2
 10      I       Accrued grant
                 liabilities
 11              Other employee and
                 actuarial liabilities
 13              D.C. pension liability                            8,803                      8,992                         8,992                          0
 14              Custodial liabilities                                 1
 15              Accrued annual leave                                625                         592                         592                           0
 17              Advances and
                 prepayments
 18              Farm and other
                 subsidies
 19              Deposit funds                                      267
 20              Bonneville Power
                 Administration Non-
                 Federal power projects
                 and capital lease
                 liabilities and disposal
                 liabilities
 21      I       Accrued subsidies
 22              Keep Well GSE                                 13,800


                                                                                                           - 42 -
                                                                                                                                                                                                              11/18/2008 13:01:18

                                                                                           U.S. Department of the Treasury
                                                                                            Financial Management Service
                                                                                       Governmentwide Financial Report System
                                                                                               GF006 - FR Notes Report

      Note: 15               Other Liabilities                                                                                                      Fiscal Year: 2008                  Period: SEPTEMBER
     Entity: 2000            Department of the Treasury                                                                                             Agency Notes:       Note 4,5,6,15,17 and 21

  Status: Complete                                                                                           I = Inactive Line


Line Status Line Description                     2008 - SEPTEMBER          2007 - SEPTEMBER                    Previously Rptd            Line Item Changes
                 Liability
 23
 24
 25           Other Liabilities                                    3,102                          1,033                           1,026                             7
              Total                                               46,257                         32,129                          32,129                             9
Threshold

 Line Description                                                     Question                                                                   Answer
 Line Item Notes - Deferred revenue (2008 - SEPTEMBER)                Please provide explanations for any amounts that have                      Deferred revenue increased as a result of ESF's money market program.
                                                                      changed by 10% or more and or greater than 500,000 between
                                                                      the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Exchange Stabilization Fund (2008 -                Please provide explanations for any amounts that have                      Variance is not significant to the Department of the Treasury and was not
 SEPTEMBER)                                                           changed by 10% or more and or greater than 500,000 between                 analyzed as part of our fluctuation analysis
                                                                      the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Other Liabilities (2008 - SEPTEMBER)               Please enter a description for any amounts over $50 million.               Variance is not significant to the Department of the Treasury and was not
                                                                                                                                                 analyzed as part of our fluctuation analysis
Tab: Text Data
 Line                   Question                                                                                                  Answer
 1                      Provide more details on the liabilities reported on the "Line Item Notes" tab for each line 1             Refer to Agency Note information provided within this note. Page numbers are not
                        through 21 by including a description of the significant related amounts and providing the                provided due to the audited PAR not being printed and finalized at this date.
                        page number of the agency's financial report where the amount is identified.
 2                      Provide a description and related amounts for balances that exceed $50 million on the line                The line is aggreagated from various accrued liabilities in which none are significant as
                        titled, "Other liabilities," and provide the page number of the agency's financial report where           a stand alone.
                        the amount is identified.
 3                      Provide any other relevant information pertaining to this note.                                           None




                                                                                                                  - 43 -
                                                                                                                                                                                          11/18/2008 13:01:18

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 16              Collections and Refunds of Federal Revenue                                                                Fiscal Year: 2008                   Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                Agency Notes:         Notes 1, 21

  Status: Complete                                                                                I = Inactive Line

Tab: Other Notes Info.

       Section: A                 Section Name: Collections of Federal Revenue                                                    Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description             NB                    2008                      2007                          2006              Prior Years
 1              Individual income      Credit                 1,455,017                 799,244                        23,498                  16,567
                and tax
                withholdings
 2              Corporation income     Credit                  222,000                  113,949                         2,010                  16,104
                taxes
 3              Unemployment           Credit                     5,146                   2,026                            42                     117
                taxes
 4              Excise taxes           Credit                   47,708                   17,909                           119                     159
 5              Estate and gift        Credit                         23                 19,248                         1,266                   9,287
                taxes
 6              Railroad retirement    Credit                     3,769                   1,164                             1                          5
                taxes
 7              Federal Reserve        Credit                   25,879                    7,719
                earnings
 8              Fines, penalties,      Credit                     1,936                     297
                interest, and other
                revenue
 9              Custom duties          Credit
10              Subtotal                N/A                 -1,761,478                 -961,556                       -26,936                 -42,239
11              Amounts collected       Debit
                for Non-Federal
                entities
12              Total                   N/A                 -1,761,478                 -961,556                       -26,936                 -42,239
       Section: B                 Section Name: PP Collections of Federal Revenue                                                 Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description             NB                    2007                      2006                          2005              Prior Years
 1              Individual income      Credit                 1,408,591                 750,587                        23,861                  18,425
                and tax
                withholdings
 2              Corporation income     Credit                  253,376                  116,342                         2,938                  22,664
                taxes
 3              Unemployment           Credit                     5,198                   2,041                            51                     126
                taxes
 4              Excise taxes           Credit                   49,174                   17,807                            90                     209
 5              Estate and gift        Credit                         45                 16,162                         1,571                   9,200



                                                                                                      - 44 -
                                                                                                                                                                                        11/18/2008 13:01:18

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 16              Collections and Refunds of Federal Revenue                                                              Fiscal Year: 2008                   Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                              Agency Notes:         Notes 1, 21

  Status: Complete                                                                              I = Inactive Line


       Section: B              Section Name: PP Collections of Federal Revenue                                                  Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB                     2007                   2006                            2005              Prior Years
                taxes
 6              Railroad retirement   Credit                     3,576                1,127                               1                      14
                taxes
 7              Federal Reserve       Credit                    26,255                5,788
                earnings
 8              Fines, penalties,     Credit                     2,661                  423
                interest, and other
                revenue
 9              Customs duties        Credit
10              Subtotal               N/A                  -1,748,876             -910,277                         -28,512                 -50,638
11              Amounts collected     Debit
                for non-Federal
                entities
12              Total                  N/A                  -1,748,876             -910,277                         -28,512                 -50,638
       Section: C              Section Name: Federal Tax Refunds Disbursed                                                      Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB                     2008                   2007                            2006              Prior Years
 1              Individual income     Debit                          935            342,216                          19,217                   6,980
                and tax
                withholdings
 2              Corporation income    Debit                      2,206               19,610                          10,446                  22,078
                taxes
 3              Unemployment          Debit                             1                65                              14                      39
                taxes
 4              Excise taxes          Debit                          439                497                             107                     208
 5              Estate and gift       Debit                             0               343                             428                     251
                taxes
 6              Railroad retirement   Debit                             0                   1                             1                      -9
                taxes
 7              Federal Reserve       Debit
                earnings
 8              Fines, penalties,     Debit                             1                   0                             0                          0
                interest, and other
                revenue
 9              Customs Duties        Debit
10              Total                  N/A                       3,582              362,732                          30,213                  29,547



                                                                                                    - 45 -
                                                                                                                                                                                         11/18/2008 13:01:18

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 16            Collections and Refunds of Federal Revenue                                                                 Fiscal Year: 2008                   Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                 Agency Notes:         Notes 1, 21

  Status: Complete                                                                                I = Inactive Line


       Section: D             Section Name: PP Fed Tax Refunds Disbursed for the FY                                              Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB                   2007                       2006                           2005              Prior Years
 1              Individual income     Debit                    1,823                  235,151                         17,839                   6,242
                and tax
                withholdings
 2              Corporation income    Debit                    1,241                    8,122                          4,278                  14,509
                taxes
 3              Unemployment          Debit                           0                   75                             16                       36
                taxes
 4              Excise taxes          Debit                        416                   570                            253                    1,131
 5              Estate and gift       Debit                           0                  256                            490                      223
                taxes
 6              Railroad retirement   Debit                           0                       5                           1                           7
                taxes
 7              Federal Reserve       Debit
                earnings
 8              Fines, penalties,     Debit
                interest, and other
                revenue
 9              Customs duties        Debit
10              Total                 N/A                      3,480                  244,179                         22,877                  22,148
       Section: E             Section Name: Miscellaneous                                          No Data Flag: YES             Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB     2008 - SEPTEMBER            2007 - SEPTEMBER                Previously Rptd       Line Item Changes
 1              Portion due from      Debit
                identified non-
                compliance
                assessments
 2              Portion due from      Debit
                pre-assessment
                work in process




                                                                                                      - 46 -
                                                                                                                                                                                                      11/18/2008 13:01:18

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 16            Collections and Refunds of Federal Revenue                                                                           Fiscal Year: 2008                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                            Agency Notes:      Notes 1, 21

  Status: Complete                                                                                       I = Inactive Line


       Section: F             Section Name: Tax Gap                                                                                       Line Attributes: Dollars
                                                                                                                                        Rounding Method: Millions                           Decimal: Zero
Line Status Line Description          NB     CY Low end of range              CY High end of range           PY Low end of range        PY High end of range
 1              Tax gap estimate     Debit                             0                       345,000                              0                   345,000




Tab: Text Data
 Line                Question                                                                                                Answer
 1                   Disclose the basis of accounting related to Collections and Disbursements of Federal                    The Department's Statement of Custodial Activity is presented on a modified accrual
                     Revenue.                                                                                                basis of accounting. Revenues are recognized as cash is collected. The Balance
                                                                                                                             Sheet includes an estimated amount for taxes receivable and payable to the General
                                                                                                                             Fund of the United States Government (ref. PAR Note 1, M).
 2                   Provide a brief description of any other material types of revenue transactions that relate to          All material types of revenue are included in this note.
                     the custodial responsibility of the collecting entity (SFFAS No. 7, par. 65.2).
 3                   Are all trust fund revenues recorded in accordance with applicable law (SFFAS No. 7, par.               Trust fund revenues are recorded in accordance with applicable law.
                     66). If "no", provide the reasons.
 4                   Provide any other relevant information pertaining to this note.                                         None




                                                                                                              - 47 -
                                                                                                                                                                                      11/18/2008 13:01:18

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 17             Prior-Period Adjustments                                                                                       Fiscal Year: 2008          Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                     Agency Notes:   None

  Status: Complete                                                                                     I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Prior Period Adjustments                                   No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description            NB      2008 - SEPTEMBER
 1              Amounts that           Credit
                adjusted CY
                beginning net
                position - for
                change in
                accounting
                principles
 2              Amounts that           Credit
                adjusted CY
                beginning net
                position - for
                correction of errors
                in PP not restated
       Section: B              Section Name: Prior-Period Adjustments - Restatements                    No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description            NB           Credit Amount C               Debit Amount D
 1                                      N/A
 2                                      N/A
 3                                      N/A
 4                                      N/A
 5                                      N/A
 6                                      N/A
 7                                      N/A
 8                                      N/A
 9                                      N/A
10                                      N/A
Tab: Text Data                            No Data Flag: YES
 Line                 Question                                                                                             Answer
 1                    Describe the adjustments to beginning net position that resulted from changes in accounting
                      principles and all corrections of errors that were not restated.
 2                    Describe the corrections of error that were restated.
 3                    Describe any Federal prior-period adjustments.
 4                    Provide any other relevant information pertaining to this note.




                                                                                                           - 48 -
                                                                                                                                                                                 11/18/2008 13:01:18

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                   Fiscal Year: 2008            Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                            Agency Notes:     Note 16

  Status: Complete                                                                                I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Insurance Contingencies (Reasonably Possible Only)    No Data Flag: YES          Line Attributes: Dollars
                                                                                                                            Rounding Method: User-Defined               Decimal: User-Defined
Line Status Line Description           NB      2008 - SEPTEMBER            2007 - SEPTEMBER               Previously Rptd     Line Item Changes
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8                                   Credit
 9              Other insurance      Credit
                contingencies
10              Total                  N/A
       Section: B              Section Name: Insurance in force (Sum of Policy Face Value and      No Data Flag: YES          Line Attributes: Dollars
                                             Dividends Paid)                                                                Rounding Method: User-Defined               Decimal: User-Defined
Line Status Line Description           NB      2008 - SEPTEMBER            2007 - SEPTEMBER               Previously Rptd     Line Item Changes
 3                                   Credit
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8              Other insurance in   Credit
                force
 9              Total                  N/A
       Section: C              Section Name: Civil Litigation, Claims and Assessments              No Data Flag: YES          Line Attributes: Dollars
                                                                                                                            Rounding Method: User-Defined               Decimal: User-Defined
Line Status Line Description           NB      CYAccrued/Estimated     CY Estimated Range(Low          CY Estimated Range CY Claim amount(Unable       PYAccrued/Estimated PY Estimated Range(Low
                                                         amount                         end)                  (High end)      to determine loss)      amount rued/Estimated                 end)
                                                                                                                                                                  amount
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB       PY Estimated Range       PY Claim amunt (unable
                                                        (High end)               to determine)
 1              Probable              Credit
 2              Reasonably            Credit
                Possible


                                                                                                      - 49 -
                                                                                                                                                                                  11/18/2008 13:01:18

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                   Fiscal Year: 2008             Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                            Agency Notes:     Note 16

  Status: Complete                                                                               I = Inactive Line


       Section: D              Section Name: Environmental Litigation, Claims, and Assessments    No Data Flag: YES           Line Attributes: Dollars
                                                                                                                            Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description           NB      CYAccrued/Estimated          CY Estimated Range        CY Estimated Range   CY Claim amunt(unable       PY Accrued/Estimated     PY Estimated Range
                                                         amount                     (Low end)                (High end)            to determine)                  amount                (Low end)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB       PY Estimated Range     PY Claim amount (unable
                                                     (High Range)                to determine)
 1              Probable              Credit
 2              Reasonably            Credit
                Possible
       Section: E              Section Name: Other Contingencies                                  No Data Flag: YES           Line Attributes: Dollars
                                                                                                                            Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description           NB      2008 - SEPTEMBER           2007 - SEPTEMBER               Previously Rptd     Line Item Changes
 3                                   Credit
 4                                   Credit
 5                                   Credit
 6        I                          Credit
 7        I                          Credit




                                                                                                     - 50 -
                                                                                                                                                                                        11/18/2008 13:01:18

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

   Note: 18         Contingencies (SFFAS Nos. 5 and 12)                                                                       Fiscal Year: 2008                  Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                               Agency Notes:       Note 16

 Status: Complete                                                                       I = Inactive Line

Tab: Text Data
Line             Question                                                                                   Answer
1                Describe the risk insurance programs that are in force.                                    Temporary Guarantee Program Money Market Funds.
                                                                                                            The Treasury Department has established a Temporary Guarantee Program (Program)
                                                                                                            for Money Market Funds. Under this Program the Treasury Department will guarantee
                                                                                                            to investors that they will receive the stable share price (SSP) for shares held in
                                                                                                            participating money market funds as of the close of business on September 19, 2008.
                                                                                                            President George W. Bush approved the use of existing authorities by Secretary Henry
                                                                                                            M. Paulson, Jr. to make available, as necessary, the assets of the Exchange
                                                                                                            Stabilization Fund (ESF) to support the Program. If a participating fund¿s market-
                                                                                                            based net asset value (NAV) falls below 99.5 percent of the SSP and is not cured, a
                                                                                                            Guarantee Event will be deemed to occur. If outlays become necessary, they would be
                                                                                                            paid out initially from the ESF, and then under the provisions of Section 131 of the
                                                                                                            Emergency Economic Stabilization Act of 2008, such outlays would be reimbursed from
                                                                                                            funds available under the Troubled Assets Relief Program (Note 26). Treasury is not
                                                                                                            currently aware of any Guarantee Events which have occurred at funds that have been
                                                                                                            accepted into the Program.
                                                                                                            Eligible funds must be regulated under Rule 2a-7 of the Investment Company Act of
                                                                                                            1940, must maintain a SSP, must have had a market-based NAV of at least 99.5
                                                                                                            percent of the SSP as of September 19, 2008, and must be publicly offered and
                                                                                                            registered with the Securities and Exchange Commission. The Program will be in effect
                                                                                                            until December 18, 2008, with an option to extend until September 18, 2009, at the
                                                                                                            discretion of the Secretary of the Treasury.
                                                                                                            To participate in the Program, eligible money market funds must submit an application
                                                                                                            and pay a premium of 1 basis point if the fund¿s NAV is greater than or equal to 99.75
                                                                                                            percent of the SSP, or 1.5 basis points of the SSP if the fund¿s NAV is less than 99.75
                                                                                                            percent of the SSP but greater than or equal to 99.50 percent of the SSP. If the
                                                                                                            Program is extended beyond December 18, new premium charges will apply and funds
                                                                                                            will have the option to renew their coverage.
                                                                                                            As of September 30, 2008, the Department collected $39.7 million in program
                                                                                                            participation premiums. As of October 10, 2008, the Department collected an additional
                                                                                                            $298.1 million in premiums. These premiums represent the payments for the first three
                                                                                                            months of coverage which began September 19, 2008. All premium payments were
                                                                                                            invested into U.S. Government securities. Treasury received applications representing
                                                                                                            at least $3 trillion of assets under management before the application deadline. As
                                                                                                            Treasury is currently reviewing the applications and determining eligibility for inclusion
                                                                                                            in the Program, the final assets under management that will be covered by the Program
                                                                                                            has not been determined. In addition, program participation payments from funds that
                                                                                                            are not accepted into the Program will be returned. Of the total $337.8 million collected,
                                                                                                            $45.0 million was recognized as earned revenue, while $292.8 million remained as
                                                                                                            unearned revenue at September 30, 2008.
                                                                                                            The Department of the Treasury¿s exposure under the Program, when a guarantee
                                                                                                            event occurs, is the difference between the SSP and the NAV at liquidation of the
                                                                                                            money market fund. Given the regulatory restrictions on asset holdings of money
                                                                                                            market funds (both in terms of asset quality and maturity), only two funds have ever
                                                                                                            had NAV dropped below $1.00. and imposed losses on individual shareholders, with
                                                                                                            such losses being only a small fraction of NAV.



                                                                                            - 51 -
                                                                                                                                                                                                          11/18/2008 13:01:18

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                                      Fiscal Year: 2008                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                               Agency Notes:       Note 16

 Status: Complete                                                                                       I = Inactive Line

Tab: Text Data
Line               Question                                                                                                 Answer
                                                                                                                            For all of the reasons outlined above, based on current information and the Federal
                                                                                                                            programs in place, although it is difficult to exactly quantify, as this is a temporary
                                                                                                                            program dealing with issues of first impression, we believe the risk of loss to the
                                                                                                                            Treasury is negligible.

2                  Provide the nature of the isurance contingencies.                                                        See 1.
3                  Provide the nature of the litigation contingencies, including the range of loss for probable             The Department is a party in various administrative proceedings, legal actions, and
                   liabilities.                                                                                             claims including equal opportunity matters which may ultimately result in settlements or
                                                                                                                            decisions adverse to the Federal Government. These contingent liabilities arise in the
                                                                                                                            normal course of operations and their ultimate disposition is unknown. Treasury has
                                                                                                                            one contingent liability in FY 2008 related to the legal action taken on the case,
                                                                                                                            American Council of the Blind and Others, where losses are determined to be probable
                                                                                                                            and amounts can be estimated. The Department has disclosed contingent liabilities
                                                                                                                            where the conditions for liability recognition have not been met and the likelihood of
                                                                                                                            unfavorable outcome is more than remote. The Department does not accrue for
                                                                                                                            possible losses related to cases where the potential loss cannot be estimated or the
                                                                                                                            likelihood of an unfavorable outcome is less than probable.

                                                                                                                            In some cases, a portion of any loss that may occur may be paid by the Treasury's
                                                                                                                            Judgment Fund which is separate from the operating resources of the Department. For
                                                                                                                            those cases related to awards under federal anti-discrimination and whistleblower
                                                                                                                            protection acts, Treasury must reimburse the Judgment Fund from future
                                                                                                                            appropriations.

                                                                                                                            In the opinion of the Department's management and legal counsel, based on
                                                                                                                            information currently available, the expected outcome of legal actions, individually or in
                                                                                                                            the aggregate, will not have a materially adverse effect on the Department's financial
                                                                                                                            statements, except for the legal actions described below.

4                  Provide the nature of the litigation contingencies including the range of loss for reasonably            ¿ The American Council of the Blind and Others: Plaintiffs have filed suit against the
                   possible contingencies.                                                                                  Department under Section 504 of the Rehabilitation Act seeking the redesign of U.S.
                                                                                                                            currency. In 2006, a judge ruled that the current U.S. currency design violates this Act
                                                                                                                            and this ruling was appealed. In 2008, the United States Court of Appeals for the
                                                                                                                            District of Columbia Circuit affirmed this ruling. No monetary damages were awarded
                                                                                                                            by the Court. However, the Department is required to provide meaningful access to
                                                                                                                            United States currency for blind and other visually impaired persons. This may require
                                                                                                                            changes to U.S. currency (excluding the one-dollar note.) The Court ordered such
                                                                                                                            changes shall be completed, in connection with each denomination of currency, not
                                                                                                                            later than the date when a redesign is next approved by the Secretary of the Treasury.
                                                                                                                            Because the cost of these changes will be incorporated into future currency redesign
                                                                                                                            costs, no redesign costs have been accrued in the accompanying financial statements
                                                                                                                            as of September 30, 2008 and 2007.

                                                                                                                            The judge in the above mentioned case also has ordered that the parties confer and
                                                                                                                            attempt to negotiate attorney fees and costs to be awarded the plaintiffs. A preliminary


                                                                                                             - 52 -
                                                                                                                                                                                                          11/18/2008 13:01:18

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                                    Fiscal Year: 2008                    Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                             Agency Notes:        Note 16

 Status: Complete                                                                                     I = Inactive Line

Tab: Text Data
Line               Question                                                                                               Answer
                                                                                                                          attorney fee and cost estimate of $800,000 is included in other accrued liabilities.
                                                                                                                          However, updated information has changed this figure to a range of $900,000 to
                                                                                                                          $1,200,000.

                                                                                                                          ¿ Amidax Trading Group v. S.W.I.F.T. Allegations that S.W.I.F.T. unlawfully disclosed
                                                                                                                          information to the U.S. Government. We have no opinion as to the likelihood of an
                                                                                                                          unfavorable outcome or an estimate of potential loss at this time.

                                                                                                                          ¿ Cobell et al. v. Kempthorne et al. (formerly Cobell v. Norton): Native Americans
                                                                                                                          allege that the Department of Interior and the Department have breached trust
                                                                                                                          obligations with respect to the management of the plaintiffs' individual Indian monies.
                                                                                                                          On August 7, 2008, a Federal District Court issued an opinion awarding $455 million to
                                                                                                                          the plaintiffs. The opinion is not a final order, and an appeal is likely. The Department
                                                                                                                          of the Interior is also a defendant in this case and will also be reporting this case in their
                                                                                                                          financial statements.

                                                                                                                          ¿ Tribal Trust Fund Cases: Numerous cases have been filed in which Native American
                                                                                                                          Tribes seek a declaration that the U.S. has not provided the tribes with a full and
                                                                                                                          complete accounting of their trust funds, and seek an order requiring the government to
                                                                                                                          provide such an accounting. In addition, there are a number of other related cases for
                                                                                                                          damages which do not name the Department as a defendant. It is not possible at this
                                                                                                                          time to determine the likelihood of an unfavorable outcome or an estimate of the
                                                                                                                          amount or range of any potential loss. The Department of the Interior is also a
                                                                                                                          defendant in these cases and will also be reporting these cases in their financial
                                                                                                                          statements.

                                                                                                                          ¿ Other Legal Actions: The Department is also involved in employment related legal
                                                                                                                          actions (e.g., Discrimination, Equal Employment Opportunity Commission, Merit System
                                                                                                                          Protection Board, etc.) which were reported to have a ¿reasonably possible¿ chance of
                                                                                                                          being decided in the plaintiff¿s favor. However, an estimate of potential loss cannot be
                                                                                                                          determined at this time. It is not expected that these cases will have a material effect
                                                                                                                          on Treasury¿s financial position or results.

5                  Provide the total claim amount for cases assessed as "unable to determine" if significant.             There are also other legal actions pending where the ultimate resolution of the legal
                   Also, provide a statement on whether this materiality affects the financial statements.                actions, for which the possibility of loss could not be determined, may materially affect
                                                                                                                          Treasury's financial position or results. As of September 30, 2008, three legal claims
                                                                                                                          amounting to approximately $156.5 million existed for which the possibility of loss could
                                                                                                                          not be determined.
6                  Provide any other relevant information pertaining to this note.                                        Terrorism Risk Insurance Program: The Terrorism Risk Insurance Act (TRIA or the Act)
                                                                                                                          was signed into law on November 26, 2002. This law was enacted to address market
                                                                                                                          disruptions resulting from terrorist attacks on September 11, 2001. The act helps to
                                                                                                                          ensure available and affordable commercial property and casualty insurance for
                                                                                                                          terrorism risk, and simultaneously allows private markets to stabilize. The Terrorism
                                                                                                                          Risk Insurance Program is activated upon the certification of an "act of terrorism" by the
                                                                                                                          Secretary of the Treasury in concurrence with the Secretary of State and the Attorney


                                                                                                          - 53 -
                                                                                                                                                                       11/18/2008 13:01:18

                                                              U.S. Department of the Treasury
                                                               Financial Management Service
                                                          Governmentwide Financial Report System
                                                                  GF006 - FR Notes Report

   Note: 18         Contingencies (SFFAS Nos. 5 and 12)                                                      Fiscal Year: 2008                  Period: SEPTEMBER
  Entity: 2000      Department of the Treasury                                                               Agency Notes:       Note 16

 Status: Complete                                                      I = Inactive Line

Tab: Text Data
Line             Question                                                                  Answer
                                                                                           General. If a certified act of terrorism occurs, insurers may be eligible to receive
                                                                                           reimbursement from the Federal Government for insured losses above a designated
                                                                                           deductible amount. Insured losses above this amount will be shared between
                                                                                           insurance companies and the Federal Government. The Act also gives Treasury
                                                                                           authority to recoup federal payments made under the Program through policyholder
                                                                                           surcharges under certain circumstances and contains provisions designed to manage
                                                                                           litigation arising from or relating to a certified act of terrorism.
                                                                                           On December 26, 2007, the President signed into law the Terrorism Risk Insurance
                                                                                           Program Reauthorization Act of 2007 (Reauthorization Act) extending the Program
                                                                                           through December 31, 2014. The Reauthorization Act, among other Program changes,
                                                                                           revised the definition of "Act of Terrorism" to remove the certification requirement that
                                                                                           the act be committed by an individual acting on behalf of a foreign person or foreign
                                                                                           interest; revised the provisions of the Act with regard to the cap on annual liability for
                                                                                           insured losses of $100 billion; and established deadlines by which recoupment of
                                                                                           federal payments made under the Program would have to be accomplished.




                                                                           - 54 -
                                                                                                                                                                                               11/18/2008 13:01:18

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 19              Commitments                                                                                               Fiscal Year: 2008                  Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                Agency Notes:        Note 16, 20

  Status: Complete                                                                                   I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Capital leases-Asset                                                                 Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                              Decimal: Zero
Line Status Line Description           NB               CY Federal             CY Non-Federal                      PY Federal       PY Non-Federal
 1              Building              Debit
 2              Land                  Debit
 3              Equipment             Debit                                                    29                                                    25
 4              Software license      Debit
 5              Other                 Debit
 6        I                           Debit
 7        I                           Debit
 8        I                           Debit
 9        I                           Debit
10        I                           Debit
11              Accumulated           Credit                                                   20                                                    12
                depreciation/amorti
                zation
12              Net assets under       N/A                                                       9                                                   13
                capital leases
Threshold
 Line Description                                               Question                                                           Answer
 Other Notes Info - Equipment (CY Non-Federal)                  Please provide explanations for any amounts that have              Capital Leases are not significant to the Department of the Treasury.
                                                                changed by 10 percent or more between the
                                                                current fiscal year and prior fiscal year. (unaudited)
 Other Notes Info - Net assets under capital leases (CY         Please provide explanations for any amounts that have              The variance is not significant to the Department
 Non-Federal)                                                   changed by 10 percent or more between the
                                                                current fiscal year and prior fiscal year. (unaudited)
 Other Notes Info - Accumulated depreciation/amortization       Please provide explanations for any amounts that have              The variance is not significant to the Department
 (CY Non-Federal)                                               changed by 10 percent or more between the
                                                                current fiscal year and prior fiscal year. (unaudited)




                                                                                                         - 55 -
                                                                                                                                                                                               11/18/2008 13:01:18

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 19             Commitments                                                                                                 Fiscal Year: 2008                  Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                  Agency Notes:        Note 16, 20

  Status: Complete                                                                                     I = Inactive Line


       Section: B               Section Name: Capital leases - Liability                                                           Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                          Decimal: Zero
Line Status Line Description            NB              CY Federal               CY Non-Federal                     PY Federal       PY Non-Federal
 1              Future minimum         Credit                                                      3                                                   6
                lease programs
 2              Imputed interest       Debit                                                       0                                                   1
 3              Executory costs        Debit                                                       0                                                   2
                including any profit
 4              Total capital lease     N/A                                                      -3                                                   -3
                liability
Threshold
 Line Description                                                 Question                                                          Answer
 Other Notes Info - Future minimum lease programs (CY             Please provide explanations for any amounts that have             Capital leases are not significant to the Department. The Department
 Non-Federal)                                                     changed by 10 percent or more between                             doesn't have a note disclosure.
                                                                  current fiscal year and prior fiscal year. (unaudited)
       Section: C               Section Name: Commitments: Operating leases and undelivered                                        Line Attributes: Dollars
                                              orders                                                                             Rounding Method: Millions                          Decimal: Zero
Line Status Line Description            NB              CY Federal               CY Non-Federal                     PY Federal      PY Non-Federal
 1              Operating leases       Credit                         4                         224                        488                        54
 2            Undelivered orders Credit                          57,513                      57,088                        470                   55,834
Threshold
 Line Description                                                 Question                                                          Answer
 Other Notes Info - Undelivered orders (CY Federal)               Please provide explanations for any amounts that have             The change is not significant to the Treasury Department
                                                                  changed by 10% or more and or greater than $500,000
                                                                  between the current fiscal year and prior fiscal year.
                                                                  (unaudited)
 Other Notes Info - Operating leases (CY Non-Federal)             Please provide explanations for any amounts that have             The Department does not have a note disclosure in its PAR as the liability
                                                                  changed by 10% or more and or greater than $500,000               was considered to be immaterial Several bureaus did not complete the
                                                                  between the current fiscal year and prior fiscal year.            information for the CP. The amounts entered for FY 2008 are not reliable.
                                                                  (unaudited)
 Other Notes Info - Operating leases (CY Federal)                 Please provide explanations for any amounts that have             The Department does not have a note disclosure in its PAR as the liability
                                                                  changed by 10% or more and or greater than $500,000               was considered to be immaterial. Several bureaus did not complete the
                                                                  between the current fiscal year and prior fiscal year.            information for the CP. The amounts enterered for FY 2008 are not reliable
                                                                  (unaudited)




                                                                                                           - 56 -
                                                                                                                                                                         11/18/2008 13:01:18

                                                                       U.S. Department of the Treasury
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System
                                                                           GF006 - FR Notes Report

     Note: 19            Commitments                                                                                   Fiscal Year: 2008                Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                    Agency Notes:      Note 16, 20

  Status: Complete                                                                      I = Inactive Line


       Section: D             Section Name: Other Commitments                                                       Line Attributes: Dollars
                                                                                                                  Rounding Method: Millions                      Decimal: Zero
Line Status Line Description         NB               CY Federal   CY Non-Federal                    PY Federal      PY Non-Federal
 1              Callable capital    Credit                                   62,254                                              62,222
                subscriptions for
                multilateral
                development banks
 9              Senior GSE          Credit                                  200,000
                Preferred Stock
                Purchase
                Agreement
10              GSE Credit Facility Credit                                  200,000
11              Temporary           Credit                                          0
                Guarantee
                Program Money
                Market Funds
12                                  Credit
13                                  Credit
14        I                         Debit
15              Total                N/A                                   -462,254                                             -62,222




                                                                                            - 57 -
                                                                                                                                                                                                    11/18/2008 13:01:18

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

    Note: 19          Commitments                                                                                                          Fiscal Year: 2008                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                           Agency Notes:       Note 16, 20

 Status: Complete                                                                                    I = Inactive Line

Tab: Text Data
Line               Question                                                                                              Answer
1                  Describe the lessee's leasing arrangements including the basis on which contingent rental             The Department's significant leases are operating leases with GSA for office space
                   payments are determined, the existence and terms of renewal or purchase options,                      which can be cancelled upon notice
                   escalation clauses and restrictions imposed by lease agreement.
2                  Provide any other relevant information pertaining to this note. (Reference the Note in the            Our commitment notes 23, 24, 25 and 16 (MDBs) exceed the capacity of GFRs to
                   agency's Performance and Accountability Report.)                                                      accept text information. Please refer to the Department's PAR.

                                                                                                                         The Federal National Mortgage Association (Fannie Mae) and the Federal Home Loan
                                                                                                                         Mortgage Corporation (Freddie Mac) are stockholder-owned GSE. Congress
                                                                                                                         established these GSE to increase the supply of mortgage loans and to reduce the
                                                                                                                         accompanying costs. A key Fannie Mae and Freddie Mac responsibility is to package
                                                                                                                         purchased mortgages into securities. These securities are subsequently sold to
                                                                                                                         investors. Proceeds from Fannie Mae and Freddie Mac sales are used to buy
                                                                                                                         additional mortgages and keep money flowing through the mortgage markets. Fannie
                                                                                                                         Mae and Freddie Mac direct, guaranteed debt, and mortgage backed securities (MBS)
                                                                                                                         outstanding totaled approximately $5 trillion dollars at September 30, 2008.

                                                                                                                         Increasingly difficult conditions in the housing market challenged the soundness and
                                                                                                                         profitability of MBS, thereby undermining the entire housing market. This led Congress
                                                                                                                         to pass the Housing and Economic Recovery Act of 2008 in July 2008 (HERA). This
                                                                                                                         Act created the new Federal Housing Finance Agency (FHFA), with enhanced
                                                                                                                         regulatory authority over the GSE, and provided the Secretary of the Treasury with
                                                                                                                         certain authorities intended to ensure the financial stability of the GSE, if necessary.

                                                                                                                         Due to deteriorating conditions in the housing mortgage markets and the resulting
                                                                                                                         negative financial impact on the GSE, they were placed under FHFA conservatorship
                                                                                                                         on September 7, 2008. This action was taken to preserve GSE assets, ensure a sound
                                                                                                                         and solvent financial condition, and mitigate systemic risks that contributed to current
                                                                                                                         market instability. The FHFA director will terminate the conservatorship once safe and
                                                                                                                         solvent conditions are established.

                                                                                                                         Pursuant to the authorities provided to the Secretary under the HERA, the Treasury
                                                                                                                         Department, also on September 7, 2008, took three additional steps discussed below to
                                                                                                                         help ensure the liquidity of the GSE while they are working to resolve their financial
                                                                                                                         difficulties.




                                                                                                         - 58 -
                                                                                                                                                                                         11/18/2008 13:01:18

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 20        Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked                 Fiscal Year: 2008            Period: SEPTEMBER
                     Funds)
                                                                                                                                         Agency Notes:     None
     Entity: 2000    Department of the Treasury

  Status: Complete                                                                               I = Inactive Line

Tab: Other Notes Info.

       Section: A         Section Name: Assets - Current Year                                     No Data Flag: YES                  Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description     NB            Inv. in Fed debt            Fund balance with         Interest receivable D           Other Fed assets D      Non-Federal assets D             Total assets
                                            securities - net D                  Treasury D
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A



       Section: B         Section Name: Assets - Prior year                                       No Data Flag: YES                  Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description     NB     Inv. in Fed Debt Sec. -            Fund balance with         Interest receivable D        Other Federal assets D     Non-Federal assets D             Total assets
                                                         net D                  Treasury D
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A



       Section: C         Section Name: Liabilities - Current Year                                No Data Flag: YES                  Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description     NB           Liability due and            Other liabilities C                Total liabilities
                                                     payable to
                                              beneficiaries C
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A




                                                                                                     - 59 -
                                                                                                                                                                                          11/18/2008 13:01:18

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 20        Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked                  Fiscal Year: 2008             Period: SEPTEMBER
                     Funds)
                                                                                                                                         Agency Notes:    None
     Entity: 2000    Department of the Treasury

  Status: Complete                                                                               I = Inactive Line


       Section: D         Section Name: Liabilities - Prior Year                                  No Data Flag: YES                  Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description     NB            Liability due and           Other liabilities C                Total liabilities
                                                      payable to
                                               beneficiaries C
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A


       Section: E         Section Name: Current Year - Revenue, financing, expenses, and          No Data Flag: YES                  Line Attributes: Dollars
                                        other                                                                                      Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description     NB     Beginning net position           Exchange revenue -      Exchange revenue - with          Nonexchange revenue -      Nonexchange revenue -    Other financing sources
                                                             C                   Federal C                  the public C                     Federal C            with the public C                         C
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A

Line Status Line Description     NB      Other changes in fund         Program expenses D               Other expenses D            Ending Net Position
                                                   balance C
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A




                                                                                                     - 60 -
                                                                                                                                                                                                    11/18/2008 13:01:18

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 20           Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked                      Fiscal Year: 2008               Period: SEPTEMBER
                        Funds)
                                                                                                                                                Agency Notes:     None
     Entity: 2000       Department of the Treasury

  Status: Complete                                                                                        I = Inactive Line


       Section: F            Section Name: Prior Year - Revenue, financing, expenses, and                   No Data Flag: YES                Line Attributes: Dollars
                                           other                                                                                           Rounding Method: User-Defined                   Decimal: User-Defined
Line Status Line Description         NB      Beginning net position              Exchange revenue -        Exchange revenue - with        Nonexchange revenue -     Nonexchange revenue -       Other financing sources
                                                                  C                      Federal C                    the public C                   Federal C           with the public C                            C
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A

Line Status Line Description         NB       Other changes in fund            Program expenses D                    Other expenses D       Ending net position
                                                        balance C
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A
       Section: G            Section Name: Other                                                            No Data Flag: YES                Line Attributes: Dollars
                                                                                                                                           Rounding Method: User-Defined                   Decimal: User-Defined
Line Status Line Description         NB           CY - Revenues C                CY - Other financing                      CY - Costs D        PY - Revenues C           PY - Other financing            PY - Costs D
                                                                                          sources C                                                                               sources C
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A


Tab: Text Data                         No Data Flag: YES
 Line               Question                                                                                                     Answer
 1                  State the legal authority for the administrative entity of each fund to use the collections
                    based on SFFAS No. 7, par. 85.
 2                  Provide any other relevant information pertaining to this note.




                                                                                                                  - 61 -
                                                                                                                                                                             11/18/2008 13:01:18

                                                                          U.S. Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System
                                                                              GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                    Fiscal Year: 2008               Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                         Agency Notes:      Notes 22, 15, and 8

  Status: Complete                                                                        I = Inactive Line

Tab: Other Notes Info.

      Section: A               Section Name: Assets - Current Year                                                       Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                     Decimal: Zero
Line Status Line Description          NB          Cash and other      Fund balance with          Inv in U. S. Treas.   Interest Receivable D Other Federal assets (with     Other Federal assets
                                               monetary assets D           Treasury D      Sec.(net of prem. & disc)                              earmarked funds) D       (with non-earmarked
                                                                                                                  D                                                                   funds) D
13              Exchange              N/A                    22,149                  33                       16,847                     126
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                        15                693                         5,665                      37                                                 12
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                    22,164                726                        22,512                     163                                                 12

Line Status Line Description          NB        Other non-Federal         Total assets
                                                        assets D
13              Exchange              N/A                    10,787              49,942
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                     1,424               7,846
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                    12,211              57,788




                                                                                              - 62 -
                                                                                                                                                                                11/18/2008 13:01:18

                                                                            U.S. Department of the Treasury
                                                                             Financial Management Service
                                                                        Governmentwide Financial Report System
                                                                                GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                       Fiscal Year: 2008               Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                            Agency Notes:      Notes 22, 15, and 8

  Status: Complete                                                                          I = Inactive Line


      Section: B               Section Name: Assets - Prior Year                                                            Line Attributes: Dollars
                                                                                                                          Rounding Method: Millions                     Decimal: Zero
Line Status Line Description          NB          Cash and other        Fund balance with      Inv. in U.S. Treas. Sec.   Interest Receivable D Other Federal assets (with     Other Federal assets
                                               monetary assets D             Treasury D      (net of prem. & disc.) D                                earmarked funds) D       (with non-earmarked
                                                                                                                                                                                         funds) D
13              Exchange              N/A                     21,345                                            16,436                      125
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                          28                704                         5,422                       39                                                 19
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                     21,373                 704                        21,858                      164                                                 19

Line Status Line Description          NB        Other non-Federal           Total assets
                                                        assets D
13              Exchange              N/A                     10,018               47,924
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                      1,376                7,588
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                     11,394               55,512




                                                                                                - 63 -
                                                                                                                                                                                                     11/18/2008 13:01:18

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                   Fiscal Year: 2008                Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                        Agency Notes:       Notes 22, 15, and 8

  Status: Complete                                                                                     I = Inactive Line


      Section: C               Section Name: Liabilities and Net Position - Current Year                                                Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                              Decimal: Zero
Line Status Line Description          NB           Benefits due and          Other Federal liabilities Other Fed. liabilities (with      Other non-Federal               Total liabilities        Ending net position C
                                                        payable C            (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                     C
13              Exchange              N/A                                0                         0                            0                    10,160                       -10,160                        39,782
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                                0                         3                          183                     9,657                          -9,843                      -1,997
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                                0                        -3                         -183                   -19,817                       -20,003                      -37,785

Line Status Line Description          NB     Total liabilities and net
                                                            position
13              Exchange              N/A                      -49,942
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                       -7,846
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                      -57,788




                                                                                                            - 64 -
                                                                                                                                                                                                    11/18/2008 13:01:18

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                  Fiscal Year: 2008                Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                       Agency Notes:       Notes 22, 15, and 8

  Status: Complete                                                                                    I = Inactive Line


      Section: D               Section Name: Liabilities and Net Position - Priort Year                                                Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                              Decimal: Zero
Line Status Line Description          NB            Benefits due and        Other Federal liabilities Other Fed. liabilities (with      Other non-Federal               Total liabilities        Ending net position C
                                                         payable C          (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                    C
13              Exchange              N/A                                                                                                            9,878                          -9,878                      38,046
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                                                         3                          219                     9,827                       -10,049                        -2,461
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                                                        -3                         -219                   -19,705                       -19,927                      -35,585

Line Status Line Description          NB      Total liabilities and net
                                                             position
13              Exchange              N/A                       -47,924
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                        -7,588
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                       -55,512




                                                                                                           - 65 -
                                                                                                                                                                                         11/18/2008 13:01:18

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                             Fiscal Year: 2008               Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                  Agency Notes:      Notes 22, 15, and 8

  Status: Complete                                                                               I = Inactive Line


      Section: E               Section Name: Revenue, Financing, Expenses, and Other - Current                                   Line Attributes: Dollars
                                             Year                                                                              Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB             Net position,     Prior-period adjustment      Investment revenue C      Individual income taxes Unemployment and excise       Other taxes and receipts
                                            beginning of period C                            C                                and payroll tax withhold               taxes C                              C
                                                                                                                                                    C
13              Exchange              N/A                     38,046                                                  1,408
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                     -2,462                                                   210                                                                              923
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                    -35,584                                                 -1,618                                                                           -923

Line Status Line Description          NB     Miscellaneous earned            Intragovernmental Program net cost - public           Program net cost -       Non-program expenses        Net position, end of
                                                       revenue C               transfers, net C                        D        Intragovernmental D                            D                    period
13              Exchange              N/A                                                                             -328                                                                          -39,782
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                                                                               232                                                   435                     1,996
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                                                                               -96                                                   435                   -37,786




                                                                                                     - 66 -
                                                                                                                                                                                         11/18/2008 13:01:18

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                              Fiscal Year: 2008               Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                   Agency Notes:      Notes 22, 15, and 8

  Status: Complete                                                                                I = Inactive Line


      Section: F               Section Name: Revenue, Financing, Expenses, and Other - Prior                                      Line Attributes: Dollars
                                             Year                                                                               Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB             Net position,      Prior-period adjustment      Investment revenue C      Individual income taxes Unemployment and excise      Other taxes and receipts
                                            beginning of period C                             C                                and payroll tax withhold               taxes C                             C
                                                                                                                                                     C
13              Exchange              N/A                     34,885                                                   1,706
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                     -3,071                                                    237                                                                           1,822
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                    -31,814                                                  -1,943                                                                         -1,822

Line Status Line Description          NB     Miscellaneous earned             Intragovernmental Program net cost - public           Program net cost -       Non-program expenses       Net position, end of
                                                       revenue C                transfers, net C                        D        Intragovernmental D                            D                   period
13              Exchange              N/A                                                                             -1,455                                                                        -38,046
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                     -1,214                                                     235                                                                          2,461
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                      1,214                                                  -1,220                                                                        -35,585




                                                                                                      - 67 -
                                                                                                                                                                                        11/18/2008 13:01:18

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                          Fiscal Year: 2008                Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                               Agency Notes:      Notes 22, 15, and 8

  Status: Complete                                                                               I = Inactive Line


       Section: G              Section Name: Number of Agency Earmarked Funds                                                  Line Attributes: Units


Line Status Line Description          NB     2008 - SEPTEMBER             2007 - SEPTEMBER               Previously Rptd      Line Item Changes
 1              Total number of       N/A                    32.0000                   31.0000                                             31.0000
                earmarked funds
Line Status Line Description          NB                                                                                     2008 - SEPTEMBER             2007 - SEPTEMBER
 1              Total number of       N/A                                                                                                  32.0000                     31.0000
                earmarked funds




       Section: H              Section Name: Revenue, Financing, Expenses, and Other - Current    No Data Flag: YES            Line Attributes: Dollars
                                             Year                                                                            Rounding Method: User-Defined                    Decimal: User-Defined
Line Status Line Description          NB             Net position,       Investment revenue C      Individual income taxes     Unemployment and         Other taxes and receipts         Intragov. transfers
                                            beginning of period C                                                        C        excise taxes C                              C    to/from earmarked funds
                                                                                                                                                                                                           C
13        I     Exchange              N/A
                Stabilization Fund
18        I                           N/A
19        I                           N/A
20        I                           N/A
21        I                           N/A
22        I                           N/A
23        I     All other earmarked   N/A
                funds
24        I     Total                 N/A




                                                                                                     - 68 -
                                                                                                                                                                                       11/18/2008 13:01:18

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                           Fiscal Year: 2008              Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                Agency Notes:     Notes 22, 15, and 8

  Status: Complete                                                                               I = Inactive Line


      Section: H               Section Name: Revenue, Financing, Expenses, and Other - Current    No Data Flag: YES              Line Attributes: Dollars
                                             Year                                                                             Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description          NB         Intragov. transfers       Program net cost or    Intragov. prog. net cost- Intragov. prog. net cost-     Non-program expenses       Net position, end of
                                                       to/from non-    benefit payments-public    with earmarked funds D         with non-earmarked                          D                   period
                                               earmarked funds C                             D                                              funds D
13       I      Exchange              N/A
                Stabilization Fund
18       I                            N/A
19       I                            N/A
20       I                            N/A
21       I                            N/A
22       I                            N/A
23       I      All other earmarked   N/A
                funds
24       I      Total                 N/A
      Section: I               Section Name: Revenue, Financing, Expenses, and Other - Prior      No Data Flag: YES             Line Attributes: Dollars
                                             Year                                                                             Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description          NB             Net position,       Investment revenue C      Individual income taxes      Unemployment and       Other taxes and receipts         Intragov. transfers
                                            beginning of period C                                                        C         excise taxes C                            C    to/from earmarked funds
                                                                                                                                                                                                          C
13      I       Exchange              N/A
                Stabilization Fund
18      I                             N/A
19      I                             N/A
20      I                             N/A
21      I                             N/A
22      I                             N/A
23      I       All other earmarked   N/A
                funds
24      I       Total                 N/A




                                                                                                     - 69 -
                                                                                                                                                                                       11/18/2008 13:01:18

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                           Fiscal Year: 2008              Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                Agency Notes:     Notes 22, 15, and 8

  Status: Complete                                                                               I = Inactive Line


      Section: I               Section Name: Revenue, Financing, Expenses, and Other - Prior      No Data Flag: YES               Line Attributes: Dollars
                                             Year                                                                              Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description          NB         Intragov. transfers       Program net cost or   Intragov. prog. net cost - Intragov. prog. net cost -     Non-program expenses       Net position, end of
                                                       to/from non-    benefit payments-public   with earmarked funds D non-earmarked funds D                                 D                   period
                                               earmarked funds C                             D
13       I      Exchange              N/A
                Stabilization Fund
18       I                            N/A
19       I                            N/A
20       I                            N/A
21       I                            N/A
22       I                            N/A
23       I      All other earmarked   N/A
                funds
24       I      Total                 N/A




                                                                                                     - 70 -
                                                                                                                                                                                                  11/18/2008 13:01:18

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

   Note: 22         Earmarked Funds                                                                                                     Fiscal Year: 2008                  Period: SEPTEMBER
  Entity: 2000      Department of the Treasury                                                                                          Agency Notes:       Notes 22, 15, and 8

 Status: Complete                                                                                 I = Inactive Line

Tab: Text Data
Line             Question                                                                                             Answer
1                Provide a general description of the individual earmarked funds reported in the Other Notes          Earmarked funds are financed by specifically identified revenues, often supplemented
                 Info tab (SFFAS No. 27, par. 33). Also describe how the entity accounts for and reports the          by other financing sources, which remain available over time. These specifically
                 fund (SFFAS No. 27, par. 23.1).                                                                      identified revenues and other financing sources are required by statute to be used for
                                                                                                                      designated activities or purposes. SFFAS No. 27, ¿Identifying and Reporting
                                                                                                                      Earmarked Funds,¿ issued by the FASAB defines the following three criteria for
                                                                                                                      determining an earmarked fund: 1) A statute committing the Federal Government to use
                                                                                                                      specifically identified revenues and other financing sources only for designated
                                                                                                                      activities, benefits or purposes; 2) Explicit authority for the earmarked fund to retain
                                                                                                                      revenues and other financing sources not used in the current period for future use to
                                                                                                                      finance the designated activities, benefits, or purposes; and 3) A requirement to
                                                                                                                      account for and report on the receipt, use, and retention of the revenues and other
                                                                                                                      financing sources that distinguishes the earmarked fund from the government¿s
                                                                                                                      general revenues.

                                                                                                                      The majority of Treasury¿s earmarked fund activities are attributed to the ESF and the
                                                                                                                      pension and retirement funds managed by the Office of DCP. In addition, several
                                                                                                                      Treasury bureaus operate with ¿public enterprise revolving funds¿ and receive no
                                                                                                                      appropriations from the Congress. These bureaus are BEP, U.S. Mint, OCC, and OTS.
                                                                                                                       Other miscellaneous earmarked funds are managed by BPD, DO, FMS, and TFF.

                                                                                                                      The following is a list of earmarked funds and a brief description of the purpose,
                                                                                                                      accounting, and uses of these funds.

                                                                                                                      Exchange Stabilization Fund (ESF)
                                                                                                                      ESF 20X4444 Exchange Stabilization Fund

                                                                                                                      D.C. Pensions
                                                                                                                      DCP 20X1713 Federal payment ¿ D.C. Judicial Retirement
                                                                                                                      DCP 20X1714 Federal payment ¿ D.C. Federal Pension Fund
                                                                                                                      DCP 20X5511 D.C. Federal Pension Fund
                                                                                                                      DCP 20X8212 D.C. Judicial Retirement and Survivor¿s Annuity Fund

                                                                                                                      Public Enterprise Revolving Funds
                                                                                                                      BEP 20X4502 Bureau of Engraving and Printing Public Enterprise Fund
                                                                                                                      MNT 20X4159 Public Enterprise Revolving Fund
                                                                                                                      OCC 20X8413 Assessment Funds
                                                                                                                      OTS 20X4108 Public Enterprise Revolving Fund
                                                                                                                      IRS 20X4413 Federal Tax Lien Revolving Fund

                                                                                                                      Other Earmarked Funds
                                                                                                                      BPD 2061738 Payments to the Terrestrial Wildlife Habitat Restoration
                                                                                                                      BPD 2071738 Payments to the Terrestrial Wildlife Habitat Restoration
                                                                                                                      BPD 2081738 Payments to the Terrestrial Wildlife Habitat Restoration
                                                                                                                      BPD 20X5080 Gifts to Reduce Public Debt
                                                                                                                      BPD 20X5080.001 Receipt of Gifts to Reduce Public Debt



                                                                                                       - 71 -
                                                                                                                                                                                                     11/18/2008 13:01:18

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 22          Earmarked Funds                                                                                                        Fiscal Year: 2008                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                             Agency Notes:      Notes 22, 15, and 8

 Status: Complete                                                                                      I = Inactive Line

Tab: Text Data
Line               Question                                                                                                Answer
                                                                                                                           BPD 20X8207 Lower Brule Sioux Tribe Terrestrial Wildlife Habitat Restoration Trust
                                                                                                                           Fund
                                                                                                                           BPD 20X8209 Cheyenne River Sioux Terrestrial Wildlife Habitat Restoration Trust Fund
                                                                                                                           DO 20X5407 Sallie Mae Assessments
                                                                                                                           DO 20X5816 Confiscated and Vested Iraqi Property and Assets
                                                                                                                           DO 20X8790 Gifts and Bequests Trust Fund
                                                                                                                           FMS 205445 Debt Collection
                                                                                                                           FMS 20X5081 Presidential Election Campaign
                                                                                                                           FMS 20X8902 Esther Cattell Schmitt Gift Fund
                                                                                                                           FMS 202/35445 Debt Collection Special Fund
                                                                                                                           FMS 203/45445 Debt Collection Special Fund
                                                                                                                           FMS 204/55445 Debt Collection Special Fund
                                                                                                                           FMS 205/65445 Debt Collection Special Fund
                                                                                                                           FMS 206/75445 Debt Collection Special Fund
                                                                                                                           FMS 207/85445 Debt Collection Special Fund
                                                                                                                           FMS 208/95445 Debt Collection Special Fund
                                                                                                                           IRS 20X5510 Private Collection Agent Program
                                                                                                                           TFF 20X5697 Treasury Forfeiture Fund


2                  State the legal authority for the administrative entity of each fund to use the revenues and            The ESF uses funds to purchase or sell foreign currencies, to hold U.S. foreign
                   other financing sources based on SFFAS No. 27, par. 23.1                                                exchange and SDR assets, and to provide financing to foreign governments. ESF
                                                                                                                           accounts and reports its holdings to FMS on the SF224, ¿Statement of Transactions,¿
                                                                                                                           as well as to the Congress and Treasury¿s policy office. The Gold Reserve Act of
                                                                                                                           1934, Bretton Woods Agreement Act of 1945, P.L. 95-147 and P.L. 94-564 established
                                                                                                                           and authorized the use of the Fund. SDR in the IMF, Investments in U.S. Securities
                                                                                                                           (BPD), and Investments in Foreign Currency Denominated assets are the sources of
                                                                                                                           revenues or other financing sources. ESF¿s earnings and realized gains on foreign
                                                                                                                           currency denominated assets represent inflows of resources to the government, and
                                                                                                                           the revenues earned are the result of intra-governmental inflows.

                                                                                                                           D.C. Pension Funds provide annuity payments for retired D.C. teachers, police officers,
                                                                                                                           judges, and firefighters. The sources of revenues are through annual appropriations,
                                                                                                                           employees¿ contributions, and interest earnings from investments. All proceeds are
                                                                                                                           earmarked. Note 15 provides detailed information on various funds managed by the
                                                                                                                           Office of DCP.

                                                                                                                           Treasury¿s four non-appropriated bureaus, BEP, Mint, OCC, and OTS, operate
                                                                                                                           ¿public enterprise funds¿ that account for the revenue and expenses related to the
                                                                                                                           production and sale of numismatic products and circulating bureaus coinage (Mint), the
                                                                                                                           currency printing activities (BEP), and support of oversight functions of banking (OCC)
                                                                                                                           and thrift operations (OTS). 31 USC 142 established the revolving fund for BEP to
                                                                                                                           account for revenue and expenses related to the currency printing activities. Public
                                                                                                                           Law 104-52 (31 USC §5136) established the Public Enterprise Fund for the Mint to
                                                                                                                           account for all revenue and expenses related to the production and sale of numismatic


                                                                                                            - 72 -
                                                                                                                                                                                                      11/18/2008 13:01:18

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 22          Earmarked Funds                                                                                                         Fiscal Year: 2008                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                              Agency Notes:      Notes 22, 15, and 8

 Status: Complete                                                                                       I = Inactive Line

Tab: Text Data
Line               Question                                                                                                 Answer
                                                                                                                            products and circulating coinage. Revenues and other financing sources at the Mint
                                                                                                                            are mainly from the sale of numismatic and bullion coins, and the sale of circulating
                                                                                                                            coins to the Federal Reserve Banks system. 12 USC 481 established the Assessment
                                                                                                                            Funds for OCC, and 103 Stat. 278 established the Public Enterprise Revolving Fund for
                                                                                                                            OTS. Revenue and financing sources are from the bank examination and assessments
                                                                                                                            for the oversight of the national banks, savings associations, and savings and loan
                                                                                                                            holding companies. These earmarked funds do not directly contribute to the inflows of
                                                                                                                            resources to the government; however, revenues in excess of costs are returned to the
                                                                                                                            General Fund of the U.S. Government. There are minimal transactions with other
                                                                                                                            government agencies.

                                                                                                                            There are other earmarked funds at several Treasury bureaus, such as donations to the
                                                                                                                            Presidential Election Campaign Fund, funds related to the debt collection program, gifts
                                                                                                                            to reduce the public debt, and other enforcement related activities. Public laws,
                                                                                                                            statutory laws, U.S. Code, and the Debt Collection Improvement Act established and
                                                                                                                            authorized the use of these funds. Sources of revenues and other financing sources
                                                                                                                            include contributions, cash and property forfeited in enforcement activities, public
                                                                                                                            donations, and debt collection.

3                  Explain any changes in legislation during or subsequent to the reporting period and before               The Treasury Department established a Temporary Guarantee Program for Money
                   the issuance of the financial statements that significantly changes the purpose of the fund or           Market Funds, under the Exchange Stabilization Fund. President Bush approved the
                   that redirects a material portion of the accumulated balance (SFFAS No. 27, par. 23.3).                  use of ESF to support the program by approving the use of the existing authorities of
                                                                                                                            the Secretary of the Treasury.
4                  Provide the sources of revenue and other financing for amounts reported in columns 3                     See 2 above
                   through 8 of Sections E and F in the Other Notes Info tab (SFFAS No. 27, par. 23.2).
5                  Provide any other relevant information pertaining to this note, including explanation for prior-         None
                   period adjustments, if any.




                                                                                                             - 73 -
                                                                                                                                                                    11/18/2008 13:01:18

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

   Note: 23         Statement of Social Insurance (a Principal Financial Statement)                                          Fiscal Year: 2008      Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                              Agency Notes:   None

 Status: Complete                                                                               I = Inactive Line

Tab: Text Data                      No Data Flag: YES
Line             Question                                                                                           Answer
7                Provide any other relevant information pertaining to this note.




                                                                                                    - 74 -
                                                                                                                                11/18/2008 13:01:18

                                                    U.S. Department of the Treasury
                                                     Financial Management Service
                                                Governmentwide Financial Report System
                                                        GF006 - FR Notes Report

 Note: 24          Social Insurance                                                      Fiscal Year: 2008      Period: SEPTEMBER
Entity: 2000       Department of the Treasury                                            Agency Notes:   None

Status: Complete                                             I = Inactive Line




                                                                 - 75 -
                                                                                                                                                                         11/18/2008 13:01:18

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

    Note: 25          Stewardship Land                                                                                            Fiscal Year: 2008      Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                  Agency Notes:   None

 Status: Complete                                                                                    I = Inactive Line

Tab: Text Data                       No Data Flag: YES
Line               Question                                                                                              Answer
1                  Provide a brief statement explainng how the stewardship land relates to the mission of the
                   agency.
2                  Provide a brief description of the agency's stewardship policies for stewardsip land.
3                  Provide any other information relevant information pertaining to this note.




                                                                                                         - 76 -
                                                                                                                                                                                              11/18/2008 13:01:18

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 26          Heritage Assets                                                                                                     Fiscal Year: 2008              Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                          Agency Notes:     Note 12

 Status: Complete                                                                                     I = Inactive Line

Tab: Text Data
Line               Question                                                                                               Answer
1                  Provide a brief statement explaining how heritage assets relate to the mission of the agency.          The Treasury Department Complex (Main Treasury Building and Annex) was declared
                                                                                                                          a national historical landmark in 1972. It is a ulti-use heritage asset.
2                  Provide a brief description of the agency's stewardship policies for each major category of            The Treasury Department Complex is expected to be maintained indefinately.
                   the heritage assets.
3                  Provide any other relevant information pertaining to this note.                                        None




                                                                                                          - 77 -
                          U.S. Department of the Treasury
                    Government-wide Financial Reporting System
             Additional Note to the Special-Purpose Financial Statements
                     Entity – 2000 Department of the Treasury


Additional Note 27 – Summary of Significant Accounting Policies (any note
references included in the accounting policies below can be found in the audited
consolidated financial statements)

A. Basis of Presentation

The Budget and Accounting Procedures Act of 1950 allows the Secretary of the Treasury to
stipulate the format and requirements of executive agencies to furnish financial and operational
information to the President and Congress to comply with Government Management Reform Act
of 1994 (GMRA) (Pub. L. No. 103-356), which requires the Secretary of the Treasury to prepare
and submit annual audited financial statements of the executive branch. The Secretary of the
Treasury developed guidance in the U.S Department of Treasury’s Financial Manual (TFM)
Volume 1, Part 2, Chapter 4700 to provide agencies with instructions to meet the requirements of
GMRA. The TFM Chapter 4700 requires agencies to:
   1.   Reclassify all items and amounts on the audited consolidated, department-level balance
        sheet, statements of net cost, changes in net position/income statement, and statement or
        note on custodial activity, if applicable, to the special-purpose financial statements.
   2. Disclose special-purpose financial statement line item amounts identified as Federal by
      trading partner and amount (amounts should be net of intra-bureau and intra-
      departmental eliminations).
   3. Disclose notes required by the special-purpose financial statement line items and other
      notes required in the Financial Report of the U.S. Government (FR); and
   4. Disclose other data not contained in the primary FR financial statements and notes
      required to meet requirement of U.S. generally accepted accounting principles
The TFM Chapter 4700 requires agencies to use the Governmentwide Financial Report System to
input the above information. For purposes of the Special-purpose financial statements, Closing
Package is comprised of the following GFRS reports:
   1.   Closing Package Financial Statement Report (GF003F)
   2. Trading Partner Summary Note Report (GF004F)
   3. Closing Package Line Reclassification Summary Report (GF003G)
   4. FR Notes Report (GF006)
   5. Other Data Report (GF007)

The generic format for the special-purpose financial statements is based on the U.S. Standard
General Ledger (USSGL) crosswalk to the FR financial statements and notes. In May 2008,
Treasury issued TFM Transmittal Letter No. 644 effective for fiscal year 2008 that revised the
mapping of certain USSGL accounts to the special-purpose financial statements and resulted in
agencies reclassifying the accompanying fiscal year 2007 special-purpose financial statements to
conform with the fiscal year 2008 presentation. Therefore, certain amounts in the fiscal year
2007 columns on the accompanying special-purpose financial statements differ from the amounts
in the columns labeled previously reported.
B. Reporting Entity

The accompanying financial statements include the operations of the U.S. Department of the
Treasury (Treasury Department), one of 24 CFO Act agencies of the Executive Branch of the
United States Government, and certain custodial activities managed on behalf of the entire U.S.
Government. The following paragraphs describe the activities of the reporting entity.

The Treasury Department was created by Act (1 Stat.65) on September 2, 1789. Many subsequent
acts affected the development of the Treasury Department, delegating new duties to its charge
and establishing the numerous bureaus and divisions that now comprise the Treasury
Department. As a major policy advisor to the President, the Secretary has primary responsibility
for formulating and managing the domestic and international tax and financial policies of the U.S.
Government.

Further, the Secretary is responsible for recommending and implementing United States
domestic and international economic and fiscal policy; governing the fiscal operations of the
government; maintaining foreign assets control; managing the federal debt; collecting income
and excise taxes; representing the United States on international monetary, trade, and investment
issues; overseeing Departmental overseas operations; and directing the manufacturing of coins,
currency, and other products for customer agencies and the public.

In September 2008, the Treasury Department began a number of emergency economic measures
relating to the economy which involved various financing programs. Key initiatives effective for
fiscal year 2008 involved programs concerning two Government Sponsored Enterprises (GSE),
provision of a credit facility for GSEs and Federal Home Loan Banks, purchase of Mortgage
Backed Securities, and setup of a Money Market Insurance Program (see Notes 24 and 25).

The Treasury Department includes the Departmental Offices (DO) and nine operating bureaus.
For financial reporting purposes, DO is comprised of: International Assistance Programs (IAP),
Office of Inspector General (OIG), Treasury Forfeiture Fund (TFF), Exchange Stabilization Fund
(ESF), Community Development Financial Institutions Fund (CDFI), Office of D.C. Pensions
(DCP), Treasury Inspector General for Tax Administration (TIGTA), Federal Financing Bank
(FFB), and the DO policy offices. In addition, the Air Transportation Stabilization Board (ATSB)
was also part of the DO reporting entity for the year ended September 30, 2007. The ATSB was
set up to administer the temporary emergency program to assist air carriers that were in need of
funds as a result of the terrorist attacks on the United States that occurred on September 11, 2001.
 The ATSB program was terminated at September 30, 2007. To close out its remaining budgetary
resources during FY 2008, ATSB returned $3.5M of unexpended appropriations to the General
Fund of the United States. In fiscal year 2008 the management of the Treasury Franchise Fund
was transferred from the Departmental Offices (DO) to the Bureau of Public Debt (BPD).

The nine operating bureaus are: Office of the Comptroller of the Currency (OCC); Bureau of
Engraving and Printing (BEP); Financial Crimes Enforcement Network (FinCEN); Financial
Management Service (FMS); Internal Revenue Service (IRS); U.S. Mint (Mint); Bureau of the
Public Debt (BPD); Office of Thrift Supervision (OTS); and the Alcohol and Tobacco Tax and
Trade Bureau (TTB).

The Treasury Department’s financial statements reflect the reporting of its own entity activities,
which include appropriations it receives to conduct its operations and revenue generated from
those operations. They also reflect the reporting of certain non-entity (custodial) functions it
performs on behalf of the U.S. Government and others. Non-entity activities include collecting of
federal revenue, servicing the federal debt, disbursing certain federal funds, and maintaining
certain assets and liabilities for the U.S. Government, as well as for others. The Treasury
Department’s reporting entity does not include the “General Fund” of the U.S. Government,
which maintains receipt, disbursement, and appropriation accounts for all federal agencies.




                                                 2
Transactions and balances among the Treasury Department’s entities have been eliminated from
the Consolidated Balance Sheets, the Consolidated Statements of Net Cost, and the Consolidated
Statements of Changes in Net Position.

C. Basis of Accounting and Presentation

The financial statements have been prepared from the accounting records of the Treasury
Department in conformity with accounting principles generally accepted in the United States for
federal entities, and the Office of Management and Budget (OMB) Circular A-136, “Financial
Reporting Requirements,” as amended. Accounting principles generally accepted for federal
entities are the standards prescribed by the Federal Accounting Standards Advisory Board
(FASAB). FASAB is recognized by the American Institute of Certified Public Accountants as the
official accounting standards-setting body of the U.S. Government.

These financial statements are provided to meet the requirements of the Government
Management Reform Act of 1994. They consist of the Consolidated Balance Sheets, the
Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in Net
Position, the Combined Statements of Budgetary Resources, and the Statements of Custodial
Activity. The statements and the related notes are prepared in a comparative form to present
both fiscal year 2008 and fiscal year 2007 information.

While these financial statements have been prepared from the books and records of the Treasury
Department in accordance with the formats prescribed by OMB, these financial statements are in
addition to the financial reports used to monitor and control budgetary resources which are
prepared from the same books and records.

Throughout these financial statements, intra-governmental assets, liabilities, earned revenues,
and costs have been classified according to the entity for these transactions. Intra-governmental
assets and liabilities are those from or to other federal entities. Intra-governmental earned
revenues are collections or accruals of revenue from other federal entities, and intra-
governmental costs are payments or accruals of expenditure to other federal entities.

The financial statements should be read with the realization that they are for a component of a
sovereign entity, that liabilities not covered by budgetary resources cannot be liquidated without the
enactment of an appropriation, and that the payment of all liabilities other than for contracts can be
abrogated by the sovereign entity.

D. Tax and Other Non-Entity Receivables

Tax receivables are not accrued until related tax returns are filed or assessments are made.
Prepayments of taxes are netted against liabilities. Accruals are made to reflect penalties and
interest on tax receivables through the balance sheet date. Tax receivables consist of unpaid
assessments (taxes and associated penalties and interest) due from taxpayers for which the
Treasury Department can support the existence of a receivable through taxpayer agreement, such
as filing a tax return without sufficient payment, or a court ruling in favor of the Treasury
Department. Tax receivables are shown on the balance sheet net of an allowance for doubtful
accounts and abatements. The allowance for doubtful accounts reflects an estimate of the portion
deemed to be uncollectible based on historical experience of similar taxes receivable.

E. Inventory and Related Property

Inventories and related property include inventory, operating materials and supplies, and
forfeited property. The Treasury Department values inventories at either standard cost or lower
of cost or latest acquisition cost except for finished goods inventories, which are valued at
weighted average unit cost. All operating materials and supplies are recorded as an expense when
consumed in operations.



                                                  3
Forfeited property is recorded at estimated fair market value at the time of seizure as deferred
revenue, and may be adjusted to reflect the current fair market value at the end of the fiscal year.
Property forfeited in satisfaction of a taxpayer’s assessed liability is recorded when title to the
property passes to the U.S. Government and a corresponding credit is made to the related taxes
receivable. Direct and indirect holding costs are not capitalized for individual forfeited assets.

Mortgages and claims on forfeited assets are recognized as a valuation allowance and a reduction
of deferred revenue from forfeited assets when the asset is forfeited. The allowance includes
mortgages and claims on forfeited property held for sale and a minimal amount of claims on
forfeited property previously sold. Revenue from the forfeiture of property is deferred until the
property is sold or transferred to a state, local or federal agency. Revenue is not recognized if the
forfeited property is ultimately destroyed or cannot be legally sold.

F. Loans and Interest Receivable – Entity and Non-Entity

Intra-governmental entity Loans and Interest Receivable from other federal agencies represent
loans and interest receivable held by the Treasury Department. No subsidy costs were recorded
for loans purchased from federal agencies or for guaranteed loans made to non-federal borrowers,
because these are guaranteed (interest and principal) by those agencies.

Intra-governmental non-entity Loans and Interest Receivable from other federal agencies
represent loans issued by The Treasury Department to federal agencies on behalf of the U.S.
Government. The Treasury Department acts as an intermediary issuing these loans, because the
agencies receiving these loans will lend these funds to others to carry out various programs of the
Federal Government. Because of the Treasury Department’s intermediary role in issuing these
loans, the Treasury Department does not record an allowance or subsidy costs related to these
loans. Instead, loan loss allowances and subsidy costs are recognized by the ultimate lender, the
federal agency that issued the loans.

G. Advances to the Black Lung Trust Fund

Advances have been provided to the Department of Labor’s Black Lung Trust Fund from the
General Fund of the U.S. Government. The Bureau of the Public Debt accounts for the advances
on behalf of the General Fund of the U.S. Government. Advances to the Black Lung Trust Fund
are being accounted for pursuant to the Benefits Revenue Act which states: “In the event that
fund resources are not adequate to meet fund obligations, then, advances of interest and principal
are paid to the General Fund of the U.S. Government when the Secretary of the Treasury
determines that funds are available in the trust fund for such purposes.” The advance to the Black
Lung Trust Fund is repayable with interest at a rate determined by the Secretary of the Treasury
to be equal to the current average market yield on outstanding marketable obligations of the
United States with remaining periods to maturity comparable to the anticipated period during
which the advance will be outstanding. Advances made prior to 1982 carried rates of interest
equal to the average rate borne by all marketable interest-bearing obligations of the United States
then forming a part of the public debt.

These advances were retired on October 7, 2008 under the refinancing agreement authorized by
the enactment of the Energy Improvement and Extension Act of 2008 on October 3, 2008. The
Act gave authority to the Black Lung Disability Trust Fund to issue obligations to the Secretary of
the Treasury and gave authority to the Secretary of the Treasury to purchase the obligations. The
repayable advances were retired with the proceeds from these obligations as a one time
appropriation to the Trust Fund. (See Note 26).

H. Property, Plant, and Equipment




                                                 4
Property, plant, and equipment (PP&E) is composed of capital assets used in providing goods or
services. It also includes assets acquired through capital leases, which are initially recorded at the
amount recognized as a liability for the capital lease at its inception. PP&E is stated at full cost,
including costs related to acquisition, delivery, and installation, less accumulated depreciation.
Major alterations and renovations including leasehold and land improvements are capitalized,
while maintenance and repair costs are charged to expenses as incurred.

Internal use software encompasses software design, development, and testing of projects adding
significant new functionality and long-term benefits. Costs for developing internal use software
are accumulated in work in development until a project is placed into service, and testing and
final acceptance are successfully completed. Once completed, the costs are transferred to
depreciable property.

Costs for construction projects are recorded as construction-in-progress until completed, and are
valued at actual (direct) cost, plus applied overhead and other indirect costs.

The Treasury Department leases land and buildings from the General Services Administration
(GSA) to conduct most of its operations. GSA charges a standard level users fee which
approximates commercial rental rates for similar properties. Therefore, GSA-owned properties
are not included in the Department’s PP&E.

The Treasury Department’s bureaus are diverse both in size and in operating environment.
Accordingly, the Department’s capitalization policy provides minimum capitalization thresholds
which range from $25,000 to $50,000. The Treasury Department also uses a capitalization
threshold range for bulk purchases: $250,000 to $500,000 for non-manufacturing bureaus and
$25,000 to $50,000 for manufacturing bureaus. Bureaus determine the individual items that
comprise bulk purchases. In addition, Treasury bureaus may expense bulk purchases if they
conclude that total period costs would not be materially distorted and the cost of capitalization is
not economically feasible.

Depreciation is expensed on a straight-line basis over the estimated useful life of the asset with
the exception of leasehold improvements, which are depreciated over the useful life of the lease or
the useful life of the improvement, whichever is shorter. Service life ranges are high due to the
Treasury Department’s diversity of PP&E. Construction in progress and internal use software in
development are not depreciated.

The Treasury Department owns the Treasury building -- a multi-use heritage asset. Multi-use
heritage assets are assets of historical significance for which the predominant use is general
government operations. All acquisition, reconstruction, and betterment costs for the Treasury
Department building are capitalized as general PP&E and depreciated over their service life.

I. Federal Debt

Debt and associated interest are reported on the accrual basis of accounting. Interest costs are
recorded as expenses when incurred, instead of when paid. Certain Treasury securities are issued
at a discount or premium. These discounts and premiums are amortized over the term of the
security using an interest method for all long term securities and the straight line method for
short term securities. The Department of the Treasury also issues Treasury Inflation-Protected
Securities (TIPS). The principal for TIPS is adjusted daily over the life of the security based on the
Consumer Price Index for all Urban Consumers.

J. Pension Costs, Other Retirement Benefits, and Other Post Employment Benefits

The Treasury Department recognizes the full costs of its employees’ pension benefits. However,
the liabilities associated with these costs are recognized by the Office of Personnel Management
(OPM) rather than the Treasury Department.



                                                  5
Most employees of the Treasury Department hired prior to January 1, 1984, participate in the
Civil Service Retirement System (CSRS), to which the Treasury Department contributes 8.51% of
salaries for regular CSRS employees.

On January 1, 1987, the Federal Employees’ Retirement System (FERS) went into effect pursuant
to Public Law 99-335. Employees hired after December 31, 1983, are automatically covered by
FERS and Social Security. A primary feature of FERS is that it offers a savings plan to which the
Treasury Department automatically contributes 1% of base pay and matches any employee
contributions up to an additional 4% of base pay. For most employees hired after December 31,
1983, the Treasury Department also contributes the employer’s matching share for Social
Security. For the FERS basic benefit the Treasury Department contributes 11.2% for regular
FERS employees.

Similar to federal retirement plans, OPM, rather than the Treasury Department, reports the
liability for future payments to retired employees who participate in the Federal Employees
Health Benefits Program (FEHBP) and Federal Employees Group Life Insurance (FEGLI)
Program. The Treasury Department reports the full cost of providing other retirement benefits
(ORB). The Treasury Department also recognizes an expense and liability for other post
employment benefits (OPEB), which includes all types of benefits provided to former or inactive
(but not retired) employees, their beneficiaries, and covered dependents. Additionally, the
Treasury bureaus, OCC and OTS, separately sponsor certain benefit plans for their employees.
OCC sponsors a defined life insurance benefit plan for current and retired employees.
Additionally, OTS provides certain health and life benefits for all retired employees that meet
eligibility requirements.

K. Special Drawing Rights (SDR) Certificates Issued to Federal Reserve Banks

The Exchange Stabilization Fund (ESF) was established for use by the Secretary of the Treasury to
account for the purchase or sale of foreign currencies, to hold U.S. foreign exchange and Special
Drawing Rights (SDR) assets, and to provide financing to foreign governments. SDR transactions
of the ESF require the explicit authorization of the Secretary of the Treasury. The Special
Drawing Rights Act of 1968 authorized the Secretary of the Treasury to issue certificates, not to
exceed the value of SDR holdings, to the Federal Reserve Banks in return for interest free dollar
amounts equal to the face value of certificates issued. The certificates may be issued to finance
the acquisition of SDR from other countries or to provide resources for financing other ESF
operations. Certificates issued are to be redeemed by the Treasury Department at such times and
in such amounts as the Secretary of the Treasury may determine. Certificates issued to Federal
Reserve Banks are stated at their face value. It is not practical to estimate the fair value of
Certificates Issued to Federal Reserve Banks since these certificates contain no specific terms of
repayment.

L. Federal Employee Benefits Payable - FECA Actuarial Liability

The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection
to covered Federal civilian employees injured on the job, and employees who have incurred a
work-related injury or occupational disease. These future workers’ compensation estimates were
generated from an application of actuarial procedures developed to estimate the liability for FECA
benefits. The actuarial liability estimates for FECA benefits include the expected liability for
death, disability, medical, and miscellaneous costs for approved compensation cases.

M. Revenue and Financing Sources

Treasury Department activities are financed either through exchange revenue it receives from
others or through non-exchange revenue and financing sources (such as appropriations provided
by the Congress and penalties, fines, and certain user fees collected). User fees primarily include



                                                6
Internal Revenue Service reimbursable costs to process installment agreements and
accompanying photocopy and reproduction charges. Exchange revenues are recognized when
earned; i.e., goods have been delivered or services have been rendered. Non-exchange revenues
are recognized when received by the respective Treasury Department collecting bureau.
Appropriations used are recognized as financing sources when related expenses are incurred or
assets are purchased. Revenue from reimbursable agreements is recognized when the services are
provided. The Treasury Department also incurs certain costs that are paid in total or in part by
other federal entities, such as pension costs. These subsidized costs are recognized on the
Consolidated Statement of Net Cost, and the imputed financing for these costs is recognized on
the Consolidated Statement of Changes in Net Position. As a result, there is no effect on net
position. Other non-exchange financing sources such as donations and transfers of assets without
reimbursements also are recognized for the period in which they occurred on the Consolidated
Statement of Changes in Net Position.

The Treasury Department recognizes revenue it receives from disposition of forfeited property as
non-exchange revenue on the Consolidated Statement of Changes in Net Position. The costs
related to the forfeiture fund program are reported on the Consolidated Statement of Net Cost.

N. Custodial Revenues and Collections

Non-entity revenue reported on the Treasury Department’s Statement of Custodial Activity
includes cash collected by the Treasury Department, primarily taxes. It does not include revenue
collected by other federal agencies, such as user fees and other receipts, which are remitted for
general operating purposes of the U.S. Government or are earmarked for certain trust funds. The
Statements of Custodial Activity is presented on the “modified accrual basis.” Revenues are
recognized as cash is collected. The “accrual adjustment” is the net increase or decrease, during
the reporting period, in net revenue related-assets and liabilities, mainly taxes receivable. The
Balance Sheets include an estimated amount for taxes receivable and payable to the General Fund
of the U.S. Government at September 30, 2008 and September 30, 2007.

O. Tax Assessments and Abatements

Under Internal Revenue Code Section 6201, the Treasury Department is authorized and required
to make inquiries, determinations, and assessments of all taxes which have not been duly paid
(including interest, additions to the tax, and assessable penalties) under the law. Unpaid
assessments result from taxpayers filing returns without sufficient payment, as well as from tax
compliance programs, such as examination, under-reporter, substitute for return, and combined
annual wage reporting. The Treasury Department also has authority to abate the paid or unpaid
portion of an assessed tax, interest, and penalty. Abatements occur for a number of reasons and
are a normal part of the tax administration process. Abatements may result in claims for refunds
or a reduction of the unpaid assessed amount.

P. Permanent and Indefinite Appropriations

Permanent and indefinite appropriations are used to disburse tax refunds, income tax credits, and
child tax credits. These appropriations are not subject to budgetary ceilings established by
Congress. Therefore, refunds payable at year end are not subject to funding restrictions. Refund
payment funding is recognized as appropriations are used. Permanent indefinite authority for
refund activity is not stated as a specific amount and is available for an indefinite period of time.
Although funded through appropriations, refund activity, in most instances, is reported as a
custodial activity of the Treasury Department, since refunds are, in substance, a custodial
revenue-related activity resulting from taxpayer overpayments of their tax liabilities.

The Treasury Department also receives two permanent and indefinite appropriations related to
debt activity. One is used to pay interest on the public debt securities; the other is used to redeem
securities that have matured, been called, or are eligible for early redemption. These accounts are



                                                 7
not annual appropriations; and do not have refunds. Debt activity appropriations are related to
the Treasury Department’s liability and would be reported on the Treasury Department’s Balance
Sheet. Permanent indefinite authority for debt activity is available for an indefinite period of
time.

Additionally, the Treasury Department receives other permanent and indefinite appropriations to
make certain payments on behalf of the U.S. Government. These appropriations are provided to
make payments to the Federal Reserve for services provided. They also include appropriations
provided to make other disbursements on behalf of the U.S. Government, including payments
made to various parties as the result of certain claims and judgments rendered against the United
States.

Q. Income Taxes

As an agency of the Federal Government, the Treasury Department is exempt from all income
taxes imposed by any governing body, whether it is a federal, state, commonwealth, local, or
foreign government.

R. Use of Estimates

The Treasury Department has made certain estimates and assumptions relating to the reporting
of assets, liabilities, revenues, expenses, and the disclosure of contingent liabilities to prepare
these financial statements. Actual results could differ from these estimates. Major items subject
to estimates include loan receivables (including Mortgage Backed Securities); investments in non-
federal securities (including Freddie Mac and Fannie Mae); tax receivables; depreciation; money
market insurance liability; liability for liquidity commitment (Freddie Mac and Fannie Mae);
imputed costs; actuarial liabilities; cost and earned revenue allocations; contingent legal
liabilities; and credit reform subsidy costs (Notes 3 and 24).

The Treasury recognizes the sensitivity of credit reform modeling to slight changes in some model
assumptions and uses continual review of model factors, statistical modeling, and annual re-
estimates to reflect the most accurate cost of the credit programs to the U.S. Government. Two of
the emergency economic programs that Treasury implemented in the latter part of September
2008, the purchase program for Mortgage Backed Securities (MBS) and the Government
Sponsored Enterprise credit line facility, both operate under the provisions of credit reform and
the use of estimates as dictated by the Federal Credit Reform Act (Notes 3 and 24). Further,
the assumptions underlying the estimated future liquidity payments to the GSE's are subject to a
high level of market volatility, such that actual future payments may differ significantly from
current estimates due to changing circumstances. The Troubled Asset Relief Program described
further in subsequent event Note 26 will also require the use of sophisticated estimates.

The Treasury valuation of the investment in GSE we used the following methodologies:

Common Stock Warrants: The Black-Scholes Option Model (1973) was used to affirm that the
value of the warrants is insensitive to the usual option input variables, including time to
expiration and stock volatility, and that the value per warrant share is nominally less than the
trading price at September 30, 2008.

Senior Preferred Stock: These shares were valued based on an interpolation of market prices
during the five trading days prior to the announcement of the keepwell Agreement for (i) Fannie
Mae and Freddie Mac subordinated debt, as adjusted for the tax advantages of stock dividends
compared with taxable interest, and (ii) Fannie Mae and Freddie Mac preferred stock.




                                                8
Treasury records investments in financial securities at cost at the date of purchase in accordance
with OMB A-136. Disclosure of market values are made as of year end and any permanent
impairment is recorded.

S. Credit Risk

Credit risk is the potential, no matter how remote, for financial loss from a failure of a borrower
or a counter party to perform in accordance with underlying contractual obligations. The
Treasury Department takes on possible credit risk when it makes direct loans or credits to foreign
entities or becomes exposed to institutions which engage in financial transactions with foreign
countries. Given the history of the Treasury Department with respect to such exposure and the
financial policies in place in the U. S. Government and other institutions in which the United
States participates, the Treasury Department expectations of credit losses is nominal.

The Treasury Department also takes on credit risk related to committed but undisbursed direct
loans, its liquidity commitment to Government Sponsored Enterprises, its mortgage-backed
securities portfolio, its insurance of non-FDIC insured money market funds, and its Terrorism
Risk Insurance Program. Except for the Terrorism Risk Insurance Program, these activities focus
on the underlying problems in the credit markets, and the ongoing turbulence in those markets
exposes the Department to potential costs and losses. The extent of the risk assumed by the
Treasury Department is described in more detail in the notes to the financial statements, and
where applicable factored into credit reform models.

T. Earmarked Funds

Treasury has accounted for revenues and other financing sources for earmarked funds separately
from other funds. This method was adopted in accordance with the provisions of the Federal
Accounting Standards Advisory Board’s Statement of Federal Financial Accounting Standards
(SFFAS) No. 27, Identifying and Reporting Earmarked Funds. This standard amended SFFAS
No. 7, Revenue and Other Financing Sources, by:

    •   Elaborating the special accountability needs associated with dedicated collections;
    •   Separating dedicated collections into two categories – earmarked funds and fiduciary
        activity; and
    •   Defining, and providing accounting and reporting guidance for earmarked funds.

Earmarked funds are financed by specifically identified revenues, often supplemented by other
financing sources, which remain available over time. These specifically identified revenues and
other financing sources are required by statute to be used for designated activities or purposes.
SSFAS No. 27 defines the following three criteria for determining an earmarked fund: (1) A
statute committing the Federal Government to use specifically identified revenues and other
financing sources not used in the current period for future use to finance the designated activities,
benefits, or purposes; (2) Explicit authority for the earmarked fund to retain revenues and other
financing sources not used in the current period for future use to finance the designated activities,
benefits, or purposes; and (3) A requirement to account for and report on the receipt, use, and
retention of the revenues and other financing sources that distinguished the earmarked fund from
the Federal Government’s general revenues.

U. Allocation Transfers

The Treasury Department is a party to allocation transfers with other federal agencies as both a
transferring (parent) entity and/or a receiving (child) entity. Allocation transfers are legal
delegations by one department of its authority to obligate budget authority and outlay funds to
another department. A separate fund account (allocation account) is created in the U.S. Treasury
as a subset of the parent fund account for tracking and reporting purposes. All allocation transfers



                                                 9
of balances are credited to this account, and subsequent obligations and outlays incurred by the
child entity are charged to this allocation account as they execute the delegated activity on behalf
of the parent. Beginning in fiscal year 2007, parent federal agencies report both the proprietary
and budgetary activity and the child agency does not report any financial activity related to budget
authority allocated from the parent federal agency to the child federal agency. The Treasury
Department had no significant allocation transfers to report in fiscal years 2008 and 2007.

The Treasury Department allocates funds, as the parent, to the Department of Energy. OMB
allows certain exceptions to allocation reporting for certain funds. Accordingly, the Treasury
Department has reported certain funds for which the Treasury Department is the child in the
allocation transfer, but in compliance with OMB guidance (A-136 III.4.2 section 5 for three
exceptions), will report all activities relative to these allocation transfers in the Treasury
Department’s financial statements. The Treasury Department receives allocation transfers, as the
child, from the Agency for International Development.

V. Credit Reform Accounting

The authoritative guidance for the credit reform portion of these statements are contained
primarily in SFFAS No. 2, Accounting for Direct Loans and Loan Guarantees, as amended by
SFFAS No. 18, Amendments to Accounting Standards for Direct Loans and Loan Guarantees,
SFFAS No. 19, Technical Amendments to Accounting Standards for Direct Loans and Loan
Guarantees. This guidance was promulgated as a result of the Federal Credit Reform Act (FCRA)
of 1990.

The FCRA requires that the ultimate costs of a credit program be calculated, and the budgetary
resources obtained, before the direct loan obligations are incurred. The cost of loan guarantee
programs is the net present value of the estimated future cash flows from payments (for claims,
interest rate subsidies). The primary purpose of the FCRA, which became effective on October 1,
1991, is to more accurately measure the cost of federal credit programs and to place the cost of
such credit programs on a basis equivalent with other federal spending.

SFFAS No. 2, which generally mirrors the requirements of the FCRA, established guidance for
estimating the cost of direct and guaranteed loan programs, as well as for recording direct loans
and liability for loan guarantees for financial reporting purposes. SFFAS No. 2 states that the
actual and expected costs of federal credit programs should be fully recognized in both budgetary
and financial reporting. To accomplish this, agencies first predict or estimate the future
performance of direct and guaranteed loans when preparing their annual budgets. The data used
for these budgetary estimates are re-estimated after the fiscal year-end to reflect changes in actual
loan performance and actual interest rates in effect when the loans were issued. The re-estimate
data are then used to report the cost of the loans disbursed under the direct or guaranteed loan
program as a “Program Cost” in the agencies’ Statement of Net Cost.

The FCRA establishes budgetary and financing control for each credit program through the use of
the program, financing and negative subsidy receipt accounts for direct loans obligated after
September 30, 1991. The FCRA establishes the use of the program, financing, and general fund
receipt for direct loans obligated after September 30, 1991 (Credit Reform). These accounts are
classified as either budgetary or non-budgetary in the Combined Statements of Budgetary
Resources. The budgetary accounts include the program accounts and receipt accounts. The non-
budgetary accounts consist of the credit reform financing accounts.

The program account is a budget account that receives and obligates appropriations to cover the
subsidy cost of a direct loan or guarantee and disburses the subsidy cost to the financing account.
The program account also receives appropriations for administrative expenses. The financing
account is a non-budgetary account that records all of the cash flows resulting from Credit
Reform direct loans or loan guarantees. It disburses loans, collects repayments and fees, makes




                                                 10
claim payments, holds balances, borrows from U.S. Treasury Bureau of Public Debt, earns or pays
interest, and receives the subsidy cost payment from the program account.

The general fund receipt account is a budget account used for the receipt of amounts paid from
the financing account when there is a negative subsidy from the original estimate or a downward
re-estimate. In most cases, the receipt account is a general fund receipt account and amounts are
not earmarked for the credit program. They are available for appropriations only in the sense that
all general fund receipts are available for appropriations. Any assets in this account are non-entity
assets and are offset by intragovernmental liabilities. At the beginning of the following fiscal year,
the fund balance in the general fund receipt account is transferred to the U.S. Treasury General
Fund.




                                                 11
                                                             U.S.Department of the Treasury                              11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2008                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2008-SEPTEMBER        2007-SEPTEMBER
 BS              Accounts Receivable                              A                   D                        396                   466
                                                                                 Variance:                          0                     0

Trading          Name                           Status 2008-SEPTEMBER      2007-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     17                        14                   14                     0
 1400 Department of the Interior                                    37                        49                   49                     0
 1500 Department of Justice                                          2                         2                    2                     0
 1601 Department of Labor                                            0                         1                    1                     0
 1800 United States Postal Service                                   0                         6                    6                     0
 1900 Department of State                                            1                         1                    1                     0
 2800 Social Security Administration                                 5                         3                    3                     0
 3600 DEPARTMENT OF VETERANS                                        26                        52                   52                     0
        AFFAIRS
 4700 General Services Administration                              143                       132                  132                     0
 4900 National Science Foundation                                    3                         3                    3                     0
 5000 Securities and Exchange Commission                             1                         1                    1                     0
 5100 Federal Deposit Insurance Corporation                          0                         1                    1                     0
 6800 Environmental Protection Agency                               21                        18                   18                     0
 6900 Department of Transportation                                   0                         1                    1                     0
 7000 Department of Homeland Security                                2                         8                    8                     0
 7200 Agency for International Development                           0                        11                   11                     0
 7500 Department of Health and Human                                69                        47                   47                     0
        Services
 8600 Department of Housing and Urban                                1                         1                    1                     0
        Development
 8900 Department of Energy                                           6                         6                    6                     0

                                                                          -1-
                                                             U.S.Department of the Treasury                              11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2008                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2008-SEPTEMBER      2007-SEPTEMBER          Previously Reported    Line item Changes
Partner
 9500 Independent and Other Agencies                                 3                         4                    4                     0
 DE00 Department of Defense                                         59                       105                  105                     0
                                  Total                            396                       466                  466                     0




Agency FS Status CP Line Description                              Account Type        NB           2008-SEPTEMBER        2007-SEPTEMBER
 BS              Advances to Others and Prepayments               A                   D                         13                    32
                                                                                 Variance:                          0                     0

Trading        Name                             Status 2008-SEPTEMBER      2007-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1400 Department of the Interior                                     6                        23                   23                     0
 1800 United States Postal Service                                   2                         1                    1                     0
 3600 DEPARTMENT OF VETERANS                                         0                         1                    1                     0
        AFFAIRS
 4700 General Services Administration                                1                         2                    2                     0
 9500 Independent and Other Agencies                                 3                         3                    3                     0
 DE00 Department of Defense                                          1                         2                    2                     0
                                  Total                             13                        32                   32                     0




                                                                          -2-
                                                             U.S.Department of the Treasury                                11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2008                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB             2008-SEPTEMBER        2007-SEPTEMBER
 BS              Interest Receivable                              A                   D                         1,033                 1,516
                                                                                 Variance:                             0                    0

Trading         Name                            Status 2008-SEPTEMBER      2007-SEPTEMBER            Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     59                        364                   364                     0
 1400 Department of the Interior                                   392                        513                   513                     0
 1800 United States Postal Service                                   1                          3                     3                     0
 3600 DEPARTMENT OF VETERANS                                         0                         27                    27                     0
        AFFAIRS
 4700 General Services Administration                               37                         38                    38                     0
 5100 Federal Deposit Insurance Corporation                          0                          1                     1                     0
 6000 Railroad Retirement Board                                     69                         73                    73                     0
 6400 Tennessee Valley Authority                                     0                          2                     2                     0
 6900 Department of Transportation                                   1                          2                     2                     0
 7000 Department of Homeland Security                              359                        366                   366                     0
 7200 Agency for International Development                           0                         24                    24                     0
 8600 Department of Housing and Urban                               84                         96                    96                     0
        Development
 8900 Department of Energy                                          20                         (8)                   (8)                    0
 9100 Department of Education                                        3                          4                     4                     0
 9500 Independent and Other Agencies                                 8                         10                    10                     0
 DE00 Department of Defense                                          0                          1                     1                     0
                                  Total                          1,033                       1,516                 1,516                    0




                                                                          -3-
                                                           U.S.Department of the Treasury                                  11-18-2008 17:05:35
                                                           Financial Management Service
                                                       Governmentwide Financial Report System

                                                  GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                         Fiscal Year: 2008                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                     Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                             Account Type        NB              2008-SEPTEMBER        2007-SEPTEMBER
 BS              Loans Receivable                                A                   D                         274,305               245,474
                                                                                Variance:                             0                     0

Trading         Name                          Status 2008-SEPTEMBER       2007-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                77,518                       74,737                74,737                    0
 1300 Department of Commerce                                      477                          646                   646                    0
 1400 Department of the Interior                                  323                          345                   345                    0
 1500 Department of Justice                                         0                           20                    20                    0
 1601 Department of Labor                                      10,484                       10,057                10,057                    0
 1800 United States Postal Service                              7,200                        4,200                 4,200                    0
 1900 Department of State                                           2                            2                     2                    0
 2500 National Credit Union Administration                      1,109                            0                     0                    0
 2700 Federal Communications Commission                           113                          106                   106                    0
 3600 DEPARTMENT OF VETERANS                                    1,579                        1,052                 1,052                    0
        AFFAIRS
 4700 General Services Administration                           2,098                        2,151                 2,151                    0
 6000 Railroad Retirement Board                                 3,096                        2,945                 2,945                    0
 6800 Environmental Protection Agency                              13                           16                    16                    0
 6900 Department of Transportation                              1,762                        1,039                 1,039                    0
 7000 Department of Homeland Security                          17,360                       17,786                17,786                    0
 7200 Agency for International Development                        477                          474                   474                    0
 7300 Small Business Administration                             9,473                       11,383                11,383                    0
 8300 Export-Import Bank of the United States                   2,929                        4,364                 4,364                    0
 8600 Department of Housing and Urban                           5,524                        5,364                 5,364                    0
        Development


                                                                         -4-
                                                             U.S.Department of the Treasury                               11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2008                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2008-SEPTEMBER       2007-SEPTEMBER          Previously Reported    Line item Changes
Partner
 8900 Department of Energy                                       2,186                     2,241                 2,241                     0
 9100 Department of Education                                  128,670                   104,288               104,288                     0
 9500 Independent and Other Agencies                             1,650                     1,952                 1,952                     0
 DE00 Department of Defense                                        262                       306                   306                     0
                                  Total                        274,305                   245,474               245,474                     0


Agency FS Status CP Line Description                               Account Type        NB           2008-SEPTEMBER        2007-SEPTEMBER
 BS              Other Assets (without reciprocals)                A                   D                    10,100,763             9,052,624
                                                                                  Variance:                          0                     0

Trading        Name                             Status 2008-SEPTEMBER       2007-SEPTEMBER          Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                  10,100,763                 9,052,624             9,052,624                    0
                                  Total                      10,100,763                 9,052,624             9,052,624                    0




                                                                           -5-
                                                             U.S.Department of the Treasury                               11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2008                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB            2008-SEPTEMBER        2007-SEPTEMBER
 BS              Accounts Payable                                 L                   C                         111                    92
                                                                                 Variance:                           0                     0

Trading          Name                           Status 2008-SEPTEMBER      2007-SEPTEMBER           Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     24                       23                     23                     0
 1500 Department of Justice                                          3                       13                     13                     0
 1601 Department of Labor                                           14                       14                     14                     0
 1800 United States Postal Service                                   7                        2                      2                     0
 2400 Office of Personnel Management                                 1                        1                      1                     0
 3600 DEPARTMENT OF VETERANS                                         3                        2                      2                     0
        AFFAIRS
 4700 General Services Administration                               19                       11                     11                     0
 7000 Department of Homeland Security                               12                       11                     11                     0
 7500 Department of Health and Human                                13                        9                      9                     0
        Services
 9100 Department of Education                                        4                         4                     4                     0
 9500 Independent and Other Agencies                                 3                         1                     1                     0
 DE00 Department of Defense                                          8                         1                     1                     0
                                  Total                           (111)                      (92)                  (92)                    0




                                                                          -6-
                                                             U.S.Department of the Treasury                                11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2008                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB             2008-SEPTEMBER        2007-SEPTEMBER
 BS              Advances from Others and Deferred Credits        L                   C                           40                    35
                                                                                 Variance:                            0                     0

Trading         Name                            Status 2008-SEPTEMBER      2007-SEPTEMBER            Previously Reported    Line item Changes
Partner
 1500 Department of Justice                                          5                          7                     7                     0
 1900 Department of State                                            3                          4                     4                     0
 4700 General Services Administration                                1                          1                     1                     0
 7000 Department of Homeland Security                               12                          8                     8                     0
 7200 Agency for International Development                           8                         11                    11                     0
 8600 Department of Housing and Urban                                2                          2                     2                     0
        Development
 9500 Independent and Other Agencies                                 9                          2                     2                     0
                                  Total                            (40)                       (35)                  (35)                    0

Agency FS Status CP Line Description                              Account Type        NB             2008-SEPTEMBER        2007-SEPTEMBER
 BS              Benefit Program Contributions Payable            L                   C                          199                   183
                                                                                 Variance:                            0                     0

Trading         Name                            Status 2008-SEPTEMBER      2007-SEPTEMBER            Previously Reported    Line item Changes
Partner
 1601 Department of Labor                                          121                       120                    120                     0
 2400 Office of Personnel Management                                59                        45                     45                     0
 9900 Treasury General Fund                                         19                        18                     18                     0
                                  Total                           (199)                      (183)                 (183)                    0



                                                                          -7-
                                                             U.S.Department of the Treasury                                 11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2008                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB             2008-SEPTEMBER        2007-SEPTEMBER
 BS              Federal Debt                                     L                    C                       4,226,059             3,940,220
                                                                                 Variance:                              0                    0

Trading          Name                           Status 2008-SEPTEMBER      2007-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                    108                           94                    94                    0
 1400 Department of the Interior                                 7,196                        7,228                 7,228                    0
 1500 Department of Justice                                      2,075                        1,886                 1,886                    0
 1601 Department of Labor                                       72,700                       75,131                75,131                    0
 1602 PENSION BENEFIT GUARANTY                                  19,718                       14,523                14,523                    0
        CORPORATION
 1800 United States Postal Service                                1,605                      979                      979                    0
 1900 Department of State                                        14,891                   14,412                   14,412                    0
 2400 Office of Personnel Management                            810,950                  775,580                  775,580                    0
 2500 National Credit Union Administration                        7,355                    7,142                    7,142                    0
 2700 Federal Communications Commission                           5,717                    4,950                    4,950                    0
 2800 Social Security Administration                          2,367,138                2,182,091                2,182,091                    0
 3600 DEPARTMENT OF VETERANS                                     11,756                   12,247                   12,247                    0
        AFFAIRS
 5100 Federal Deposit Insurance Corporation                     35,032                   53,745                   53,745                     0
 6000 Railroad Retirement Board                                  1,405                    1,970                    1,970                     0
 6800 Environmental Protection Agency                            6,135                    5,710                    5,710                     0
 6900 Department of Transportation                              21,614                   21,057                   21,057                     0
 7000 Department of Homeland Security                            3,103                    2,778                    2,778                     0
 7500 Department of Health and Human                           380,736                  361,291                  361,291                     0
        Services
 7802 Farm Credit System Insurance                               2,644                       2,369                  2,369                    0

                                                                           -8-
                                                             U.S.Department of the Treasury                                   11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2008                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2008-SEPTEMBER       2007-SEPTEMBER             Previously Reported     Line item Changes
Partner
        Corporation
 8000 National Aeronautics and Space                                 17                          17                     17                     0
        Administration
 8600 Department of Housing and Urban                           28,275                        30,955                30,955                     0
        Development
 8900 Department of Energy                                      27,417                    26,758                   26,758                      0
 9500 Independent and Other Agencies                             8,247                     7,457                    7,457                      0
 DE00 Department of Defense                                    390,225                   329,850                  329,850                      0
                                  Total                      (4,226,059)               (3,940,220)              (3,940,220)                    0

Agency FS Status CP Line Description                               Account Type        NB              2008-SEPTEMBER         2007-SEPTEMBER
 BS              Interest Payable                                  L                   C                         50,519                 48,760
                                                                                  Variance:                              0                     0

Trading         Name                            Status 2008-SEPTEMBER       2007-SEPTEMBER             Previously Reported     Line item Changes
Partner
 1200 Department of Agriculture                                      0                            1                     1                      0
 1300 Department of Commerce                                         0                            1                     1                      0
 1400 Department of the Interior                                    25                           23                    23                      0
 1500 Department of Justice                                          0                            2                     2                      0
 1601 Department of Labor                                          864                          883                   883                      0
 1602 PENSION BENEFIT GUARANTY                                      82                            1                     1                      0
        CORPORATION
 1900 Department of State                                           194                         195                    195                     0
 2400 Office of Personnel Management                              9,958                       9,817                  9,817                     0

                                                                           -9-
                                                             U.S.Department of the Treasury                              11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2008                            Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2008-SEPTEMBER      2007-SEPTEMBER         Previously Reported     Line item Changes
Partner
 2500 National Credit Union Administration                          72                     69                      69                     0
 2700 Federal Communications Commission                              6                     24                      24                     0
 2800 Social Security Administration                            29,112                 27,726                  27,726                     0
 3600 DEPARTMENT OF VETERANS                                       169                    207                     207                     0
        AFFAIRS
 5100 Federal Deposit Insurance Corporation                        449                    681                     681                     0
 6000 Railroad Retirement Board                                      2                     12                      12                     0
 6800 Environmental Protection Agency                               40                     43                      43                     0
 6900 Department of Transportation                                  86                     87                      87                     0
 7000 Department of Homeland Security                               27                     23                      23                     0
 7500 Department of Health and Human                             4,661                  4,582                   4,582                     0
        Services
 7802 Farm Credit System Insurance                                  19                     15                      15                     0
        Corporation
 8600 Department of Housing and Urban                              269                    315                    315                      0
        Development
 8900 Department of Energy                                         131                    119                     119                     0
 9500 Independent and Other Agencies                                69                     73                      73                     0
 DE00 Department of Defense                                      4,284                  3,861                   3,861                     0
                                  Total                        (50,519)               (48,760)                (48,760)                    0




                                                                          - 10 -
                                                                  U.S.Department of the Treasury                                   11-18-2008 17:05:35
                                                                  Financial Management Service
                                                              Governmentwide Financial Report System

                                                           GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                                Fiscal Year: 2008                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                            Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                    Account Type          NB            2008-SEPTEMBER         2007-SEPTEMBER
 BS              Other Liabilities (without reciprocals)                L                     C                       667,107                328,964
                                                                                         Variance:                            0                     0

Trading         Name                            Status 2008-SEPTEMBER            2007-SEPTEMBER             Previously Reported     Line item Changes
Partner
 4700 General Services Administration                                    (4)                         (4)                    (4)                     0
 9500 Independent and Other Agencies                                      0                          (3)                    (3)                     0
 9900 Treasury General Fund                                         667,111                     328,973                328,973                      0
 9999 Unidentified                                                        0                          (2)                    (2)                     0
                                  Total                             (667,107)                   (328,964)              (328,964)                    0




                                                                                - 11 -
                                                             U.S.Department of the Treasury                                  11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                    GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2008                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type         NB             2008-SEPTEMBER        2007-SEPTEMBER
 NCS             Borrowing and Other Interest Revenue (Exchange)   ER                   C                        14,239                13,586
                                                                                   Variance:                            0                     0

Trading         Name                          Status 2008-SEPTEMBER         2007-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                 4,080                          4,270                 4,270                    0
 1300 Department of Commerce                                       24                             24                    24                    0
 1400 Department of the Interior                                    6                              8                     8                    0
 1601 Department of Labor                                         739                            717                   717                    0
 1800 United States Postal Service                                 27                              5                     5                    0
 2700 Federal Communications Commission                            14                             30                    30                    0
 3600 DEPARTMENT OF VETERANS                                      116                             77                    77                    0
        AFFAIRS
 4700 General Services Administration                             143                           146                   146                     0
 6000 Railroad Retirement Board                                   177                           180                   180                     0
 6400 Tennessee Valley Authority                                    3                             7                     7                     0
 6800 Environmental Protection Agency                               1                             1                     1                     0
 6900 Department of Transportation                                 90                            44                    44                     0
 7000 Department of Homeland Security                             729                           743                   743                     0
 7200 Agency for International Development                         25                            25                    25                     0
 7300 Small Business Administration                               527                           603                   603                     0
 8300 Export-Import Bank of the United States                     251                           307                   307                     0
 8600 Department of Housing and Urban                             387                           473                   473                     0
        Development
 8900 Department of Energy                                         46                             52                    52                    0
 9100 Department of Education                                   6,705                          5,693                 5,693                    0


                                                                          - 12 -
                                                             U.S.Department of the Treasury                                  11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2008                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2008-SEPTEMBER      2007-SEPTEMBER             Previously Reported     Line item Changes
Partner
 9500 Independent and Other Agencies                               131                         159                   159                      0
 DE00 Department of Defense                                         18                          22                    22                      0
                                  Total                        (14,239)                    (13,586)               (13,586)                    0




Agency FS Status CP Line Description                              Account Type          NB            2008-SEPTEMBER         2007-SEPTEMBER
 NCS             Borrowings Gains                                 ER                    C                          44                     18
                                                                                   Variance:                            0                     0

Trading       Name                              Status 2008-SEPTEMBER      2007-SEPTEMBER             Previously Reported     Line item Changes
Partner
 1200 Department of Agriculture                                     44                          17                     17                     0
 DE00 Department of Defense                                          0                           1                      1                     0
                                  Total                            (44)                        (18)                   (18)                    0




                                                                          - 13 -
                                                             U.S.Department of the Treasury                               11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2008                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB           2008-SEPTEMBER        2007-SEPTEMBER
 NCS             Buy/Sell Revenue                                 ER                   C                        332                   582
                                                                                  Variance:                          0                     0

Trading         Name                            Status 2008-SEPTEMBER      2007-SEPTEMBER           Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     11                         13                   13                     0
 1300 Department of Commerce                                         3                          4                    4                     0
 1400 Department of the Interior                                     1                          5                    5                     0
 1500 Department of Justice                                         14                         22                   22                     0
 1601 Department of Labor                                          144                          3                    3                     0
 1900 Department of State                                            4                          7                    7                     0
 2400 Office of Personnel Management                                 1                          1                    1                     0
 2800 Social Security Administration                               851                        101                  101                     0
 3600 DEPARTMENT OF VETERANS                                         9                         17                   17                     0
        AFFAIRS
 4700 General Services Administration                                2                          3                    3                     0
 4900 National Science Foundation                                    2                          1                    1                     0
 5000 Securities and Exchange Commission                             2                          4                    4                     0
 5100 Federal Deposit Insurance Corporation                          1                          3                    3                     0
 6000 Railroad Retirement Board                                      1                          1                    1                     0
 6800 Environmental Protection Agency                                1                          1                    1                     0
 6900 Department of Transportation                                   1                          1                    1                     0
 7000 Department of Homeland Security                               29                         34                   34                     0
 7200 Agency for International Development                           7                         29                   29                     0
 7300 Small Business Administration                                  1                          1                    1                     0
 7500 Department of Health and Human                               173                         99                   99                     0

                                                                         - 14 -
                                                             U.S.Department of the Treasury                                  11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2008                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2008-SEPTEMBER      2007-SEPTEMBER              Previously Reported    Line item Changes
Partner
        Services
 8000 National Aeronautics and Space                                 1                             0                     0                    0
        Administration
 8600 Department of Housing and Urban                               11                           12                    12                     0
        Development
 9100 Department of Education                                        1                            1                     1                     0
 9500 Independent and Other Agencies                                21                           27                    27                     0
 9900 Treasury General Fund                                     (1,041)                           0                     0                     0
 DE00 Department of Defense                                         81                          192                   192                     0
                                  Total                           (332)                        (582)                 (582)                    0

Agency FS Status CP Line Description                              Account Type          NB             2008-SEPTEMBER        2007-SEPTEMBER
 NCS             Benefit Program Costs                            GC                    D                         1,851                 1,766
                                                                                   Variance:                             0                    0

Trading         Name                            Status 2008-SEPTEMBER      2007-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1601 Department of Labor                                          102                            88                    88                    0
 2400 Office of Personnel Management                             1,325                         1,276                 1,276                    0
 6900 Department of Transportation                                   1                             1                     1                    0
 9900 Treasury General Fund                                        423                           401                   401                    0
                                  Total                          1,851                         1,766                 1,766                    0




                                                                          - 15 -
                                                             U.S.Department of the Treasury                               11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2008                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB           2008-SEPTEMBER        2007-SEPTEMBER
 NCS             Borrowing Losses                                 GC                   D                         0                     10
                                                                                  Variance:                          0                     0

Trading       Name                              Status 2008-SEPTEMBER      2007-SEPTEMBER           Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                      0                         10                   10                     0
                                  Total                              0                         10                   10                     0


Agency FS Status CP Line Description                              Account Type         NB           2008-SEPTEMBER        2007-SEPTEMBER
 NCS             Borrowing and Other Interest Expense             GC                   D                       5,044                 4,633
                                                                                  Variance:                          0                     0

Trading          Name                           Status 2008-SEPTEMBER      2007-SEPTEMBER           Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                    545                        466                  466                     0
 1300 Department of Commerce                                         2                          2                    2                     0
 1400 Department of the Interior                                     4                          8                    8                     0
 2700 Federal Communications Commission                             10                         26                   26                     0
 3600 DEPARTMENT OF VETERANS                                       191                        160                  160                     0
        AFFAIRS
 6900 Department of Transportation                                  41                         25                   25                     0
 7000 Department of Homeland Security                                9                          6                    6                     0
 7200 Agency for International Development                          88                         89                   89                     0
 7300 Small Business Administration                                202                        329                  329                     0
 7500 Department of Health and Human                                 5                          6                    6                     0
        Services

                                                                         - 16 -
                                                             U.S.Department of the Treasury                                  11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2008                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading         Name                          Status 2008-SEPTEMBER        2007-SEPTEMBER              Previously Reported    Line item Changes
Partner
 8300 Export-Import Bank of the United States                      92                            97                    97                     0
 8600 Department of Housing and Urban                             576                           490                   490                     0
        Development
 9100 Department of Education                                   3,227                          2,867                 2,867                    0
 9500 Independent and Other Agencies                               50                             59                    59                    0
 9900 Treasury General Fund                                         0                              1                     1                    0
 DE00 Department of Defense                                         2                              2                     2                    0
                                  Total                          5,044                         4,633                 4,633                    0

Agency FS Status CP Line Description                              Account Type          NB             2008-SEPTEMBER        2007-SEPTEMBER
 NCS             Buy/Sell Costs                                   GC                    D                         1,743                 1,550
                                                                                   Variance:                             0                    0

Trading         Name                            Status 2008-SEPTEMBER      2007-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     20                           19                    19                     0
 1300 Department of Commerce                                         2                            3                     3                     0
 1400 Department of the Interior                                    23                           25                    25                     0
 1500 Department of Justice                                         (4)                           6                     6                     0
 1601 Department of Labor                                           23                           21                    21                     0
 1800 United States Postal Service                                 384                          272                   272                     0
 1900 Department of State                                           15                           14                    14                     0
 2400 Office of Personnel Management                                28                           26                    26                     0
 3600 DEPARTMENT OF VETERANS                                         2                            1                     1                     0


                                                                          - 17 -
                                                          U.S.Department of the Treasury                             11-18-2008 17:05:35
                                                          Financial Management Service
                                                      Governmentwide Financial Report System

                                                  GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                Fiscal Year: 2008                           Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                    Reported in: MILLIONS                Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                         Status 2008-SEPTEMBER     2007-SEPTEMBER         Previously Reported    Line item Changes
Partner
        AFFAIRS
 4700 General Services Administration                            810                    813                   813                     0
 5100 Federal Deposit Insurance Corporation                        0                      1                     1                     0
 6800 Environmental Protection Agency                             30                      2                     2                     0
 6900 Department of Transportation                                21                     21                    21                     0
 7000 Department of Homeland Security                            164                    153                   153                     0
 7200 Agency for International Development                        29                     16                    16                     0
 7300 Small Business Administration                                0                      4                     4                     0
 7500 Department of Health and Human                              23                     17                    17                     0
        Services
 8300 Export-Import Bank of the United States                     11                      1                     1                     0
 8900 Department of Energy                                         3                      3                     3                     0
 9500 Independent and Other Agencies                             122                    117                   117                     0
 DE00 Department of Defense                                       37                     15                    15                     0
                                  Total                        1,743                1,550                    1,550                    0




                                                                       - 18 -
                                                              U.S.Department of the Treasury                                  11-18-2008 17:05:35
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2008                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type         NB              2008-SEPTEMBER        2007-SEPTEMBER
 NCS             Federal Securities Interest Expense               GC                   D                         212,423               193,909
                                                                                   Variance:                             0                     0

Trading          Name                           Status 2008-SEPTEMBER       2007-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                       6                            7                      7                    0
 1400 Department of the Interior                                    248                          334                    334                    0
 1500 Department of Justice                                         100                          141                    141                    0
 1601 Department of Labor                                         3,635                        3,355                  3,355                    0
 1602 PENSION BENEFIT GUARANTY                                    1,625                          313                    313                    0
        CORPORATION
 1800 United States Postal Service                                   10                       170                      170                     0
 1900 Department of State                                           782                       778                      778                     0
 2400 Office of Personnel Management                             40,488                    39,498                   39,498                     0
 2500 National Credit Union Administration                          302                       316                      316                     0
 2700 Federal Communications Commission                             161                       295                      295                     0
 2800 Social Security Administration                            115,105                   108,099                  108,099                     0
 3600 DEPARTMENT OF VETERANS                                        705                       747                      747                     0
        AFFAIRS
 5100 Federal Deposit Insurance Corporation                       2,946                         2,592                 2,592                    0
 6000 Railroad Retirement Board                                      35                            79                    79                    0
 6800 Environmental Protection Agency                               242                           259                   259                    0
 6900 Department of Transportation                                  473                           510                   510                    0
 7000 Department of Homeland Security                               107                           108                   108                    0
 7500 Department of Health and Human                             19,242                        18,473                18,473                    0
        Services
 7802 Farm Credit System Insurance                                   90                           98                    98                     0

                                                                          - 19 -
                                                             U.S.Department of the Treasury                                  11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2008                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2008-SEPTEMBER      2007-SEPTEMBER              Previously Reported    Line item Changes
Partner
        Corporation
 8000 National Aeronautics and Space                                 1                            1                      1                    0
        Administration
 8600 Department of Housing and Urban                            1,458                        1,405                  1,405                    0
        Development
 8900 Department of Energy                                         239                         1,003                 1,003                    0
 9500 Independent and Other Agencies                               350                           352                   352                    0
 DE00 Department of Defense                                     24,073                        14,976                14,976                    0
                                  Total                        212,423                   193,909                  193,909                     0

Agency FS Status CP Line Description                              Account Type         NB              2008-SEPTEMBER        2007-SEPTEMBER
 NCS             Imputed Costs                                    GC                   D                           730                   740
                                                                                  Variance:                              0                    0

Trading         Name                            Status 2008-SEPTEMBER      2007-SEPTEMBER              Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                               730                          740                   740                     0
                                  Total                            730                          740                   740                     0




                                                                         - 20 -
                                                               U.S.Department of the Treasury                               11-18-2008 17:05:35
                                                               Financial Management Service
                                                           Governmentwide Financial Report System

                                                        GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                     Fiscal Year: 2008                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                        Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type         NB           2008-SEPTEMBER        2007-SEPTEMBER
 CUST            Expenditure Transfers-out of financing sources     CF                   D                         13                    11
                                                                                    Variance:                          0                     0

Trading        Name                             Status 2008-SEPTEMBER        2007-SEPTEMBER           Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                           13                        11                     0                    11
                                  Total                               13                        11                     0                    11


Agency FS Status CP Line Description                                Account Type         NB           2008-SEPTEMBER        2007-SEPTEMBER
 CUST            Borrowing and other interest revenue               F                    C                         0                     1
                                                                                    Variance:                          0                     0

Trading       Name                              Status 2008-SEPTEMBER        2007-SEPTEMBER           Previously Reported    Line item Changes
Partner
 6900 Department of Transportation                                     0                         1                     1                     0
                                  Total                                0                        (1)                   (1)                    0




                                                                           - 21 -
                                                                U.S.Department of the Treasury                             11-18-2008 17:05:35
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2008                            Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type          NB         2008-SEPTEMBER        2007-SEPTEMBER
 CUST      I     Expenditure transfers-out of financing sources     F                     C                       0                     0
                                                                                     Variance:                        0                     0

Trading        Name                             Status 2008-SEPTEMBER        2007-SEPTEMBER          Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                            0                         0                  (11)                   11
                                  Total                                0                         0                   11                    11


Agency FS Status CP Line Description                                Account Type          NB         2008-SEPTEMBER        2007-SEPTEMBER
 CUST      I     Other Financing Sources                            F                     C                       0                     0
                                                                                     Variance:                        0                     0

Trading         Name                            Status 2008-SEPTEMBER        2007-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                        0                         0                    4                    (4)
 1400 Department of the Interior                                       0                         0                 (279)                  279
 1500 Department of Justice                                            0                         0                    2                    (2)
 1601 Department of Labor                                              0                         0                  107                  (107)
 1900 Department of State                                              0                         0                    2                    (2)
 2800 Social Security Administration                                   0                         0                  605                  (605)
 3600 DEPARTMENT OF VETERANS                                           0                         0                    9                    (9)
        AFFAIRS
 4700 General Services Administration                                  0                         0                   57                   (57)
 6900 Department of Transportation                                     0                         0                    1                    (1)
 7000 Department of Homeland Security                                  0                         0                    3                    (3)
 7500 Department of Health and Human                                   0                         0                  136                  (136)

                                                                            - 22 -
                                                             U.S.Department of the Treasury                                   11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2008                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2008-SEPTEMBER      2007-SEPTEMBER              Previously Reported     Line item Changes
Partner
        Services
 8000 National Aeronautics and Space                                 0                            0                      2                     (2)
        Administration
 8600 Department of Housing and Urban                                0                            0                      6                     (6)
        Development
 9500 Independent and Other Agencies                                 0                            0                      5                     (5)
 9900 Treasury General Fund                                          0                            0             (2,445,316)             2,445,316
 DE00 Department of Defense                                          0                            0                     60                    (60)
                                  Total                              0                            0              2,444,596              2,444,596

Agency FS Status CP Line Description                              Account Type          NB             2008-SEPTEMBER         2007-SEPTEMBER
 CUST            Other budgetary financing sources                F                     C                      (2,365,062)            (2,444,596)
                                                                                   Variance:                             0                      0

Trading         Name                            Status 2008-SEPTEMBER      2007-SEPTEMBER              Previously Reported     Line item Changes
Partner
 1200 Department of Agriculture                                      0                            4                      0                     4
 1400 Department of the Interior                                  (312)                        (279)                     0                  (279)
 1500 Department of Justice                                          0                            2                      0                     2
 1601 Department of Labor                                          141                          107                      0                   107
 1900 Department of State                                            0                            2                      0                     2
 2800 Social Security Administration                               735                          605                      0                   605
 3600 DEPARTMENT OF VETERANS                                         0                            9                      0                     9
        AFFAIRS
 4700 General Services Administration                                0                           57                      0                     57

                                                                          - 23 -
                                                                U.S.Department of the Treasury                                  11-18-2008 17:05:35
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                       Fiscal Year: 2008                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                          Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2008-SEPTEMBER          2007-SEPTEMBER             Previously Reported    Line item Changes
Partner
 6900 Department of Transportation                                      0                            1                     0                     1
 7000 Department of Homeland Security                                   0                            3                     0                     3
 7500 Department of Health and Human                                  166                          136                     0                   136
        Services
 8000 National Aeronautics and Space                                     0                           2                     0                      2
        Administration
 8600 Department of Housing and Urban                                    0                           6                     0                      6
        Development
 9500 Independent and Other Agencies                                     0                           5                     0                      5
 9900 Treasury General Fund                                     (2,365,792)                 (2,445,316)                    0             (2,445,316)
 DE00 Department of Defense                                              0                          60                     0                     60
                                  Total                          2,365,062                   2,444,596                     0             (2,444,596)

Agency FS Status CP Line Description                                  Account Type          NB            2008-SEPTEMBER        2007-SEPTEMBER
 SCNP            Nonexpenditure Transfers-out of unexpended           CF                    D                          10                    8
                 appropriations and financing sources
                                                                                       Variance:                           0                      0

Trading                                                  2008-SEPTEMBER        2007-SEPTEMBER             Previously Reported    Line item Changes
Partner        Name                             Status
 1500 Department of Justice                                              1                           0                     0                      0
 9900 Treasury General Fund                                              9                           8                     0                      8
                                  Total                                 10                           8                     0                      8




                                                                              - 24 -
                                                                U.S.Department of the Treasury                                11-18-2008 17:05:35
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2008                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type          NB            2008-SEPTEMBER        2007-SEPTEMBER
 SCNP            Transfers-out Without Reimbursement                CF                    D                          21                    24
                                                                                     Variance:                           0                     0

Trading       Name                              Status 2008-SEPTEMBER        2007-SEPTEMBER             Previously Reported    Line item Changes
Partner
 7000 Department of Homeland Security                                 21                         24                     24                     0
                                  Total                               21                         24                     24                     0


Agency FS Status CP Line Description                                Account Type          NB            2008-SEPTEMBER        2007-SEPTEMBER
 SCNP            Expenditure transfers-in of financing sources      F                     C                          13                    11
                                                                                     Variance:                           0                     0

Trading        Name                             Status 2008-SEPTEMBER        2007-SEPTEMBER             Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                           13                         11                     11                     0
                                  Total                              (13)                        (11)                  (11)                    0




                                                                            - 25 -
                                                                U.S.Department of the Treasury                                  11-18-2008 17:05:35
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2008                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                 Account Type          NB             2008-SEPTEMBER        2007-SEPTEMBER
 SCNP            Imputed Financing Source                            F                     C                          729                   740
                                                                                      Variance:                            0                     0

Trading         Name                            Status 2008-SEPTEMBER         2007-SEPTEMBER              Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                  729                         740                    740                     0
                                  Total                              (729)                        (740)                 (740)                    0


Agency FS Status CP Line Description                                 Account Type          NB             2008-SEPTEMBER        2007-SEPTEMBER
 SCNP            Nonexpenditure transfers-in of unexpended           F                     C                           24                    27
                 appropriations and financing sources
                                                                                      Variance:                            0                     0

Trading                                                  2008-SEPTEMBER       2007-SEPTEMBER              Previously Reported    Line item Changes
Partner        Name                             Status
 7200 Agency for International Development                             24                           22                    22                     0
 9500 Independent and Other Agencies                                    0                            5                     5                     0
                                  Total                               (24)                         (27)                  (27)                    0




                                                                             - 26 -
                                                                U.S.Department of the Treasury                              11-18-2008 17:05:35
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2008                            Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                 Account Type         NB         2008-SEPTEMBER         2007-SEPTEMBER
 SCNP      I     Nonexpenditure transfers-out of unexpended          F                    C                       0                      0
                 appropriations and financing sources
                                                                                     Variance:                         0                     0

Trading                                                  2008-SEPTEMBER       2007-SEPTEMBER         Previously Reported     Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                            0                         0                    (8)                    8
                                  Total                                0                         0                     8                     8


Agency FS Status CP Line Description                                 Account Type         NB         2008-SEPTEMBER         2007-SEPTEMBER
 SCNP      I     Other Financing Sources                             F                    C                       0                      0
                                                                                     Variance:                         0                     0

Trading        Name                             Status 2008-SEPTEMBER         2007-SEPTEMBER         Previously Reported     Line item Changes
Partner
 9900 Treasury General Fund                                            0                         0                (5,692)                5,692
                                  Total                                0                         0                 5,692                 5,692




                                                                            - 27 -
                                                             U.S.Department of the Treasury                                    11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2008                                   Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                        Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type          NB               2008-SEPTEMBER        2007-SEPTEMBER
 SCNP            Other budgetary financing sources                F                     C                          (17,250)              (5,692)
                                                                                   Variance:                              0                     0

Trading          Name                           Status 2008-SEPTEMBER      2007-SEPTEMBER                Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                      2                              0                     0                     0
 1400 Department of the Interior                                     1                              0                     0                     0
 1500 Department of Justice                                          7                              0                     0                     0
 1900 Department of State                                            9                              0                     0                     0
 3600 DEPARTMENT OF VETERANS                                        23                              0                     0                     0
        AFFAIRS
 4700 General Services Administration                               13                              0                     0                     0
 6900 Department of Transportation                                   3                              0                     0                     0
 7000 Department of Homeland Security                                1                              0                     0                     0
 7500 Department of Health and Human                                42                              0                     0                     0
        Services
 8600 Department of Housing and Urban                                1                              0                     0                     0
        Development
 8900 Department of Energy                                           1                              0                     0                     0
 9500 Independent and Other Agencies                                10                              0                     0                     0
 9900 Treasury General Fund                                    (17,389)                        (5,692)                    0                (5,692)
 DE00 Department of Defense                                         26                              0                     0                     0
                                  Total                         17,250                         5,692                      0                (5,692)




                                                                          - 28 -
                                                             U.S.Department of the Treasury                              11-18-2008 17:05:35
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2008                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type          NB         2008-SEPTEMBER        2007-SEPTEMBER
 SCNP            Other non-budgetary financing sources            F                     C                    (7,992)                  0
                                                                                   Variance:                        0                     0

Trading        Name                             Status 2008-SEPTEMBER      2007-SEPTEMBER          Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                     (7,992)                        0                    0                     0
                                  Total                          7,992                         0                    0                     0




                                                                          - 29 -
                                                                                                                                                                                              11/18/2008 13:01:46

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report

 Other Data: 01                Statement of Operations and Changes in Net Position                                                         Fiscal Year: 2008                 Period: SEPTEMBER
        Entity: 2000          Department of the Treasury                                                                                       Agency Notes:        None
        Status: Complete                                                                               I = Inactive Line


  Tab: Other Data Info.
      Section: A                 Section Name: Nonexchange Revenue: Specific potential accruals not              No Data: YES             Line Attributes: Dollars
                                               made as a result of using the modified cash basis of                                     Rounding Method: Millions                      Decimal: Zero
                                               accounting.


Line Status     Line Description         NB            CY - Low Range               CY - High Range                 PY - Low Range            PY - High Range
 1                                      Debit
 2                                      Debit
 3                                      Debit
 4                                      Debit
 5                                      Debit



     Tab: Other Text Data

        Section: A                 Section Name: Nonexchange Revenue: Specific potential accruals not
                                                 made as a result of using the modified cash basis of
                                                 accounting.

 Line         Question                                                                                                      Answer
 1            Provide the practical and inherent limitations affecting the accrual of taxes and duties. (SFFAS             For IRS, this is referring to the difference between cash and accrual accounting. IRS used a
              No. 7, par.64)                                                                                               modified cash basis for the Custodial Financial Statements, because of the limitations in the
                                                                                                                           assessment process regarding the delay in the time when there is a legally enforceable
                                                                                                                           claim. Accrual accounting provides more accurate and complete information about
                                                                                                                           receivables and refund legally receivable and collectible concerning the components of the
                                                                                                                           Government's revenue stream, and is the reason IRS computes the allowance for doubtful
                                                                                                                           accounts (ADA). Since cash basis tax revenue still needs to be accounted for in conjunction
                                                                                                                           with ADA, forming the basis of IRS's accounting methodology.

                                                                                                                           TTB records a year-end accrual for the known amount of tax revenue to be collected. This
                                                                                                                           information is obtained from tax forms that are submitted to the National Revenue Center,
                                                                                                                           but have not been individually processed and recorded in the accounting system. TTB is not
                                                                                                                           able to obtain the information necessary to record the majority of the earned custodial
                                                                                                                           revenue due to the fact that this amount is unknown until the taxpayer files a return.




                                                                                                            - 1 -
                                                                                                                                                                       11/18/2008 13:01:46

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 02             Taxes                                                                                         Fiscal Year: 2008                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                        Agency Notes:        Appendix A
      Status: Complete                                                                    I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxes (SSFAS No.7, par. 67-69)                                                Line Attributes: Dollars
                                                                                                                        Rounding Method: Millions                Decimal: Zero
Line Status   Line Description        NB      2008 - SEPTEMBER         2007 - SEPTEMBER              Previously Rptd       Line Item Changes
 1            Estimated realized      Debit                 67,000                 65,000                      65,000                          0
              value of compliance
              assessments as of
              the end of the period
 2            Estimated realizable    Debit
              value of pre-
              assessment work-
              in-progress
 3            Changes in 1 and 2      Debit                                        65,000                      65,000                          0
              above
 4            Other claims for        Debit                 22,000                 21,000                      21,000                          0
              refunds not yet
              accrued but likely to
              be paid when
              administrative
              actions are
              completed
 5            Management's best       Debit
              estimate of
              unasserted claims for
              refunds
 6            Changes in 4 and 5      Debit                                        21,000                      21,000                          0
              above
 7            Amount of               Debit                 99,000                100,000                     100,000                          0
              assessments written
              off that continue to
              be statutorily
              collectible




                                                                                               - 2 -
                                                                                                                                                                                                        11/18/2008 13:01:46

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report

 Other Data: 02                Taxes                                                                                                             Fiscal Year: 2008                     Period: SEPTEMBER
        Entity: 2000           Department of the Treasury                                                                                             Agency Notes:         Appendix A
        Status: Complete                                                                                    I = Inactive Line


  Tab: Other Data Info.
      Section: B                 Section Name: Provide the following amount if a range is estimable               No Data: YES                  Line Attributes: Dollars
                                               and not included in Sec. A (SFFAS No. 7 par 67)                                                Rounding Method: Millions                          Decimal: Zero


Line Status     Line Description          NB                      CY Low                          CY High                       PY Low                        PY High
 1              Realizable value of      Debit
                pre-assessment
                work-in-progress
 2              Changes in line 1     Debit
                above
 3              Management's best     Debit
                estimate of
                unasserted claims for
                refunds
 4              Changes in line 3     Debit
                above

     Tab: Other Text Data

        Section: A                 Section Name: Taxes (SSFAS No.7, par. 67-69)

 Line         Question                                                                                                           Answer
 1            Provide the explicit definitions of estimated amounts of the size of the tax gap.                                 Reducing the tax gap is at the heart of IRS's enforcement programs. The tax gap is the
                                                                                                                                difference between what taxpayers should pay and what they actually pay due to not filing
                                                                                                                                tax returns, not paying their reported tax liability on time, or failing to report their correct tax
                                                                                                                                liability. The tax gap, about $345 billion based on updated FY 2007 estimates, represents
                                                                                                                                the amount of noncompliance with the tax laws. Underreporting tax liability accounts for 83
                                                                                                                                percent of the gap, with the remainder almost evenly divided between non-filing (eight
                                                                                                                                percent) and underpaying (nine percent). The IRS remains committed to finding ways to
                                                                                                                                increase compliance and reduce the tax gap, while minimizing the burden on the vast
                                                                                                                                majority of taxpayers who pay their taxes accurately and on time.

                                                                                                                                The tax gap is the aggregate amount of tax (i.e., excluding interest and penalties) that is
                                                                                                                                imposed by the tax laws for any given tax year but is not paid voluntarily and timely. The tax
                                                                                                                                gap arises from the three types of noncompliance: not filing required tax returns on time or
                                                                                                                                at all (the nonfiling gap), underreporting the correct amount of tax on timely filed returns (the
                                                                                                                                underreporting gap), and not paying on time the full amount reported on timely filed returns
                                                                                                                                (the underpayment gap). Of these three components, only the underpayment gap is
                                                                                                                                observed; the nonfiling gap and the underreporting gap must be estimated. Each instance of
                                                                                                                                noncompliance by a taxpayer contributes to the tax gap, whether or not the IRS detects it,
                                                                                                                                and whether or not the taxpayer is even aware of the noncompliance. Obviously, some of
                                                                                                                                the tax gap arises from intentional (willful) noncompliance, and some of it arises from
                                                                                                                                unintentional mistakes.




                                                                                                                 - 3 -
                                                                                                                                                                                                    11/18/2008 13:01:46

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                           GF007 - Other Data Report

Other Data: 02               Taxes                                                                                                            Fiscal Year: 2008                    Period: SEPTEMBER
       Entity: 2000          Department of the Treasury                                                                                            Agency Notes:        Appendix A
       Status: Complete                                                                                  I = Inactive Line



    Tab: Other Text Data

       Section: A                Section Name: Taxes (SSFAS No.7, par. 67-69)

Line        Question                                                                                                          Answer
                                                                                                                             The collection gap is the cumulative amount of tax, penalties, and interest that has been
                                                                                                                             assessed over many years, but has not been paid by a certain point in time, and which the
                                                                                                                             Service expects to remain uncollectible. In essence, it represents the difference between the
                                                                                                                             total balance of unpaid assessments and the net taxes receivable reported on the Service's
                                                                                                                             balance sheet. The tax gap and the collection gap are related and overlapping concepts, but
                                                                                                                             they have significant differences. The collection gap is a cumulative balance sheet concept
                                                                                                                             for a particular point in time, while the tax gap is like an income statement item for a single
                                                                                                                             year. Moreover, the tax gap estimates include all noncompliance, while the collection gap
                                                                                                                             includes only amounts that have been assessed (a small portion of all noncompliance).
2           Provide the appropriate explanation of the limited reliability of the estimates of the size of the tax           "The Internal Revenue Service developed the concept of the tax gap as a way to gauge
            gap.                                                                                                             taxpayers¿ compliance with their federal tax obligations. The tax gap measures the extent to
                                                                                                                             which taxpayers do not file their tax returns and pay the correct tax on time.

                                                                                                                             Previous estimates of the tax gap relied on detailed research that was conducted for tax
                                                                                                                             years 1988 and earlier. To update this research and reflect a changing economy, revisions
                                                                                                                             to the tax code and more subtle shifts in individual behavior, the IRS launched the National
                                                                                                                             Research Program (NRP) in 2001.

                                                                                                                             The current estimates based on the NRP are preliminary, so they are shown as ranges. As
                                                                                                                             refinements are made to the tax gap analysis, some of these estimates may change. It is
                                                                                                                             unlikely, but possible, that the final estimates of the tax gap will fall outside of the established
                                                                                                                             range."

3           Provide cross-references to portions of the tax gap due from identified noncompliant taxpayers                   N/A
            and importers.
4           Provide the estimates of the annual tax gap (amounts should specifically define whether it                       The tax gap figure does not include taxes that should have been paid on income from the
            includes or excludes estimates of tax due on illegally earned revenue).                                          illegal sector of the economy.
5           Disclose the amounts by which trust funds may be over- or under-funded in comparison with the                    N/A
            requirements of law, if reasonable estimable.




                                                                                                               - 4 -
                                                                                                                                                                       11/18/2008 13:01:46

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 03              Annual Revenues and Expenditures                                                                Fiscal Year: 2008             Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                           Agency Notes:      None
      Status: Complete                                                                         I = Inactive Line


  Tab: Other Data Info.
     Section: A                  Section Name: Revenues from the Public                              No Data: YES            Line Attributes:


Line Status   Line Description          NB                       HI                      SMI                       OASDI




     Section: B                  Section Name: Revenue from Other Government Accounts (to be         No Data: YES            Line Attributes: Dollars
                                               completed by Department of Treasury only)                                   Rounding Method: Millions             Decimal: Zero


Line Status   Line Description          NB        Other Government
 1            Transfers                Debit
 2            Interest credits         Debit
 3            Total                     N/A




                                                                                                    - 5 -
                                                                                                                                                                       11/18/2008 13:01:46

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                 GF007 - Other Data Report

 Other Data: 09            Stewardship Investments                                                                           Fiscal Year: 2008             Period: SEPTEMBER
       Entity: 2000        Department of the Treasury                                                                            Agency Notes:      None
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: A              Section Name: Investment in Non-Federal physical property (SFFAS      No Data: YES              Line Attributes: Dollars
                                           No. 8, par 87)                                                                  Rounding Method: Millions             Decimal: Zero


Line Status   Line Description      NB                   FY 2008                   FY 2007                       FY 2006                 FY 2005                FY 2004
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other non-Federal     Debit
              physical property

     Section: B              Section Name: Research and Development: Investment in                 No Data: YES              Line Attributes: Dollars
                                           Development (SFFAS No. 8, par. 100)                                             Rounding Method: Millions             Decimal: Zero


Line Status   Line Description      NB                   FY 2008                   FY 2007                       FY 2006                 FY 2005                FY 2004
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other investment in   Debit
              development




                                                                                                  - 6 -
                                                                                                                                                                       11/18/2008 13:01:46

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 09            Stewardship Investments                                                                           Fiscal Year: 2008             Period: SEPTEMBER
       Entity: 2000        Department of the Treasury                                                                            Agency Notes:    None
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: C              Section Name: Investment in Human Capital (SFFAS No. 8, par 94)       No Data: YES              Line Attributes: Dollars
                                                                                                                           Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description       NB                 FY 2008                    FY 2007                       FY 2006                FY 2005                 FY 2004
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other Investments in   Debit
              human capital


     Section: D              Section Name: Research and Development: Investment in Basic           No Data: YES              Line Attributes: Dollars
                                           Research (SFFAS No. 8, par. 100)                                                Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description       NB                 FY 2008                    FY 2007                       FY 2006                FY 2005                 FY 2004
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other investments in   Debit
              basic research




                                                                                                  - 7 -
                                                                                                                                                                                11/18/2008 13:01:46

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF007 - Other Data Report

 Other Data: 09               Stewardship Investments                                                                                 Fiscal Year: 2008             Period: SEPTEMBER
         Entity: 2000         Department of the Treasury                                                                                  Agency Notes:    None
        Status: Complete                                                                              I = Inactive Line


     Tab: Other Data Info.
      Section: E                Section Name: Research and Development: Investment in Applied               No Data: YES              Line Attributes: Dollars
                                              Research (SFFAS No. 8, par 100)                                                       Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                   FY 2008                      FY 2007                       FY 2006                FY 2005                 FY 2004
 1                                       Debit
 2                                       Debit
 3                                       Debit
 4                                       Debit
 5                                       Debit
 6               Other investment in     Debit
                 applied research


     Tab: Other Text Data

        Section: A                  Section Name: Investment in Non-Federal physical property (SFFAS          No Data: YES
                                                  No. 8, par 87)

 Line         Question                                                                                                    Answer
 1            Provide a description of Federally-owned physical property transferred to State and local
              governments. (SFFAS No. 8, par 87)
 2            Provide a description of the major programs of Federal investments in non-Federal property.
              (SFFAS No.8 par. 87)
     Tab: Other Text Data

        Section: B                  Section Name: Research and Development: Investment in                     No Data: YES
                                                  Development (SFFAS No. 8, par. 100)

 Line          Question                                                                                                   Answer
 1            Provide a description of the major programs of Federal investments in development. (SFFAS No.
              8, par. 100)
 2            Provide a description of the progress of major development projects including the results with
              respect to projects completed or otherwise terminated during the year and the status of projects
              that will continue (SFFAS No. 8, par. 99)
     Tab: Other Text Data

        Section: C                  Section Name: Investment in Human Capital (SFFAS No. 8, par 94)           No Data: YES

 Line          Question                                                                                                   Answer
 1            Provide a description of the major education and training programs considered Federal
              investments in human capital. (SFFAS No.8, par. 94)


                                                                                                            - 8 -
                                                                                                                                                                     11/18/2008 13:01:46

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                     GF007 - Other Data Report

Other Data: 09              Stewardship Investments                                                                            Fiscal Year: 2008          Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                            Agency Notes:    None
       Status: Complete                                                                          I = Inactive Line



    Tab: Other Text Data

       Section: D              Section Name: Research and Development: Investment in Basic                   No Data: YES
                                             Research (SFFAS No. 8, par. 100)

Line        Question                                                                                                  Answer
1           Provide a description of the major programs of Federal investments in basic research. (SFFAS
            No. 8, par. 100)
2           Provide a description of any major new discoveries made during the year (SFFAS No. 8, par. 99)
    Tab: Other Text Data

       Section: E              Section Name: Research and Development: Investment in Applied                 No Data: YES
                                             Research (SFFAS No. 8, par 100)

Line        Question                                                                                                  Answer
1           Provide a description of the major programs of Federal investments in applied research. (SFFAS
            No. 8, par. 100)
2           Provide a description of any major new applications developed during the year (SFFAS No. 8,
            par. 99)




                                                                                                       - 9 -
                                                                                                                                                                        11/18/2008 13:01:46

                                                                           U.S. Department of the Treasury
                                                                            Financial Management Service
                                                                       Governmentwide Financial Report System
                                                                              GF007 - Other Data Report

 Other Data: 10             Deferred Maintenance                                                                       Fiscal Year: 2008                  Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                     Agency Notes:       Treasury
      Status: Complete                                                                I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Range of Amounts                                No Data: YES               Line Attributes: Dollars
                                                                                                                     Rounding Method: User-Defined               Decimal: User-Defined
Line Status   Line Description         NB                CY- Low   D       CY- High    D CY - Critical Maintenance             PY- Low     D                 PY- High    D PY - Critical Maintenance
                                                                                                                 D                                                                                 D
 1            Buildings, structures,   N/A
              and facilities
 2            Furniture, fixtures,     N/A
              and equipment
 3            Other general            N/A
              property, plant, and
              equipment
 4            Heritage assets          N/A
 5            Stewardship land         N/A
     Section: B               Section Name: Amount                                          No Data: YES               Line Attributes: Dollars
                                                                                                                     Rounding Method: User-Defined               Decimal: User-Defined
Line Status   Line Description         NB                     CY   D            PY     D
 1      I     Buildings, structures,   N/A
              and facilities
 2      I     Furniture, fixtures,     N/A
              and equipment
 3      I     Other general            N/A
              property, plant, and
              equipment
 4      I     Heritage assets          N/A
 5      I     Stewardship land         N/A




                                                                                           - 10 -
                                                                                                                                                                 11/18/2008 13:01:46

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 12           Tax Burden                                                                                 Fiscal Year: 2008               Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                     Agency Notes:        IRS' PAR
      Status: Complete                                                                         I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Individual Income Tax Returns for Tax Year 2006 for                      Line Attributes: Units
                                            the following AGI levels


Line Status   Line Description       NB                        AGI
 1            Under $15,000          N/A            37,614,000.0000
 2            $15,000 under          N/A            29,649,000.0000
              $30,000
 3            $30,000 under          N/A            24,907,000.0000
              $50,000
 4            $50,000 under          N/A            30,053,000.0000
              $100,000
 5            $100,000 under         N/A            12,110,000.0000
              $200,000
 6            $200,000 or more       N/A               4,088,000.0000
     Section: B               Section Name: Individual AGI and Income Tax information -                              Line Attributes: Dollars
                                            Individual Income Tax Returns for Tax Year 2006                        Rounding Method: Millions               Decimal: Zero


Line Status   Line Description       NB                        AGI          Total Income Tax
 1            Under $15,000         Debit                    188,624                      3,141
 2            $15,000 under         Debit                    655,386                    22,562
              $30,000
 3            $30,000 under         Debit                    973,569                    59,846
              $50,000
 4            $50,000 under         Debit                   2,123,894                  185,019
              $100,000
 5            $100,000 under        Debit                   1,610,028                  210,538
              $200,000
 6            $200,000 or more      Debit                   2,431,160                  545,226




                                                                                                   - 11 -
                                                                                                                                                               11/18/2008 13:01:46

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 12           Tax Burden                                                                                Fiscal Year: 2008              Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                    Agency Notes:     IRS' PAR
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: C               Section Name: Individual AGI and Income Tax Information-Individual                    Line Attributes: Dollars
                                            Income Tax Returns for Tax Year 2006                                  Rounding Method: Whole-Dollars         Decimal: Zero


Line Status   Line Description       NB        Avg. AGI per return           Avg. Income Tax per
                                                                                       return
 1            Under $15,000         Debit                      5,015                         84
 2            $15,000 under         Debit                     22,105                        761
              $30,000
 3            $30,000 under         Debit                     39,088                      2,403
              $50,000
 4            $50,000 under         Debit                     70,672                      6,156
              $100,000
 5            $100,000 under        Debit                   132,956                      17,386
              $200,000
 6            $200,000 or more      Debit                   594,740                     133,380
     Section: D               Section Name: Income Tax as a Percentage of AGI-Indvidual Income                      Line Attributes: Percent
                                            Tax Returns for Tax Year 2006


Line Status   Line Description       NB                        AGI
 1            Under $15,000          N/A                      1.7000
 2            $15,000 under          N/A                      3.4000
              $30,000
 3            $30,000 under          N/A                      6.1000
              $50,000
 4            $50,000 under          N/A                      8.7000
              $100,000
 5            $100,000 under         N/A                    13.1000
              $200,000
 6            $200,000 or more       N/A                    22.4000




                                                                                                   - 12 -
                                                                                                                                                                 11/18/2008 13:01:46

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 12              Tax Burden                                                                                Fiscal Year: 2008             Period: SEPTEMBER
        Entity: 2000         Department of the Treasury                                                                    Agency Notes:      IRS' PAR
       Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
      Section: E               Section Name: Income Subject to Tax & Total Income Tax After                            Line Attributes: Dollars
                                             Credits:Corp. Income for Tax Year 2005                                  Rounding Method: Millions             Decimal: Zero


Line Status    Line Description       NB     Income Subject to Tax         Total Income Tax After
                                                                                      Credits
 1             Zero Assets           Debit                    19,086                      5,094
 2             $1 under $500         Debit                     9,223                      1,698
 3             $500 under $1,000     Debit                     4,473                      1,043
 4             $1,000 under $5,000   Debit                   -14,935                      4,372
 5             $5,000 under          Debit                     9,367                      3,060
               $10,000
 6             $10,000 under         Debit                    13,506                      4,456
               $25,000
 7             $25,000 under         Debit                    13,459                      4,366
               $50,000
 8             $50,000 under         Debit                    14,239                      4,624
               $100,000
 9             $100,000 under        Debit                    31,250                      9,935
               $250,000
 10            $250,000 or more      Debit                 1,071,781                    273,431
      Section: F               Section Name: Percentage of Income Tax After Credits to Taxable                         Line Attributes: Percent
                                             Income-Corporation Income for Tax Year 2005


Line Status    Line Description       NB     Income Subject to Tax
 1             Zero Assets            N/A                    26.7000
 2             $1 under $500          N/A                    18.4000
 3             $500 under $1,000      N/A                    23.3000
 4             $1,000 under $5,000    N/A                    29.3000
 5             $5,000 under           N/A                    32.7000
               $10,000
 6             $10,000 under          N/A                    33.0000
               $25,000
 7             $25,000 under          N/A                    32.4000
               $50,000
 8             $50,000 under          N/A                    32.5000
               $100,000



                                                                                                     - 13 -
                                                                                                                                                              11/18/2008 13:01:46

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF007 - Other Data Report

 Other Data: 12            Tax Burden                                                                                 Fiscal Year: 2008            Period: SEPTEMBER
        Entity: 2000       Department of the Treasury                                                                    Agency Notes:      IRS' PAR
       Status: Complete                                                                           I = Inactive Line


  Tab: Other Data Info.
      Section: F                Section Name: Percentage of Income Tax After Credits to Taxable                       Line Attributes: Percent
                                              Income-Corporation Income for Tax Year 2005


Line Status    Line Description        NB     Income Subject to Tax
 9             $100,000 under          N/A                    31.8000
               $250,000
 10            $250,000 or more        N/A                    25.5000




                                                                                                      - 14 -
                                                                                                                                                                                11/18/2008 13:01:46

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 13             Other information                                                                                    Fiscal Year: 2008                  Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                               Agency Notes:        IRS PAR
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Estimated amounts that may be paid out as other                                      Line Attributes: Dollars
                                            claims for tax refunds                                                             Rounding Method: Billions                  Decimal: Zero


Line Status   Line Description         NB       2008 - SEPTEMBER          2007 - SEPTEMBER               Previously Rptd          Line Item Changes
 1            Estimated payout         Debit                       5                          15                       15                             0
              (including principal
              and interest) for
              claims pending
              judicial review by the
              Federal Courts
 2            Claims under appeal      Debit                      17                           6                           6                          0



     Section: B               Section Name: Other information related to taxes                                                   Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                  Decimal: Zero
Line Status   Line Description         NB       2008 - SEPTEMBER          2007 - SEPTEMBER               Previously Rptd          Line Item Changes
 1            Payroll taxes paid by    Debit                  12,931                    73,718                     73,718                             0
              Federal agencies
              included in individual
              and FICA taxes
 2            Refundable portion       Debit                  34,074                    16,137                     16,137                             0
              of child care tax
              credits issued
 3            Amount of EITC           Debit                  40,600                    38,274                     38,274                             0
              refunds
 4            Amount of EITC           Debit                   7,950                     6,425                      6,425                             0
              refunds applied to
              reduce taxpayer
              liability




                                                                                                   - 15 -
                                                                                                                                                                                11/18/2008 13:01:46

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

 Other Data: 15               Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)             Fiscal Year: 2008               Period: SEPTEMBER
         Entity: 2000         Department of the Treasury                                                                                Agency Notes:    Treasury
        Status: Complete                                                                            I = Inactive Line


     Tab: Other Data Info.
      Section: A                Section Name: Risk Assumed                                                 No Data: YES             Line Attributes: Dollars
                                                                                                                                  Rounding Method: User-Defined           Decimal: User-Defined
Line Status      Line Description        NB       2008 - SEPTEMBER            2007 - SEPTEMBER                  Previously Rptd      Line Item Changes
 1               Present value of       Debit
                 unpaid expected
                 losses (net of
                 associated
                 premiums)
 2               Periodic changes       Debit




     Tab: Other Text Data

        Section: A                  Section Name: Risk Assumed                                              No Data: YES

 Line          Question                                                                                                 Answer
 1            Provide the indicators of the range of uncertainty around insurance related estimates and
              sensitivity of the estimates to changes in major assumptions (SFFAS No.5, par.114)
 2            Provide the actuarial or financial methods used to measure the present value of unpaid expected
              losses (SFFAS No. 5. par. 114)




                                                                                                        - 16 -
                                                                                                                                                                                      11/18/2008 13:01:46

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF007 - Other Data Report

 Other Data: 16               Stewardship Land                                                                                         Fiscal Year: 2008                   Period: SEPTEMBER
        Entity: 2000          Department of the Treasury                                                                                  Agency Notes:         Treasury
        Status: Complete                                                                               I = Inactive Line


  Tab: Other Data Info.
      Section: A                Section Name: Stewardship Land                                               No Data: YES              Line Attributes: Units


Line Status     Line Description         NB       Beginning Balance                         Acquired                       Withdrawn      Ending Balance
 1              Public Land              N/A
 2              National Forest          N/A
                System
 3              National Wildlife        N/A
                Refuge System
 4              National Park            N/A
                System
 5              Mission Land             N/A
 6              Water, Power, and        N/A
                Recreation
 7              All Other                N/A

     Tab: Other Text Data

        Section: A                  Section Name: Stewardship Land                                             No Data: YES

 Line         Question                                                                                                       Answer
 1            Describe the predominant uses of the stewardship land (SFFAS 29, par. 40c).
 2            Provide the condition of the stewardship land (SFFAS 29, par. 41).




                                                                                                           - 17 -
                                                                                                                                                                            11/18/2008 13:01:46

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 17           Heritage Assets                                                                                    Fiscal Year: 2008                   Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                             Agency Notes:        Treasury
      Status: Complete                                                                      I = Inactive Line


  Tab: Other Data Info.
     Section: A             Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.       No Data: YES             Line Attributes: Units
                                          25d)


Line Status   Line Description     NB         CY:Physical units as of   CY:Physical units added          CY:Physical units   CY:Physical units as of PY:Physical units as of the   PY:Physical units added
                                            the beginning of the year   during the fiscal year        withdrawn during the    the end of the year     beginning of the year        during the fiscal year
                                                                                                             fiscal year
 1                                 N/A
 2                                 N/A
 3                                 N/A
 4                                 N/A
 5                                 N/A

Line Status   Line Description     NB              PY:Physical units PY:Physical units as of the
                                                withdrawn during the        end of the year
                                                       fiscal year
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
     Section: B             Section Name: Non-Collection Type Heritage Assets (SFFAS No. 29,        No Data: YES             Line Attributes: Units
                                          par. 25d)


Line Status   Line Description     NB         CY:Physical units as of   CY:Physical units added          CY:Physical units   CY:Physical units as of PY:Physical units as of the   PY:Physical units added
                                            the beginning of the year   during the fiscal year        withdrawn during the    the end of the year     beginning of the year        during the fiscal year
                                                                                                             fiscal year
 1                                 N/A
 2                                 N/A
 3                                 N/A
 4                                 N/A
 5                                 N/A

Line Status   Line Description     NB              PY:Physical units PY:Physical units as of the
                                                withdrawn during the        end of the year
                                                       fiscal year
 1                                  N/A



                                                                                                   - 18 -
                                                                                                                                                                                 11/18/2008 13:01:46

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF007 - Other Data Report

 Other Data: 17               Heritage Assets                                                                                     Fiscal Year: 2008                   Period: SEPTEMBER
        Entity: 2000          Department of the Treasury                                                                             Agency Notes:         Treasury
        Status: Complete                                                                             I = Inactive Line


  Tab: Other Data Info.
      Section: B                Section Name: Non-Collection Type Heritage Assets (SFFAS No. 29,           No Data: YES           Line Attributes: Units
                                              par. 25d)


Line Status     Line Description        NB              PY:Physical units PY:Physical units as of the
                                                     withdrawn during the        end of the year
                                                            fiscal year
 2                                       N/A
 3                                       N/A
 4                                       N/A
 5                                       N/A




     Tab: Other Text Data

        Section: A                Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.          No Data: YES
                                                25d)

 Line         Question                                                                                                   Answer
 1            Provide the condition of each major category of the heritage assets (SFFAS 29, par. 26).
     Tab: Other Text Data

        Section: B                Section Name: Non-Collection Type Heritage Assets (SFFAS No. 29,           No Data: YES
                                                par. 25d)

 Line         Question                                                                                                   Answer
 1            Provide the condition of each major category of the heritage assets (SFFAS 29, par. 26).




                                                                                                         - 19 -
                                                                U.S. Department of the Treasury                                     11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2008                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 3   Fund Balance                                                                      A      D       F                  275,368                  74,767
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER         2007-SEPTEMBER          Previously Reported      Line Item Changes
Fund Balance with Treasury                              F                275,368                74,767                     74,767                     0
Total:                                                                   275,368                74,767                     74,767                     0

Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 4   Loans and Interest Receivable                                                     A      D       F                  264,854                 236,932
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER         2007-SEPTEMBER          Previously Reported      Line Item Changes
Interest Receivable                                     F                  1,033                  1,516                     1,516                     0
Loans Receivable                                        F                263,821                235,416                   235,416                     0
Total:                                                                   264,854                236,932                   236,932                     0
Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 5   Advances to the Black Lung Trust Fund                                             A      D       F                    10,484                 10,058
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER         2007-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable                                        F                10,484                 10,058                     10,058                     0
Total:                                                                   10,484                 10,058                     10,058                     0




                                                                              -1-
                                                                U.S. Department of the Treasury                                     11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2008                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER          2007-SEPTEMBER
                                                                                      Type
 6   Due From the General Fund                                                          A      D      F                10,100,763               9,052,624
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported      Line Item Changes
Other Assets (without reciprocals)                      F              10,100,763               9,052,624               9,052,624                     0
Total:                                                                 10,100,763               9,052,624               9,052,624                     0

Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER          2007-SEPTEMBER
                                                                                      Type
 7   Accounts Receivable and Related Interest                                           A      D      F                      396                     466
                                                                                     Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported      Line Item Changes
Accounts Receivable                                     F                  396                     466                       466                      0
Total:                                                                     396                     466                       466                      0

Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER          2007-SEPTEMBER
                                                                                      Type
 8   Other Intra-governmental Assets                                                    A      D      F                       13                      32
                                                                                     Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported      Line Item Changes
Advances to Others and Prepayments                      F                   13                      32                        32                      0
Total:                                                                      13                      32                        32                      0




                                                                               -2-
                                                                U.S. Department of the Treasury                                     11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2008                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 11 Cash, Foreign Currency & Other Monetary Assets                                     A      D       N                  387,270                  92,330
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER         2007-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                387,198                92,231                     92,231                     0
Accounts and Taxes Receivable                           N                     72                    99                         99                     0
Total:                                                                   387,270                92,330                     92,330                     0
Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 12 Gold and Silver Reserves                                                           A      D       N                    11,062                 11,062
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER         2007-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                11,062                 11,062                     11,062                     0
Total:                                                                   11,062                 11,062                     11,062                     0

Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 13 Loans and Interest Receivable                                                      A      D       N                      172                     175
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER         2007-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable                                        N                  172                    175                        175                      0
Total:                                                                     172                    175                        175                      0




                                                                              -3-
                                                                U.S. Department of the Treasury                                     11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2008                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 14 Credit Reform - Mortgage Backed Securities (MBS)                                   A      D       N                     3,385                         0
                                                                                    Variance:                                   0                         0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER         2007-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable                                        N                 3,385                    0                            0                     0
Total:                                                                    3,385                    0                            0                     0

Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 15 Investments in Government Sponsored Enterprises (GSE)                              A      D       N                     7,032                         0
                                                                                    Variance:                                   0                         0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER         2007-SEPTEMBER          Previously Reported      Line Item Changes
Securities and Investments                              N                 7,032                    0                            0                     0
Total:                                                                    7,032                    0                            0                     0

Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 16 Investments and Related Interest                                                   A      D       N                    10,576                 10,074
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER         2007-SEPTEMBER          Previously Reported      Line Item Changes
Securities and Investments                              N                10,576                 10,074                     10,074                     0
Total:                                                                   10,576                 10,074                     10,074                     0




                                                                              -4-
                                                                 U.S. Department of the Treasury                                    11/18/2008 17:08:18
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2008                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER          2007-SEPTEMBER
                                                                                      Type
 17 Reserve Position in International Monetary Fund                                     A      D       N                    4,750                  4,464
                                                                                     Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N      2008-SEPTEMBER         2007-SEPTEMBER         Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                  4,750                  4,464                     4,464                     0
Total:                                                                     4,750                  4,464                     4,464                     0

Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER          2007-SEPTEMBER
                                                                                      Type
 18 Investments in International Financial Institutions                                 A      D       N                    5,546                  5,521
                                                                                     Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N      2008-SEPTEMBER         2007-SEPTEMBER         Previously Reported      Line Item Changes
Other Assets                                            N                  5,546                  5,521                     5,521                     0
Total:                                                                     5,546                  5,521                     5,521                     0

Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER          2007-SEPTEMBER
                                                                                      Type
 19 Tax/Trade, Other Receivables, and Related Interest, Net                             A      D       N                   30,878                 27,559
                                                                                     Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N      2008-SEPTEMBER         2007-SEPTEMBER         Previously Reported      Line Item Changes
Accounts and Taxes Receivable                           N                 30,878                 27,559                    27,559                     0
Total:                                                                    30,878                 27,559                    27,559                     0




                                                                               -5-
                                                                U.S. Department of the Treasury                                     11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2008                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 20 Inventory and Related Property, Net                                                A      D       N                      698                     638
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER         2007-SEPTEMBER          Previously Reported      Line Item Changes
Inventory and Related Property                          N                  698                    638                        638                      0
Total:                                                                     698                    638                        638                      0

Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 21 Property, Plant and Equipment, Net                                                 A      D       N                     2,077                  2,086
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER         2007-SEPTEMBER          Previously Reported      Line Item Changes
Property, Plant and Equipment                           N                 2,077                  2,086                      2,086                     0
Total:                                                                    2,077                  2,086                      2,086                     0

Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 22 Other Assets                                                                       A      D       N                     1,714                     19
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER         2007-SEPTEMBER          Previously Reported      Line Item Changes
Other Assets                                            N                 1,714                    19                         19                      0
Total:                                                                    1,714                    19                         19                      0




                                                                              -6-
                                                                U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2008                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 27 Federal Debt and Interest Payable                                                   L      C      F                 4,262,414                3,974,788
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Interest Payable                                        F                  50,355                  48,568                  48,568                      0
Federal Debt                                            F               4,212,059               3,926,220               3,926,220                      0
Total:                                                                 (4,262,414)             (3,974,788)             (3,974,788)                     0
Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 28 Other Debt and Interest Payable                                                     L      C      F                    14,164                  14,164
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Interest Payable                                        F                    164                     164                      164                      0
Federal Debt                                            F                 14,000                  14,000                   14,000                      0
Total:                                                                   (14,164)                (14,164)                 (14,164)                     0
Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 29 Due to the General Fund                                                             L      C      F                   667,112                 328,973
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Other Liabilities (without reciprocals)                 F                667,112                 328,973                  328,973                      0
Total:                                                                  (667,112)               (328,973)                (328,973)                     0



                                                                               -7-
                                                                U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2008                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 30 Other Intra-governmental Liabilities                                                L      C      F                       345                     329
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Accounts Payable                                        F                  111                      92                        92                       0
Interest Payable                                        F                    0                      28                        28                       0
Benefit Program Contributions Payable                   F                  199                     183                       183                       0
Advances from Others and Deferred Credits               F                   40                      35                        35                       0
Other Liabilities (without reciprocals)                 F                   (5)                     (9)                       (9)                      0
Total:                                                                    (345)                   (329)                     (329)                      0
Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 32 Federal Debt and Interest Payable                                                   L      C      N                 5,812,694                5,054,250
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Federal Debt Securities Held by the Public              N               5,812,694               5,054,250               5,054,250                      0
Total:                                                                 (5,812,694)             (5,054,250)             (5,054,250)                     0




                                                                               -8-
                                                                U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2008                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 33 Certificates Issued to Federal Reserve Banks                                        L      C      N                     2,200                   2,200
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER         2007-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                       N                 2,200                  2,200                      2,200                      0
Total:                                                                   (2,200)                (2,200)                    (2,200)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 34 Allocation of Special Drawing Rights                                                L      C      N                     7,630                   7,627
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER         2007-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                       N                 7,630                  7,627                      7,627                      0
Total:                                                                   (7,630)                (7,627)                    (7,627)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 35 Gold Certificates Issued to Federal Reserve Banks                                   L      C      N                    11,037                  11,037
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER         2007-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                       N                 11,037                 11,037                    11,037                      0
Total:                                                                   (11,037)               (11,037)                  (11,037)                     0




                                                                               -9-
                                                                U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2008                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                     Type
 36 Refunds                                                                            L      C       N                     3,076                   1,684
                                                                                    Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Accounts Payable                                        N                 3,076                   1,684                     1,684                      0
Total:                                                                   (3,076)                 (1,684)                   (1,684)                     0

Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                     Type
 37 DC Pension Liability                                                               L      C       N                     8,803                   8,992
                                                                                    Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Other Liabilities                                       N                 8,803                   8,992                     8,992                      0
Total:                                                                   (8,803)                 (8,992)                   (8,992)                     0

Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                     Type
 38 Other Liabilities                                                                  L      C       N                    17,852                   3,664
                                                                                    Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Accounts Payable                                        N                  618                     762                       762                       0
Federal Employee and Veteran Benefits                   N                  630                     611                       611                       0
Payable
Other Liabilities                                      N                  16,587                     2,273                  2,273                          0
Insurance Programs                                     N                      17                        18                     18                          0


                                                                              - 10 -
                                                                U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2008                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                           Account NB    F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                        Type
 38 Other Liabilities                                                                     L    C       N                    17,852                  3,664
Total:                                                                   (17,852)                   (3,664)                (3,664)                      0




Line Agency Line Description                                                  Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 42 Unexpended Appropriations - Earmarked Funds                                         E      C      B                       200                     200
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER           2007-SEPTEMBER        Previously Reported       Line Item Changes
Net Position-Earmarked Funds                            B                  200                      200                      200                       0
Total:                                                                    (200)                    (200)                    (200)                      0

Line Agency Line Description                                                  Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 43 Unexpended Appropriations - All Other Funds                                         E      C      B                   271,768                  72,117
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER           2007-SEPTEMBER        Previously Reported       Line Item Changes
Net Position-Non-Earmarked Funds                        B                271,768                   72,117                  72,117                      0
Total:                                                                  (271,768)                 (72,117)                (72,117)                     0




                                                                              - 11 -
                                                                U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2008                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 44 Cumulative Results of Operations - Earmarked Funds                                  E      C      B                    37,586                  35,385
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Earmarked Funds                            B                 37,586                  35,385                   35,385                      0
Total:                                                                   (37,586)                (35,385)                 (35,385)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 45 Cumulative Results of Operations - All Other Funds                                  E      C      B                       157                  13,397
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Non-Earmarked Funds                        B                  157                    13,397                   13,397                      0
Total:                                                                    (157)                  (13,397)                 (13,397)                     0




                                                                              - 12 -
                                                                U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2008                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 3   Individual Income and FICA Taxes                                                   F      C      N                 2,294,326                2,201,464
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER           2007-SEPTEMBER        Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N               2,294,326                2,201,464              2,201,464                      0
Total:                                                                 (2,294,326)              (2,201,464)            (2,201,464)                     0

Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 4   Corporate Income Taxes                                                             F      C      N                   354,063                 395,320
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER           2007-SEPTEMBER        Previously Reported       Line Item Changes
Corporation Income Taxes                                N                354,063                  395,320                 395,320                      0
Total:                                                                  (354,063)                (395,320)               (395,320)                     0

Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 5   Estate and Gift Taxes                                                              F      C      N                    29,824                  26,978
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER           2007-SEPTEMBER        Previously Reported       Line Item Changes
Estate and Gift Taxes                                   N                 29,824                   26,978                  26,978                      0
Total:                                                                   (29,824)                 (26,978)                (26,978)                     0




                                                                               - 13 -
                                                                U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2008                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 6   Excise Taxes                                                                       F      C      N                    66,293                  67,766
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Excise Taxes                                            N                 66,302                  67,766                   67,766                      0
Other budgetary financing sources                       F                     (9)                      0                        0                      0
Total:                                                                   (66,293)                (67,766)                 (67,766)                     0
Line Agency Line Description                                                  Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 7   Railroad Retirement Taxes                                                          F      C      N                     4,939                   4,718
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                N                 4,939                   4,718                     4,718                      0
Total:                                                                   (4,939)                 (4,718)                   (4,718)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 8   Unemployment Taxes                                                                 F      C      N                     7,331                   7,416
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Unemployment Taxes                                      N                 7,331                   7,416                     7,416                      0
Total:                                                                   (7,331)                 (7,416)                   (7,416)                     0




                                                                              - 14 -
                                                                 U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2008                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                       Type
 9   Deposit of Earnings, Federal Reserve System                                         F      C      N                    33,598                  32,043
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                 N                 33,598                  32,043                   32,043                      0
Total:                                                                    (33,598)                (32,043)                 (32,043)                     0

Line Agency Line Description                                                   Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                       Type
 10 Fines, Penalties, Interest & Other Revenue                                           F      C      B                     2,233                   3,084
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                 N                 1,173                   2,071                     2,071                       0
Other Financing Sources                             I    F                     0                       0                     1,012                  (1,012)
Borrowing and other interest revenue                     F                     0                       1                         1                       0
Other budgetary financing sources                        F                 1,060                   1,012                         0                   1,012
Total:                                                                    (2,233)                 (3,084)                   (3,084)                      0




                                                                               - 15 -
                                                                U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2008                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 13 Less Refunds & Other Custodial Expenses                                             F      C      N                  (426,074)               (292,684)
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N               (369,348)               (261,055)                (261,055)                     0
Other Taxes and Receipts                                N                      6                     (13)                     (13)                     0
Corporation Income Taxes                                N                (54,340)                (28,150)                 (28,150)                     0
Excise Taxes                                            N                 (1,251)                 (2,370)                  (2,370)                     0
Estate and Gift Taxes                                   N                 (1,022)                   (969)                    (969)                     0
Unemployment Taxes                                      N                   (119)                   (127)                    (127)                     0
Total:                                                                   426,074                 292,684                  292,684                      0
Line Agency Line Description                                                  Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 17 Accrual Adjustment                                                                  F      C      N                     3,132                   5,588
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N                 3,000                   5,021                     5,021                      0
Other Taxes and Receipts                                N                   132                     567                       567                      0
Total:                                                                   (3,132)                 (5,588)                   (5,588)                     0




                                                                              - 16 -
                                                                U.S. Department of the Treasury                                     11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2008                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER          2007-SEPTEMBER
                                                                                      Type
 23 Amounts Provided to Non Federal Entities                                           CF      D      B                      407                      486
                                                                                     Variance:                                 0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER           2007-SEPTEMBER        Previously Reported      Line Item Changes
Excise Taxes                                            N                 (407)                    (486)                        0                  (486)
Total:                                                                     407                      486                         0                  (486)

Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER          2007-SEPTEMBER
                                                                                      Type
 24 Amounts Provided to Fund the Federal Government                                    CF      D      B                 2,366,126               2,445,619
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N      2008-SEPTEMBER           2007-SEPTEMBER        Previously Reported      Line Item Changes
Expenditure Transfers-out of financing sources         F                       13                       11                      0                      11
Other budgetary financing sources                      F               (2,366,113)              (2,445,608)                     0              (2,445,608)
Total:                                                                  2,366,126                2,445,619                      0              (2,445,597)
Line Agency Line Description                                                  Status Account NB       F/N     2008-SEPTEMBER          2007-SEPTEMBER
                                                                                      Type
 25 Accrual Adjustment - (See Same Line Item Above)                                    CF      D      B                     3,132                   5,588
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER           2007-SEPTEMBER        Previously Reported      Line Item Changes
Individual Income Tax and Tax Witholdings               N                (3,000)                  (5,021)                       0                 (5,021)
Other Taxes and Receipts                                N                  (132)                    (567)                       0                   (567)
Total:                                                                    3,132                    5,588                        0                 (5,588)



                                                                               - 17 -
                                                                U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2008                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                     Type
 26 Amounts Provided to Non Federal Entities                                    I     CL      D       B
                                                                                    Variance:                                   0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Excise Taxes                                            N                   0                       0                       (486)                    486
Total:                                                                      0                       0                        486                     486

Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                     Type
 27 Amounts Provided to Fund the Federal Government                             I     CL      D       B
                                                                                    Variance:                                   0                          0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N      2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Other Financing Sources                                F                    0                       0                  (2,445,608)               2,445,608
Expenditure transfers-out of financing sources         F                    0                       0                         (11)                      11
Total:                                                                      0                       0                   2,445,619                2,445,619
Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                     Type
 28 Accrual Adjustment - (See Same Line Item Above)                             I     CL      D       B
                                                                                    Variance:                                   0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N                   0                       0                      (5,021)                  5,021
Other Taxes and Receipts                                N                   0                       0                        (567)                    567
Total:                                                                      0                       0                       5,588                   5,588



                                                                              - 18 -
                                                                U.S. Department of the Treasury                                     11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF NET COST                                             Fiscal Year: 2008                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 42 Total Gross Costs                                                                 GC      D       B                  496,364                 461,841
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported      Line Item Changes
Interest on Debt Held by the Public                     N                241,578                 238,896                  238,896                     0
Imputed Costs                                           F                    730                     740                      740                     0
Buy/Sell Costs                                          F                  1,743                   1,550                    1,550                     0
Benefit Program Costs                                   F                  1,851                   1,766                    1,766                     0
Federal Securities Interest Expense                     F                212,423                 193,909                  193,909                     0
Borrowing and Other Interest Expense                    F                  5,044                   4,633                    4,633                     0
Borrowing Losses                                        F                      0                      10                       10                     0
Non-Federal Gross Cost                                  N                 32,995                  20,337                   20,337                     0
Total:                                                                   496,364                 461,841                  461,841                     0
Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 43 Total Earned Revenues                                                             ER      C       B                    27,013                 20,520
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported      Line Item Changes
Buy/Sell Revenue                                        F                   332                     582                       582                     0
Borrowings Gains                                        F                    44                      18                        18                     0
Borrowing and Other Interest Revenue                    F                14,239                  13,586                    13,586                     0
(Exchange)
Non-Federal Earned Revenue                             N                  12,398                    6,334                  6,334                          0
Total:                                                                   (27,013)                 (20,520)               (20,520)                         0




                                                                              - 19 -
                                                             U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                           Fiscal Year: 2008                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                             Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                   Type
 2   Beginning Balance                                                              BN      C      B                    48,782                  46,644
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Beginning Net Position                               B                 48,782                  46,644                   46,644                      0
Total:                                                                (48,782)                (46,644)                 (46,644)                     0

Line Agency Line Description                                               Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                   Type
 4   Change in Accounting Principle                                                  P      C      B                         0                          0
                                                                                  Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Total:                                                                   0                       0                           0                      0


Line Agency Line Description                                               Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                   Type
 5   Correcton of an Error                                                           P      C      B                         0                          0
                                                                                  Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Total:                                                                   0                       0                           0                      0




                                                                           - 20 -
                                                                U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                              Fiscal Year: 2008                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
  8   Appropriations Used                                                               F      C      B                   481,735                 447,057
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Other Financing Sources                            I    F                      0                       0                  447,057                (447,057)
Other budgetary financing sources                       F                481,735                 447,057                        0                 447,057
Total:                                                                  (481,735)               (447,057)                (447,057)                      0
Line Agency Line Description                                                  Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
  9   Non-exchange Revenue                                                              F      C      B                       254                      73
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                N                  108                      60                        60                       0
Other Financing Sources                            I    F                    0                       0                          2                     (2)
Expenditure transfers-in of financing sources           F                   13                      11                        11                       0
Other budgetary financing sources                       F                  133                       2                          0                      2
Total:                                                                    (254)                    (73)                      (73)                      0




                                                                              - 21 -
                                                                U.S. Department of the Treasury                                     11/18/2008 17:08:18
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                              Fiscal Year: 2008                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 10 Donations and Forfeitures of Cash and Cash Equivalents                             F      C       N                      159                     210
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N        2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported      Line Item Changes
Other Taxes and Receipts                             N                     159                     210                       210                      0
Total:                                                                    (159)                   (210)                     (210)                     0

Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 11 Transfers In/Out without Reimbursement                                             F      C       F                      (10)                     (8)
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N        2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported      Line Item Changes
Nonexpenditure transfers-out of unexpended      I    F                      0                       0                         (8)                     8
appropriations and financing sources
Nonexpenditure Transfers-out of unexpended           F                       10                           8                    0                          8
appropriations and financing sources
Total:                                                                        10                          8                    8                      16
Line Agency Line Description                                                 Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                     Type
 12 Other Budgetary Financing Sources                                                  F      C       B                       12                      (1)
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N        2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported      Line Item Changes
Other Financing Sources                         I    F                       0                       0                        (1)                     1
Other budgetary financing sources                    F                      12                      (1)                         0                    (1)
Total:                                                                     (12)                      1                          1                     0

                                                                              - 22 -
                                                              U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                            Fiscal Year: 2008                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                              Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                         Account NB    F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 12 Other Budgetary Financing Sources                                                   F    C      B                        12                      (1)




Line Agency Line Description                                               Status Account NB       F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                   Type
 14 Donations and Forfeitures of Property                                            F      C       N                       112                      73
                                                                                  Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2008-SEPTEMBER           2007-SEPTEMBER        Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                  112                       73                       73                       0
Total:                                                                  (112)                     (73)                     (73)                      0

Line Agency Line Description                                               Status Account NB       F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                   Type
 15 Accrued Interest & Discount on the Debt                                          F      C       F                    (3,870)                  7,632
                                                                                  Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2008-SEPTEMBER           2007-SEPTEMBER        Previously Reported       Line Item Changes
Other Financing Sources                          I    F                     0                        0                    7,632                  (7,632)
Other budgetary financing sources                     F                (3,870)                   7,632                        0                   7,632
Total:                                                                  3,870                   (7,632)                  (7,632)                      0




                                                                            - 23 -
                                                              U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                            Fiscal Year: 2008                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                              Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                    Type
 16 Transfers In/Out without Reimbursement                                            F      C      F                       (21)                    (24)
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Transfers-out Without Reimbursement                   F                   21                      24                        24                       0
Total:                                                                    21                      24                        24                       0

Line Agency Line Description                                                Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                    Type
 17 Imputed Financing Sources                                                         F      C      F                       729                     740
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Imputed Financing Source                              F                  729                     740                       740                       0
Total:                                                                  (729)                   (740)                     (740)                      0

Line Agency Line Description                                                Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                    Type
 18 Transfers to the General Fund and Other                                           F      C      B                   (20,788)                (12,293)
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                    729                   1,032                    1,032                       0
Other Financing Sources                          I    F                      0                       0                  (13,325)                 13,325
Other non-budgetary financing sources                 F                 (7,992)                      0                        0                       0
Other budgetary financing sources                     F                (13,525)                (13,325)                       0                 (13,325)
Total:                                                                  20,788                  12,293                   12,293                       0

                                                                            - 24 -
                                                              U.S. Department of the Treasury                                      11/18/2008 17:08:18
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                            Fiscal Year: 2008                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                              Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                         Account NB    F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                      Type
 18 Transfers to the General Fund and Other                                             F    C      B                   (20,788)                (12,293)




Line Agency Line Description                                                Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                    Type
 24 Beginning Balance                                                                BN      C      B                    72,317                  68,270
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2008-SEPTEMBER           2007-SEPTEMBER        Previously Reported       Line Item Changes
Beginning Net Position                                B                 72,317                   68,270                  68,270                      0
Total:                                                                 (72,317)                 (68,270)                (68,270)                     0

Line Agency Line Description                                                Status Account NB      F/N      2008-SEPTEMBER           2007-SEPTEMBER
                                                                                    Type
 26 Changes in Accounting Principle                                                   P      C      B                         0                          0
                                                                                   Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2008-SEPTEMBER           2007-SEPTEMBER        Previously Reported       Line Item Changes
Total:                                                                    0                        0                          0                      0




                                                                            - 25 -
                                                                 U.S. Department of the Treasury                                     11/18/2008 17:08:18
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                               Fiscal Year: 2008                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                      Type
 27 Corrections of Errors                                                               P      C       B                        0                          0
                                                                                     Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported      Line Item Changes
Total:                                                                       0                       0                           0                     0


Line Agency Line Description                                                  Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                      Type
 30 Appropriations Received                                                             F      C       B                  681,473                 451,222
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported      Line Item Changes
Appropriations received as adjusted (rescissions         F                681,473                 451,222                  451,222                     0
and other adjustments)
Total:                                                                   (681,473)                 (451,222)             (451,222)                         0
Line Agency Line Description                                                  Status Account NB       F/N      2008-SEPTEMBER          2007-SEPTEMBER
                                                                                      Type
 31 Appropriations Transferred In/Out                                                   F      C       B                       24                      27
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2008-SEPTEMBER          2007-SEPTEMBER         Previously Reported      Line Item Changes
Nonexpenditure transfers-in of unexpended              F                     24                      27                        27                      0
appropriations and financing sources
Total:                                                                        (24)                      (27)                  (27)                         0




                                                                               - 26 -
                                                                 U.S. Department of the Treasury                                    11/18/2008 17:08:18
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                               Fiscal Year: 2008                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N    2008-SEPTEMBER           2007-SEPTEMBER
                                                                                       Type
 32 Other Adjustments                                                                    F      C      B                    (111)                    (145)
                                                                                      Variance:                                0                        0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2008-SEPTEMBER          2007-SEPTEMBER       Previously Reported       Line Item Changes
Appropriations received as adjusted (rescissions         F                 (111)                   (145)                   (145)                      0
and other adjustments)
Total:                                                                        111                      145                  145                           0
Line Agency Line Description                                                   Status Account NB      F/N    2008-SEPTEMBER           2007-SEPTEMBER
                                                                                       Type
 33 Appropriations Used                                                                  F      C      B                (481,735)               (447,057)
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2008-SEPTEMBER          2007-SEPTEMBER       Previously Reported       Line Item Changes
Other Financing Sources                           I    F                        0                       0               (447,057)                447,057
Other budgetary financing sources                      F                 (481,735)               (447,057)                     0                (447,057)
Total:                                                                    481,735                 447,057                447,057                       0




                                                                               - 27 -
